<html>
<title> - STOPPING THE FLOW OF ILLICIT DRUGS IN ARIZONA BY LEVERAGING STATE, LOCAL, AND FEDERAL INFORMATION SHARING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                STOPPING THE FLOW OF ILLICIT DRUGS IN 
                 ARIZONA BY LEVERAGING STATE, LOCAL, AND 
                 FEDERAL INFORMATION SHARING
=======================================================================




                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2012

                               __________

                           Serial No. 112-94

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
78-154                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Ben Quayle, a Representative in Congress From the 
  State of Arizona:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................     4

                               Witnesses

Mr. Matthew C. Allen, Special Agent in Charge, Homeland Security 
  Investigations--Phoenix, U.S. Immigration and Customs 
  Enforcement:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Mr. Douglas W. Coleman, Special Agent in Charge, Drug Enforcement 
  Administration--Phoenix, U.S. Department of Justice:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Brig. Gen. Jose Salinas, Director, Joint Staff, Dept. of 
  Emergency & Military Affairs, Arizona National Guard:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Lt. Col. Jeffery A. Stanhope, Assistant Director, Criminal 
  Investigations, Arizona Department of Public Safety:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Ms. Elizabeth Kempshall, Executive Director, Southwest Border 
  HIDTA Arizona Region:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Mr. Jay F. Nunamaker, Jr., Director, Borders, University of 
  Arizona:
  Oral Statement.................................................    45
  Prepared Statement.............................................    46


  STOPPING THE FLOW OF ILLICIT DRUGS IN ARIZONA BY LEVERAGING STATE, 
                 LOCAL, AND FEDERAL INFORMATION SHARING

                              ----------                              


                          Monday, May 21, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                       Phoenix, AZ.
    The subcommittee met, pursuant to call, at 10:00 a.m., at 
Russell Auditorium of the Arizona National Guard, 5636 East 
McDowell Road, Phoenix, Arizona, Hon. Ben Quayle, presiding.
    Present: Representatives Quayle, Jackson Lee, and Gosar.
    Mr. Quayle. The Committee on Homeland Security Subcommittee 
on Border and Maritime Security will come to order.
    The subcommittee is meeting today to hear testimony from 
Matt Allen, special agent in charge of Homeland Security 
Investigations in Arizona; Doug Coleman, special agent in 
charge of the DEA's Phoenix Field Division; Brigadier General 
Jose Salinas from the Arizona National Guard; Lieutenant 
Colonel Jeffery Stanhope, assistant director, Criminal 
Investigations, Arizona Department of Public Safety; Elizabeth 
Kempshall, who is the executive director, Arizona High 
Intensity Drug Trafficking Area; and Dr. Jay F. Nunamaker from 
the University of Arizona on the topic of combating the cross-
border flow of illicit drugs in Arizona.
    First, I want to thank everybody, including the witnesses, 
for attending today. This is an official Congressional hearing, 
as opposed to a town hall meeting. As such, we must abide by 
certain rules of the Committee on Homeland Security and of the 
House of Representatives.
    I kindly wish to remind our guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards, are a 
violation of the Rules of the House of Representatives. It is 
important that we respect the decorum of the rules of this 
committee.
    Mr. Gosar of Arizona is here with us today. I ask unanimous 
consent that he be allowed to take part in these proceedings. 
Without objection, so ordered.
    I would also like to mention that photography and cameras 
are limited to accredited press only. I now recognize myself 
for an opening statement.
    It is an honor to be here today to discuss the vital role 
of how Federal, State, and local entities collaborate to combat 
the flow of drugs from entering our communities once they have 
crossed our borders.
    This field hearing will examine how these different 
entities work together as a last line of defense before drugs 
smuggled through Arizona make their way across the country.
    A recent GAO report indicated that we only have operational 
control of 44 percent of our border and Arizona has been on the 
forefront of cartel violence and drug smuggling as a result.
    Illicit drug revenues generate somewhere between $19 to $29 
billion for the drug cartels every single year. It is a big, 
sophisticated, and increasingly brutal business which moves 
drugs north from the source zones in Columbia, Bolivia, and 
Peru to the streets of America.
    Key transportation hubs such as Phoenix are vital 
transshipment points for large amounts of cocaine and heroin 
that cross the border and are destined for cities throughout 
the United States. In fact, according to the National Drug 
Intelligence Center, most of the heroin entering the United 
States from Mexico now comes through Arizona.
    Crystal methamphetamine, produced by the Sinaloa cartel in 
Mexican super labs, is a growing concern for law enforcement 
due to the rapid rise in the number of seizures of large 
quantities in Arizona. Drugs are moving north and bulk cash is 
moving south.
    Cartels, motivated by lucrative profits, are innovative and 
use a wide array of methods to deliver their product through a 
variety of methods: Through the land, from men with backpacks 
traversing the rough terrain of the Arizona desert; using 
hidden compartments and cars or cargo that move through the 
ports of entry; underground, using tunnels for semi-submersible 
boats that carry tons of cocaine; and through the air with 
ultra-light aircraft that is difficult for radar to detect.
    If the U.S. Government is going to be successful at 
stemming the tide of illegal drugs and its corresponding 
violence, we must be just as innovative, flexible, and nimble 
as the cartels.
    Last week in the House, we made progress combating the 
proliferation of border tunnels with the passage of the Border 
Tunnel Prevention Act, increasing the penalties for the 
construction of tunnels across the border.
    Competition for control in the drug plazas, human smuggling 
routes, and the money that follows, has led to a previously 
unimaginable level of violence and brutality. We saw last week 
the grisly discovery of 49 people found decapitated on a 
stretch of highway not far from McAllen, Texas as a result of 
the on-going war between the rival Sinaloa and Zetas cartels.
    Drug cartels competing for turf has led to the deaths of 
more than 47,000 people. In many cases, Mexican cities are more 
dangerous than war zones in Iraq and Afghanistan.
    Northern Mexico is turning into a war zone with police 
unable to control violence or enforce the law. Police, 
prosecutors, and judges are routinely assassinated and the 
local officials who are left are often given a stark choice, 
``Plata O Plomo,'' silver or lead, take the bribe or be killed.
    Once Mexican President Felipe Calderon began to increase 
pressure against drug trafficking, we saw violence escalate. 
Mexico holds its presidential elections later this year, and my 
hope is that, regardless of the outcome, the new Mexican 
president will be a partner committed to curbing the violence 
and corrosive influence of the drug cartels.
    Let me be clear. This is not just a Mexican problem. The 
effects of the drug trade are felt here at home with huge law 
enforcement costs, stash houses in our communities, cases of 
Customs and Border Protection and TSA officers corrupted 
facilitating drug smugglers and drug-related violence in our 
streets.
    While many of our cities have a low violent crime rate, on 
occasion we see the violence spill over with stray bullets 
finding innocent bystanders on the U.S. side of the border, or 
ranchers gunned down on their property.
    Denying the cartel's ability to deliver their poison to 
America's cities should be one of this Nation's principal 
goals. Cutting off the flow of drugs means less money for the 
cartels to operate and less ability to corrupt officials on 
both sides of the border. How then do we marshal our limited 
resources to combat the grave threat posed by the drug cartels?
    I believe that a layered approach that attempts to 
eradicate the crops from ever being grown, interdicts drug 
loads as they make their way from the source zones, quickly 
identifying the drugs from being hidden among legitimate cargo 
at the Nation's ports of entry, and deterring the illicit 
crossing of the vast Arizona desert offers the best chance of 
success.
    Stopping this flow is the goal of many different agencies 
at the State, local, and Federal level. The scale of the 
problem means that no one agency or level of government can do 
it alone, which means that cooperation and coordination becomes 
crucial.
    The purpose of today's hearing is to examine how all levels 
of government work together to combat the flow of illicit 
drugs. We in Congress want to ensure you have the right tools 
to disrupt the flow of drugs that move through our area and 
eventually make their way into Chicago, New York, and 
elsewhere. I look forward to hearing the witnesses' testimony 
and suggestions on how we can work together to combat the 
threat of cross-border drug trafficking.
    [The statement of Mr. Quayle follows:]
                   Statement of Honorable Ben Quayle
                              May 21, 2012
    It is an honor to be here today to discuss the vital role of how 
Federal, State, and local entities collaborate to combat the flow of 
drugs from entering our communities once they have crossed our borders.
    A recent GAO report indicated that we only have operational control 
of 44% of our border and Arizona has been on the forefront of cartel 
violence and drug smuggling as a result.
    This field hearing will examine how these different entities work 
together as a last line of defense before drugs smuggled through 
Arizona make their way across the country.
    Illicit drug revenues generate somewhere between $19 to $29 billion 
dollars for the drug cartels every single year. It's a big, 
sophisticated, and increasingly brutal business which moves drugs north 
from the source zones in Columbia, Bolivia, and Peru to the streets of 
America.
    Key transportation hubs, such as Phoenix, are vital transshipment 
points for large amounts of cocaine and heroin that cross the border 
and are destined for cities throughout the United States. In fact, 
according to the National Drug Intelligence Center, most of the heroin 
entering the United States from Mexico now comes through Arizona.
    Crystal methamphetamine, produced by the Sinaloa cartel in Mexican 
``super labs,'' is a growing concern for law-enforcement due to the 
rapid rise in the number of seizures of large quantities in Arizona.
    Drugs are moving north, and bulk cash is moving south.
    Cartels, motivated by lucrative profits, are innovative and use a 
wide array of methods to deliver their product through a variety of 
methods; through the land from men with backpacks traversing the rough 
terrain of the Arizona desert, using hidden compartments in cars or 
cargo that move through the ports of entry, underground using tunnels 
or semi-submersible boats that can carry tons of cocaine, and through 
the air with ultra light aircraft that is difficult for radar to 
detect.
    If the U.S. Government is going to be successful at stemming the 
tide of illegal drugs and its corresponding violence, then we must be 
just as innovative, flexible, and nimble as the cartels. Last week in 
the House, we made progress combating the proliferation of border 
tunnels with the passage of the Border Tunnel Prevention Act, 
increasing the penalties for the construction of tunnels across the 
border.
    Competition for control of the drug plazas, human smuggling routes, 
and the money that follows, has led to a previously unimaginable level 
of violence and brutality. We saw last week the grisly discovery of 49 
people found decapitated on a stretch of highway not far from McAllen, 
Texas as a result of the on-going war between the rival Sinaloa and 
Zetas cartels.
    Drug cartels competing for turf has led to the deaths of more than 
47,000 people--in many cases Mexican cities are more dangerous than war 
zones in Iraq and Afghanistan.
    Northern Mexico is turning into a war zone with police unable to 
control violence or enforce the law. Police, prosecutors, and judges 
are routinely assassinated and the local officials who are left are 
often given a stark choice: Plata O Plomo--silver or lead--take the 
bribe or be killed.
    Once Mexican president Felipe Calderon began to increase pressure 
against drug trafficking organizations, we saw violence escalate. 
Mexico holds its presidential elections later this year, and my hope is 
that regardless of the outcome, the new Mexican president will be a 
partner committed to curbing the violence and the corrosive influence 
of the drug cartels.
    Let me be clear, this is not just a Mexican problem. The affects of 
the drug trade are felt here at home with huge law-enforcement costs, 
stash houses in our communities, cases of Customs and Border Protection 
and TSA officers corrupted facilitating drug smugglers and drug-related 
violence in our streets.
    While many of our cities have a low violent crime rate, on 
occasion, we see the violence spill over with stray bullets finding 
innocent bystanders on the U.S. side of the border, or ranchers gunned 
down on their property.
    Denying the cartel's ability to deliver their poison to America's 
cities should be one of this Nation's principal goals. Cutting off the 
flow of drugs means less money for the cartels to operate and less 
ability to corrupt officials on both sides of the border.
    How then do we marshal our limited resources to combat the grave 
threat posed by the drug cartels?
    I believe that a layered approach that attempts to eradicate the 
crops from ever being grown; interdicts drug loads as they make their 
way from the source zones; quickly identifying the drugs from being 
hidden among legitimate cargo at the Nation's ports of entry; and 
deterring the illicit crossing of the vast Arizona desert offers the 
best chance of success.
    Stopping this flow is the goal of many different agencies at the 
State, local, and Federal level. The scale of the problem means that no 
one agency or level of government can do it alone, which means that 
cooperation and coordination becomes crucial.
    The purpose of today's hearing is to examine how all levels of 
government work together to combat the flow of illicit drugs. We in 
Congress want to ensure that you have the right tools to disrupt the 
flow of drugs that move through our area, and eventually make their way 
into Chicago, New York, and elsewhere.
    I look forward to hearing the witness's testimony and suggestions 
on how we can work better together to combat the threat of cross-border 
drug trafficking.

    Mr. Quayle. I now recognize the gentle lady from Texas, Ms. 
Jackson Lee, for any statement of position.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
holding today's hearing.
    I hope my presence here today will continue to remind 
Arizonans that there is a National focus on your issues, 
particularly the issue of stopping the flow of illicit drugs in 
Arizona by leveraging State, local, and Federal information 
sharing. I can assure you your former Governor, Secretary 
Napolitano, who I had the privilege of working with now for a 
number of years, is heavily concerned, as it impacts the 
Nation's security. As well, President Obama is concerned as 
relates to the funding that has been provided to ensure that we 
have the kind of collaboration that is so very important.
    I served on Homeland Security since the tragedy of 9/11, 
first starting on the Select Committee on Homeland Security and 
now continuing and serving as Ranking Member of Transportation 
Security. My presence here today should emphasize the National 
aspect of this issue and that we will continue to stand with 
our friends throughout the Nation to ensure that our borders 
are secure and that our people are secure as well.
    The purpose of this hearing is to determine how Federal 
agencies can work to stop the flow of illicit drugs in Arizona 
by coordinating law enforcement activities and leveraging 
relationships with State and local entities. In that respect 
let me thank the entire Arizona Federal Congressional 
delegation for their service and commitment, and to 
particularly acknowledge my friend and colleague, Congressman 
Ed Pastor, who serves in this area and serves on 
appropriations, has worked very hard on this issue, along with 
the Ranking Member of the full Committee, Bennie Thompson, who 
I have worked with ensuring border security, along with the 
Ranking Member and Chair of these committees, Ms. Miller and 
Mr. Cuellar.
    I have had the opportunity to travel to America's Northern 
and Southern Borders on many occasions. I have walked the 
borders. I have been with our Border Patrol in the late 
darkness of the night. I have walked and seen the difficulty 
and challenges that they face along with our other law 
enforcement.
    First-hand, it is important to acknowledge the good work of 
law enforcement, Federal, State, and local, in these regions. I 
have written and drafted legislation that has enhanced the 
resources with night goggles, laptops, helicopters, Jeeps that 
were necessary in the late 1990s into the 2000s. I am very 
pleased to have been part of that effort, first as a Member of 
the Judiciary Committee before 9/11 and then as a Member of the 
Homeland Security Committee after 9/11.
    Border security and immigration regulation is first and 
foremost a Federal responsibility. We are not going to shy away 
from it. We ensure and hope to ensure that that effort 
continues to be our focus along with comprehensive immigration 
reform.
    In recognition of that fact, the Federal Government has 
made an enormous investment in border security personnel, 
technology, and infrastructure in recent years. However, State 
and local law enforcement also has an important supporting role 
to play. When the safety and security of our communities are at 
stake, cooperation, coordination, and communication in these 
matters is essential. Programs like BEST, B-E-S-T, the 
Organized Crime Enforcement Security Task Force, and the High 
Intensity Drug Trafficking Areas are an integral part of 
promoting communication among law enforcement agencies in 
cities and communities within border States as well as 
providing the resources necessary for State and local law 
enforcement to assist their Federal counterparts.
    We have heard the citizens that are located along the 
border in the many States that are on the border, including 
Texas. I would like to hear from our witnesses today about 
their experiences with these programs and what we could do to 
further enhance their collective work on border security and 
combating drug trafficking at the border and communities across 
the United States.
    It is our mission to make sure that we in the Federal 
Government and local law enforcement work together as a team. 
That is the best efforts of America. U.S. efforts along the 
Southwest Border, in particular the States of Arizona and 
Texas, have and continue to receive a great deal of attention. 
The Obama administration has deployed more resources, 
personnel, technology, and infrastructure to secure our borders 
than ever before. The Border Patrol has almost doubled in size, 
more than 21,000 Border Patrol agents on the entire U.S. 
border. I have supported and written legislation to increase 
those numbers. The current administration has also used more 
than $21.5 million to increase the number of agents and 
employees for U.S. Immigration and Customs Enforcement.
    Let me thank ICE for its service. ICE has over 20,000 
employees, consisting of about 7,000 special agents, 392 of 
whom are located in Arizona working specifically to investigate 
immigration crime; human rights violations and human smuggling; 
smuggling of narcotics, weapons and other types of contraband; 
financial crimes and cyber crimes; and export enforcement 
issues.
    On a personal note, I have taken the issue of human 
smuggling personally and have worked closely with women and 
girls who have been most impacted by this heinous crime. I 
thank ICE for the work that we have done together to bring a 
stop to that tide.
    These men and women are working around the clock to secure 
our border and keep illegal goods and products and dangerous 
individuals from entering or remaining in the United States. 
But more needs to be done, specifically in the State of 
Arizona.
    Currently Arizona is one of the primary entry and 
distribution points for drugs that enter the United States from 
Mexico. We are listening. Last year approximately 23 percent of 
the narcotics and approximately 53 percent of the currency and 
monetary instruments connected with narcotics investigations 
that U.S. Immigrations Enforcement Customs, ICE, seized along 
the entire Southwest Border were seized in Arizona. The good 
news is that we are working. We can always work better and work 
collaboratively.
    Specifically, ICE seized approximately 307,000 pounds of 
marijuana, 5,400 pounds of cocaine, 1,300 pounds of 
amphetamines, and 423 pounds of heroin within the State of 
Arizona. These numbers highlight the success of all the 
Federal, State, and law enforcement entities within Arizona, 
their sacrifice and their work. But they also indicate that 
more remains to be done, particularly in border States like 
this one and like mine, in the State of Texas.
    As Members of the Committee on Homeland Security, we know 
that securing America's border communities from drug 
trafficking and its effects is an enormous task. Frankly, we 
know that securing the Nation is an enormous task and how 
grateful we are with all of the men and women. We thank them 
that we have not had a tragic incident on our soil since 9/11. 
We are working together. It does not matter what uniforms they 
happen to wear. The American people expect all law enforcement 
officers to work together in their vital effort.
    Allow me just to acknowledge at this moment the Arizona 
National Guard as well as the National Guards throughout 
America, and as well as the United States military, and as well 
to acknowledge Senator McCain and your Senatorial Federal 
Congressional delegation for their leadership. I join his 
remarks in ensuring the Federal ballot in Arizona will be fair 
with all candidates, including President Obama, on the ballot. 
I look forward to hearing more about how we can promote that 
cooperation and coordination in the interest of the safety and 
security of our Nation.
    Again I thank the Chairman. I appreciate the opportunity to 
participate in today's hearing and I look forward to what I 
hope will be a very worthwhile and insightful dialogue.
    I yield back to the Chairman.
    Mr. Quayle. Thank the gentlelady for her statement.
    Now recognize and introduce the witnesses.
    First we have Matthew Allen. He is the special agent in 
charge of Homeland Security Investigations in Arizona. Mr. 
Allen has oversight of the full spectrum of ICE investigative 
activities in the State of Arizona and leads more than 500 
personnel assigned to offices in Phoenix, Tucson, Douglas, 
Nogales, Yuma, and Flagstaff.
    Prior to his assignment in Arizona, Mr. Allen served at ICE 
headquarters in Washington, DC as the deputy assistant director 
of the Financial, Narcotics, and Public Safety Division. In 
this position he had oversight of the financial, drug, human 
rights violations, and public safety programs within Homeland 
Security Investigations.
    Mr. Allen has previously served as unit chief for the 
Contraband Smuggling Unit at ICE headquarters where he had 
programmatic and operational oversight of all of ICE's drug and 
contraband smuggling investigations throughout the United 
States.
    Next we have Doug Coleman, currently serving as special 
agent in charge of the DEA's Phoenix Field Division. As a 
special agent in charge, Mr. Coleman is responsible for 
leadership and management of all DEA's operations in the State 
of Arizona.
    A 21-year veteran of the DEA, Special Agent Coleman was 
appointed to his current position in March 2012. During his 
career, Special Agent Coleman served in numerous enforcement, 
training, supervisory, management roles throughout the agency, 
including field investigative assignments in Las Vegas, Nevada; 
Bakersfield, California; and Phoenix, Arizona. Special Agent 
Coleman has also served as an instructor at the DEA Academy in 
Quantico, Virginia, and numerous supervisory and managerial 
positions at DEA headquarters in Washington, DC.
    Next we have Brigadier General Jose Salinas. He is the 
director, Joint Staff, Arizona Joint Force Headquarters. In 
this capacity he is responsible for supporting the Governor and 
the Adjutant General in the event of State/National crisis 
response and consequence management. He also serves as the 
joint task force commander, as required, to direct critical 
support agencies. The Arizona National Guard Counterdrug 
Program and the Weapons of Mass Destruction Civil Support Team 
also fall under his authority.
    In 2009, General Salinas was assigned as the chief of staff 
of the Arizona National Guard's Joint Staff and assumed his 
current position in May 2010.
    Next we have Lieutenant Colonel Jeffery Stanhope. He is the 
assistant director of the Criminal Investigations Division at 
the Arizona Department of Public Safety. The assistant director 
is responsible for oversight of the Intelligence Bureau, 
Narcotics and General Investigations Bureau, and the Gang 
Enforcement Bureau. During his 28-year career with the 
department, Colonel Stanhope has held a variety of 
administrative and operational assignments, which provides him 
with a comprehensive view of law enforcement.
    Colonel Stanhope also serves on the Arizona Counter-
Terrorism Information Center executive board, Arizona High 
Intensity Drug Trafficking Area board, and the Alliance to 
Combat Transnational Threats board.
    Next we have Elizabeth Kempshall. She is the executive 
director of the Arizona High Intensity Drug Trafficking Area, 
or HIDTA. The Arizona HIDTA was established in 1990 as part of 
the Southwest Border HIDTA, which includes California, Arizona, 
New Mexico, and Texas.
    Ms. Kempshall began her career with the DEA in 1984 as a 
special agent in the Las Vegas district office where she worked 
as an undercover agent in several major drug investigations. 
From May 2007 to December 2010 Ms. Kempshall was the special 
agent in charge of the Phoenix Field Division for the Drug 
Enforcement Administration, which encompasses the entire State 
of Arizona.
    Dr. Jay Nunamaker is the director of the National Center 
for Border Security and Immigration at the University of 
Arizona. Mr. Nunamaker is widely published in the fields of 
collaboration and technologies and deception detection. He has 
co-founded four spin-off companies based on his research. Dr. 
Nunamaker founded the MIS department at the University of 
Arizona in 1974. He has served as the department head for 18 
years.
    I thank all the witnesses for being here today and look 
forward to your testimony.
    I now recognize Mr. Allen for five minutes of testimony.

    STATEMENT OF MATTHEW C. ALLEN, SPECIAL AGENT IN CHARGE, 
HOMELAND SECURITY INVESTIGATIONS--PHOENIX, U.S. IMMIGRATION AND 
                      CUSTOMS ENFORCEMENT

    Mr. Allen. Chairman Quayle, Ranking Member Jackson Lee, 
Congressman Gosar, thank you for the opportunity to appear 
before you today and discuss ICE's role in stopping the flow of 
illicit drugs along the Southwest Border by leveraging State, 
local, and Federal information sharing to combat transnational 
criminal organizations, or TCOs is how I will refer to them 
today.
    TCOs have grown more sophisticated, complex, and global 
over the past 10 years. They have dramatically expanded in 
size, scope, and impact, and they endanger people of all 
countries. TCOs threaten National and global security, weaken 
our economies and endanger the public by counterfeiting and 
stealing intellectual property, profit from smuggling and 
trafficking human beings, traffic in illegal narcotics and 
weapons. They exploit minors and children and threaten 
sensitive corporate and Government computer networks through 
cyber crime.
    However, no one entity can tackle global criminal 
enterprises alone. Rather, it requires a multiagency, 
multinational, and layered approach. To that end, HSI forges 
strong and cooperative relationships and works closely with our 
Federal, State and local, Tribal, and international partners to 
accomplish these goals.
    As you know, Arizona is one of the entry and distribution 
points for drugs that enter the United States from Mexico. In 
fiscal year 2011, I think as you heard this morning, 
approximately 23 percent of narcotics and about 53 percent of 
the currency and monetary instruments seized by ICE along the 
Southwest Border actually are seized here in Arizona. We seized 
about 307,000 pounds of marijuana, more than 5,000 pounds of 
cocaine, more than 1,300 pounds of methamphetamine, and 424 
pounds of heroin just in Arizona in HSI investigations.
    Arizona is bordered by the State of Sonora to our south. 
The Sinaloa cartel is the dominant criminal element in the 
State of Sonora. The border areas of Mexico that adjoin the 
United States are divided by the Sinaloa cartel into plazas 
that are supervised by plaza bosses or gatekeepers. These plaza 
bosses and gatekeepers are responsible for overseeing and 
coordinating smuggling activities in a given geographic area 
and collecting taxes and fees from anyone wishing to smuggle 
contraband, including human smuggling organizations.
    Smuggling organizations that we face are very agile and 
creative. In response to law enforcement successes, these 
organizations simply change smuggling tactics to increase their 
chances of success and avoid arrest. One example was the 
increased use of subterranean tunnels to smuggle drugs. We 
believe that the continued attempt to use tunnels to smuggle 
drugs, particularly in a place like Nogales, where we have seen 
the most tunnels in Arizona, is evidence that smugglers are 
being forced to move away from traditional smuggling techniques 
due to enhanced enforcement efforts and resources.
    In the last several years, we have seen smugglers utilize 
ultra-light aircraft to smuggle marijuana payloads up to about 
300 pounds. Again, we believe that the use of ultra-light 
aircraft is an indication that smugglers are less capable of 
smuggling marijuana using other preferred methods.
    With respect to how we have leveraged Federal, State, and 
local information sharing here in Arizona, I would like to 
discuss the West Desert Task Force, an interdiction task force 
established by my office in January 2012 and co-led with the 
U.S. Border Patrol. The task force, which includes participants 
from the Bureau of Land Management, Pinal County Sheriff's 
Office, the Arizona Department of Public Safety, and Tohono 
O'odham Police Department, focus on denying, degrading, and 
ultimately dismantling drug trafficking organizations that 
operate in Arizona's West Desert corridor through interdiction, 
intelligence collection, and investigation.
    The task force's intelligence efforts have been greatly 
enhanced by our partnership with the Arizona HIDTA, whose 
intelligence support has been invaluable.
    Since January, the task force has seized more than 41,000 
pounds of marijuana, 71 vehicles, six weapons and made 71 
arrests. It exemplifies intelligence-driven law enforcement, 
integrated interagency partnership, and expanded efforts to 
share information with our Federal, State, local, and Tribal 
partners and the government of Mexico. It illustrates the 
sustained commitment of resources, both human resources and 
technology, that DHS has designated toward securing the 
Southwest Border.
    Another example is Operation Pipeline Express, which was a 
prelude and precipitated the West Desert Task Force. As you may 
recall from last October, we concluded a 17-month multiagency 
investigation that was responsible for dismantling a massive 
narcotics trafficking organization suspected of smuggling more 
than $33 million worth of drugs per month through West Desert. 
The ring, organized around cells based in Chandler, Stanfield, 
Maricopa, use backpackers and vehicles to smuggle loads of 
marijuana and other drugs from the Arizona-Mexico border to a 
network of stash houses located in the Phoenix area. After 
arriving in Phoenix, the contraband, which also included 
cocaine and heroin, was sold and distributed to various States 
Nation-wide.
    One of the most significant developments in the last 2 
years has been a change in Mexican banking regulations that 
have severely limited the amount of U.S. dollars that can be 
deposited with Mexican financial institutions, which has proven 
to be successful to combat money laundering by cartels. This 
change has caused cartels to alter how drug proceeds are 
laundered. While we believe that cartels are still adapting to 
this change, we feel that one result may be a desire to place 
these funds into U.S. financial institutions and then wire 
proceeds to Mexico. We continue to work closely with the 
government of Mexico and other law enforcement agencies to 
identify emerging money laundering trends.
    HSI continues to expand the Border Enforcement Security 
Task Force program, which currently operates in 31 locations 
throughout the United States and Mexico. BEST leverages about 
750 Federal, State, local, and foreign law enforcement agents 
and officers representing over 100 law enforcement agencies, 
and provides a collocated platform to conduct intelligence-
driven investigations aimed at identifying, disrupting, and 
dismantling organizations that operate in the air, land, and 
sea environments.
    Thank you again for inviting me to testify today and for 
the subcommittee's continued support of ICE, Homeland Security 
Investigations, and its law enforcement mission. We look 
forward to working with our Federal, State, local, and Tribal 
partners to ensure the safety and security of all Americans. 
Happy to answer any questions you have later on.
    [The statement of Mr. Allen follows:]
                 Prepared Statement of Matthew C. Allen
                              May 21, 2012
                              introduction
    Chairman Quayle, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, I would like to thank you for the opportunity to discuss the 
role of U.S. Immigration and Customs Enforcement (ICE) Homeland 
Security Investigations (HSI) in stopping the flow of illicit drugs in 
Arizona and along the Southwest Border (SWB) by leveraging State, 
local, and Federal information sharing, as well as our efforts to 
combat transnational criminal organizations (TCO), including narcotics 
smuggling and money laundering organizations that operate along the 
SWB. Over the last 10 years, TCOs have grown more sophisticated, 
complex, and global. They have dramatically expanded in size, scope, 
impact, and endanger people of all countries. In addition, TCOs:
  <bullet> Threaten National and global security;
  <bullet> Weaken our economies and endanger the public by 
        counterfeiting and stealing intellectual property rights;
  <bullet> Profit from smuggling and trafficking human beings;
  <bullet> Traffic in illegal narcotics and weapons;
  <bullet> Exploit minors and children; and
  <bullet> Threaten sensitive corporate and Government computer 
        networks through cybercrime.
    No one entity can tackle global criminal enterprises alone. Rather, 
it requires a multi-agency, multi-national, and layered approach. To 
that end, HSI forges strong and cooperative relationships and works 
closely with our State, local, Tribal, Federal, and international 
partners toward our mission to uphold public safety and protect 
National security.
    Today, I will discuss some of the specific drug smuggling and money 
laundering threats we face and how HSI targets TCOs here in Arizona. 
But first, let me give you a brief overview of who we are and what we 
do.
    ICE comprises more than 20,000 employees with an operating budget 
of nearly $6 billion. Most people know that ICE is charged with 
enforcing the immigration laws of the United States. However, ICE is 
also responsible for investigating criminal offenses including 
narcotics trafficking with a clear articulable nexus to the U.S./Mexico 
border, money laundering, human smuggling and trafficking, violent 
transnational gangs, and intellectual property theft.
    We operate under two operational directorates--HSI and Enforcement 
and Removal Operations (ERO). The men and women of ERO are charged with 
enforcing our administrative immigration laws together with our 
partners in U.S. Customs and Border Protection (CBP) and U.S. 
Citizenship and Immigration Services. ERO's main priority is to 
apprehend and remove convicted criminals, fugitives, illegal re-
entrants, and recent border violators.
    HSI is the criminal investigative component of ICE and the largest 
criminal investigative program in the U.S. Department of Homeland 
Security (DHS), with statutory authority to investigate violations of 
more than 400 Federal criminal statutes. HSI conducts criminal 
investigations against terrorist and other criminal organizations that 
threaten National security, and combats worldwide criminal enterprises 
that seek to exploit America's legitimate trade, travel, immigration, 
and financial systems. With nearly 7,000 special agents, HSI maintains 
offices in every State and 71 offices in 47 countries. HSI's global 
footprint strengthens our capacity to conduct successful domestic, 
international, and multilateral investigations.
       the drug smuggling and money laundering threat in arizona
    Arizona is one of the entry and distribution points for drugs that 
enter the United States from Mexico. In fiscal year 2011, approximately 
23 percent of the narcotics and approximately 53 percent of the 
currency and monetary instruments connected with narcotics 
investigations that HSI seized along the entire SWB were seized in 
Arizona. Specifically, in HSI's Arizona area of responsibility, we 
seized approximately 307,000 pounds of marijuana, 5,400 pounds of 
cocaine, 1,300 pounds of methamphetamines, and 424 pounds of heroin.
    The State of Arizona is bordered by the State of Sonora to our 
south and the Sinaloa cartel is the dominant criminal element in the 
State of Sonora. The border areas in Mexico that adjoin the United 
States are divided by the Sinaloa cartel into ``Plazas'' that are 
supervised by ``Plaza Bosses'' or ``Gatekeepers.'' These plaza bosses 
and gatekeepers are responsible for overseeing and coordinating 
smuggling activities in a given geographic area and collecting taxes or 
fees from anyone wishing to smuggle contraband, including human 
smuggling organizations.
    We are often asked whether human smuggling organizations are part 
of the ``cartels.'' Based on HSI investigations and intelligence, it is 
our opinion that while alien smugglers pay taxes and fees to the 
cartels to smuggle in a specific geographic area, they are generally 
run as distinct criminal enterprises in both Mexico and the United 
States. We believe that the plaza bosses and gatekeepers play a 
coordinating role with alien smugglers, dictating when and where they 
will be allowed to cross the border. This coordination ensures that 
alien smugglers and their human cargo do not bring unwanted law 
enforcement attention, particularly in the United States, to their 
smuggling efforts. Our investigations have shown that when alien 
smugglers do not heed warnings from drug smuggling organizations about 
where and when they smuggle, they can be targeted for physical 
violence, including murder.
    By volume, marijuana is the most frequently encountered smuggled 
drug in Arizona, and is most commonly smuggled between the ports of 
entry (POE) after having been backpacked across the international 
border with Mexico. However, CBP Officers at POEs seize marijuana daily 
from both commercial and privately-owned vehicles in quantities ranging 
from under one pound to multi-thousand-pound loads in both commercial 
vehicles and cargo.
    Mexico continues to be a transit point for cocaine that has 
originated in South America, primarily Colombia, ultimately destined 
for domestic markets in the United States. Mexico also is both a 
production country and a transit point for heroin. Partly as a result 
of successful efforts to control precursor chemicals in the United 
States, Mexico has become a major source country for methamphetamine.
    The smuggling organizations that we face are very agile and 
creative. In response to law enforcement successes, these organizations 
simply change smuggling tactics to increase their chances of success 
and to avoid arrest. One such example is the increased use of 
subterranean tunnels to smuggle drugs. We believe that the continued 
attempts to use tunnels to smuggle drugs, particularly in Nogales, 
where we have seen the most tunnels in Arizona, is evidence that 
smugglers are being forced to move away from traditional smuggling 
techniques due to enhanced enforcement efforts. In addition, in the 
last several years we have seen smugglers utilize ultra-light aircraft 
to smuggle marijuana payloads of up to 300 pounds into the United 
States. We believe that use of ultra-light aircraft is an indication 
that smugglers are less capable of smuggling marijuana using other 
preferred methods. Over 350 HSI Special Agents assigned to the HSI 
Phoenix area of operations are engaged in identifying, disrupting, and 
dismantling the smuggling organizations that employ these innovative 
methods to smuggle narcotics into the United States.
    Our investigations and intelligence also tell us that proceeds of 
smuggling activities, particularly drug smuggling, move back to Mexico 
in the same geographic areas where drug organizations exercise dominion 
and control. For this reason, we believe that Arizona serves as a 
consolidation point for drug proceeds owed to the Sinaloa cartel for 
drugs smuggled into Arizona and distributed to other illicit markets 
within the United States.
    We believe that multi-million dollar quantities of drug proceeds 
are broken down into smaller quantities for smuggling in order to 
minimize the impact of a single seizure on an organization, a risk 
management practice that mimics how drugs are smuggled into the United 
States.
    One of the most significant developments in the last 2 years has 
been a change in Mexican banking regulations that severely limits the 
amount of U.S. dollars that can be deposited with Mexican financial 
institutions, which has proven to be a successful tool to combat drug 
smuggling and the cartels. This change in Mexican regulations has 
caused cartels to change how drug proceeds are laundered. While we 
believe that cartels are still adapting to this change, we believe that 
one result may be a desire to place these funds into U.S. financial 
institutions and then wire the proceeds to Mexico. We continue to work 
closely with the government of Mexico to identify emerging money 
laundering trends.
    Domestically, we have seen some changes in how drug proceeds are 
moved within the United States. In the last several years, we have seen 
domestic drug organizations attempt to place illicit funds in U.S. 
financial institutions to avoid currency transaction reporting 
requirements. In one version of this scheme, referred to as the 
``funnel account'' model, drug organization members in destination 
cities make cash deposits into bank accounts opened in Arizona. In 
turn, the account holder (a nominee for the drug organization) will 
withdraw funds in Arizona and turn them over (often minus a small fee) 
to the drug organization. The scheme has been difficult for bank anti-
money laundering personnel to identify because the funds deposited are 
under the statutory reporting limit of $10,000.
    This tactic was initially identified in Arizona as being utilized 
by human smuggling organizations, but we have since seen its use 
expanded to domestic drug organizations. We believe that the emergence 
of this tactic came as a direct result of the successful enforcement 
focus on money service businesses (MSBs) that were being used by human 
smugglers to receive payments from ``sponsors'' in the United States. 
When the ability to easily use MSBs ended, a transition to the funnel 
account model was observed. Through on-going outreach and education 
efforts with financial institutions and the Treasury Financial Crimes 
Enforcement Network, banks have begun to identify this activity and are 
reporting it to law enforcement regularly.
        money laundering and bulk cash smuggling investigations
    One of the most effective methods for dismantling TCOs is to attack 
the criminal proceeds that are the lifeblood of their operations. HSI 
takes a holistic approach toward investigating money laundering, 
illicit finance, and financial crimes by examining the ways that 
individuals and criminal organizations earn, move, store, and launder 
their illicit proceeds.
    The combination of successful financial investigations, reporting 
requirements of the Bank Secrecy Act (BSA), and anti-money laundering 
compliance efforts by financial institutions have served to strengthen 
formal financial systems. Criminal organizations are now being forced 
to seek other means to diversify the movement of illicit funds, such as 
the use of MSBs and bulk cash smuggling. HSI's broad jurisdiction 
includes the enforcement and investigation of money laundering and bulk 
cash smuggling violations. In fiscal year 2011, HSI special agents 
initiated more than 4,200 financial investigations, which involved 
allegations of some type of money laundering or cross-border financial 
crime. During that same period, Federal prosecutors obtained 
convictions in over 1,000 cases involving such conduct and ICE seized 
approximately $359 million, including $331 million in currency and 
monetary instruments.
                illicit pathways attack strategy (ipas)
    Last July, the administration took an important step in fighting 
transnational crime by issuing the Strategy to Combat Transnational 
Organized Crime. This strategy complements the administration's 
National Security Strategy by focusing on the growing threat of 
international criminal networks. The strategy's single unifying 
principle is to build, balance, and integrate the tools of American 
power to combat transnational organized crime, and related threats to 
National security--and to urge our foreign partners to do the same.
    HSI plays a key role in this multidimensional and collective 
strategy. Our response was the creation of the IPAS to break TCO 
strongholds. With the IPAS, we implement the administration's strategy 
and identify significant threats to National security. Once threats are 
identified, we integrate our authorities and resources (both domestic 
and foreign) to target, disrupt, and dismantle them.
    IPAS goes beyond our physical borders. We are working with our 
foreign and domestic law enforcement partners to attack transnational 
crime at all points along illicit pathways, and break down 
transnational networks that operate within the United States.
    IPAS is a coordinated strategy to attack criminal networks at 
multiple locations along the illicit travel continuum. The concept 
involves four basic principles:
  <bullet> Attack criminal networks within and beyond our borders;
  <bullet> Prioritize networks and pathways that pose the greatest 
        threats;
  <bullet> Participate and facilitate robust interagency engagement; 
        and
  <bullet> Pursue a coordinated regional approach that leverages 
        foreign partners.
    We focused our first IPAS on high-risk human smuggling in the 
Western Hemisphere to identify and target human smuggling organizations 
and their pathways across the globe. We initially targeted human 
smuggling as this is often a precursor crime that can lead to other 
illegal activities, including human trafficking. People may have 
illegally entered the United States only to find themselves in 
exploitative circumstances and vulnerable to being used by force, 
fraud, or coercion for the purposes of commercial sex or forced labor.
    While our initial focus of IPAS has been on human smuggling, we are 
currently expanding this strategy to include money laundering and, 
eventually, to every HSI investigative program area.
                  attacking tcos through partnerships
    We conduct outreach to industry, academics, and the general public. 
Our domestic partnerships include the HSI-led Border Enforcement 
Security Task Forces (BEST), the Organized Crime Drug Enforcement Task 
Force (OCDETF), the High Intensity Drug Trafficking Areas, Suspicious 
Activity Report (SAR) Task Forces, the Alliance to Combat Transnational 
Threats, as well as our international partnerships including a BEST 
operating in Mexico and our Transnational Criminal Investigative Units 
(TCIUs).
             border enforcement security task forces (best)
    HSI continues to expand the BEST program, which currently operates 
in 31 locations throughout the United States and Mexico. BEST leverages 
over 750 Federal, State, local, and foreign law enforcement agents and 
officers representing over 100 law enforcement agencies. BEST also 
provides a co-located platform to conduct intelligence-driven 
investigations aimed at identifying, disrupting, and dismantling 
transnational criminal organizations that operate in the air, land, and 
sea environments. In fiscal year 2011, HSI-led BESTs made 2,245 
criminal arrests, 1,130 administrative arrests, and Federal prosecutors 
obtained 1,358 indictments and 1,187 convictions in BEST-investigated 
cases.
    In 2009, Secretary Napolitano announced the formation of the first-
ever Mexico-based BEST to facilitate the exchange of law enforcement 
information and to support the joint investigation of criminal activity 
that falls within HSI's jurisdictional purview. These crimes include 
weapons and munitions smuggling, money laundering, human smuggling, 
human trafficking, customs fraud, and cybercrime violations. The Mexico 
City BEST includes both Mexican law enforcement officers and 
prosecutors working collaboratively with HSI and other U.S. 
Governmental agencies to share information and expertise in cooperative 
investigations.
                alliance to combat transnational threats
    The Alliance to Combat Transnational Threats is a collaborative, 
cooperative enforcement approach against criminal organizations using 
the capabilities and resources of a variety of Arizona agencies 
including Federal, State, local, and Tribal law enforcement and public 
safety organizations. These strategic partners continue to develop 
coordinated operational plans based on each agency's mission, 
capabilities, and jurisdiction.
                      phoenix ocdetf strike force
    The mission of the Phoenix OCDETF Strike Force is to disrupt and 
dismantle major drug trafficking organizations designated by the U.S. 
Department of Justice as Consolidated Priority Organization Targets and 
their affiliates that operate in Arizona, thereby reducing the 
availability of illegal drugs and reducing drug-related crime in 
Arizona. The groups are co-located and comingled, and are supervised by 
their respective agencies with a Drug Enforcement Administration (DEA) 
Assistant Special Agent in Charge serving as the Strike Force Commander 
who oversees fiduciary responsibilities and administrative taskings 
related to the Strike Force. An executive committee, composed of 
leaders of Federal agencies with a chairmanship that rotates annually, 
approves changes in policy or procedures in addition to resolving 
jurisdictional conflicts with other law enforcement agencies. The U.S. 
Attorney approves funding based on a budget request submitted by the 
Strike Force Commander on a monthly basis.
    The OCDETF Strike Force consists of investigators from Federal, 
State, and local law enforcement agencies. The Federal participants 
include: HSI, the U.S. Attorney's Office for the District of Arizona, 
the Bureau of Alcohol, Tobacco, Firearms, and Explosives, the Federal 
Bureau of Investigation (FBI), the Internal Revenue Service, the U.S. 
Marshals Service, the Bureau of Indian Affairs, and DEA. The State and 
local partners include the Arizona Department of Public Safety, the 
Phoenix Police Department, the Maricopa County Sheriff's Office, the 
Mesa Police Department, and other State and local agencies.
             arizona suspicious activity reports task force
    In 2004, the Internal Revenue Service--Criminal Investigations 
(IRS-CI), HSI, and other Federal law enforcement agencies began meeting 
in Phoenix to exploit SAR and other BSA information to effectively 
target money laundering in Arizona. Leads were developed by zip code 
and case category, and then referred to the agencies for investigation.
    In late 2006, the U.S. Attorney's Office took leadership of the SAR 
Review Committee and an Assistant U.S. Attorney began attending 
meetings and actively assisting in guiding investigations. In 2007, in 
conjunction with the SAR Review Committee, a Federal grand jury was 
empanelled to investigate and facilitate initial SAR investigations.
    The HSI/IRS-CI SAR Task Force was formed as a result of the Phoenix 
SAR Review Committee, where both HSI Phoenix and the IRS-CI jointly 
cooperated to exploit BSA information. The SAR Review Committee evolved 
from a working group that primarily focused on de-confliction to an 
effort by HSI and IRS-CI to jointly work money laundering cases. The 
dramatic increase in SAR filings by financial institutions in Arizona 
led to a necessity by HSI to form partnerships with other Federal, 
State, and local agencies to combat money laundering of criminal 
proceeds in Arizona.
               hsi's national bulk cash smuggling center
    The National Bulk Cash Smuggling Center (BCSC) generates long-term, 
multi-jurisdictional bulk cash investigations through the processing of 
incident reporting and by conducting intelligence-driven operational 
support to HSI field offices. When contacted by Federal, State, and 
local law enforcement for support, the BCSC provides information to the 
requesting jurisdiction by exploiting the full scope of its law 
enforcement intelligence data sources, assisting that jurisdiction in 
every way possible, including the referral to a local HSI field office 
for immediate response. Since its inception in August 2009, the BCSC 
has initiated 568 investigations, which have resulted in 319 criminal 
arrests, 96 indictments, and 68 convictions.
                           operation firewall
    HSI's Operation Firewall disrupts the movement and smuggling of 
bulk cash en route to the border, at the border, and internationally 
via commercial and private passenger vehicles, commercial airline 
shipments, airline passengers, and pedestrians. Since 2005, Operation 
Firewall has been enhanced to include surge operations targeting the 
movement of bulk cash destined for the SWB to be smuggled into Mexico. 
Since its inception in 2005 through March 2012, Operation Firewall has 
resulted in more than 6,613 seizures totaling more than $611 million, 
and the arrests of 1,416 individuals. These efforts include 469 
international seizures totaling more than $267 million and 302 
international arrests.
                 international partners and cooperation
    HSI works closely with our Federal law enforcement and 
international partners to disrupt and dismantle transnational criminal 
organizations. As part of these efforts, HSI currently maintains nine 
TCIUs worldwide composed of highly-trained host country counterparts 
who have the authority to investigate and enforce violations of law in 
their respective countries. Since HSI officials working overseas do not 
possess general law enforcement or investigative authority in host 
countries, the use of these TCIUs enables HSI to provide actionable 
information in order to dismantle, disrupt, and prosecute TCOs while 
respecting the sovereignty of the host country and cultivating the 
international partnership. During fiscal year 2011, two more TCIUs 
became operational and HSI plans to open additional TCIUs by the end of 
fiscal year 2012.
    In fiscal year 2010, HSI's international partners played a central 
role in Operation Pacific Rim. Working closely with the Colombian 
National Police, Mexican authorities, our partners in Ecuador and 
Argentina, as well as the FBI and DEA, HSI led an investigation that 
spanned the globe and effectively disrupted one of the most powerful 
and sophisticated bulk cash and drug smuggling organizations in the 
world. This organization was believed to be responsible for nearly 42 
percent of all Colombian cocaine smuggled into the United States. The 
case began when HSI and Colombian police intercepted a suspicious 
shipment of what was labeled as fertilizer, but was instead bundles of 
shrink-wrapped cash.
    HSI's El Dorado Task Force, which coordinated Operation Pacific 
Rim, targets financial crime at all levels and consists of 260 members 
of Federal, State, and local law enforcement, intelligence analysts, 
and Federal prosecutors. As a result of this domestic and international 
law enforcement cooperation, this operation resulted in 12 convictions, 
24 indictments, and the seizure of more than $174 million in cash, 3.8 
tons of cocaine, and $179 million in property.
                    working with mexican authorities
    Assisting the government of Mexico in its battle against drug 
violence requires strong coordination to ensure both nations are 
operating together to combat this transnational threat. HSI continues 
to engage Mexican authorities on a number of levels in our joint 
efforts to combat border violence. For example, HSI's Border Liaison 
Officer (BLO) program allows HSI to more effectively identify and 
combat cross-border criminal organizations by providing a streamlined 
information and intelligence-sharing mechanism. The BLO program creates 
an open and cooperative working relationship between United States and 
Mexican law enforcement entities. HSI has recently quadrupled the 
number of officers in the BLO program by redeploying agents to the SWB.
    The HSI Attache Office in Mexico City has coordinated the 
establishment of vetted Special Investigative Units of Mexican law 
enforcement officers. HSI has also strengthened the coordination with 
the government of Mexico by increasing HSI Attache personnel in Mexico 
by 50 percent and deploying additional special agents to Mexico. 
Through our Attache in Mexico City and associated sub-offices, HSI 
assists in efforts to combat transnational drug trafficking, weapons 
smuggling, human smuggling, and money laundering syndicates in Mexico. 
HSI Attache personnel work on a daily basis with Mexican authorities to 
combat these transnational threats, and these efforts have been 
enhanced by additional officers.
                          transnational gangs
    Transnational gangs often conspire with other dangerous criminal 
organizations, which allow them to mature from small autonomous 
criminal groups into larger, international criminal enterprises engaged 
in human smuggling and trafficking, narcotics smuggling and 
distribution, money laundering, weapons smuggling and arms trafficking, 
kidnapping, extortion, and export violations.
    Operation Community Shield, an anti-gang program, combines HSI's 
statutory and administrative enforcement authorities with our law 
enforcement partnerships. Operation Community Shield increases public 
safety by combating the growth and proliferation of transnational gangs 
in communities throughout the United States. Operation Community Shield 
consists of targeted enforcement operations using criminal arrest and 
administrative removal authorities against gang members, thereby 
disrupting the ability of gangs to operate.
    In addition, these targeted enforcement operations lead to the 
development of information critical to the successful prosecution of 
transnational gang members for conspiracy and racketeering-related 
violations. Since its inception in 2005, Operation Community Shield has 
led to the arrest of nearly 26,000 gang members and associates, of whom 
over 10,000 had prior violent criminal histories. In addition, more 
than 300 gang leaders have been arrested and more than 3,000 weapons 
have been seized.
    In April 2012, as part of Operation Community Shield's Nation-wide 
transnational gang enforcement operation, HSI concluded ``Project 
Nefarious,'' which consisted of enforcement operations in 150 cities in 
both the United States and Honduras while working with 148 other law 
enforcement agencies at the international, Federal, State, and local 
levels. Of the 792 individuals arrested, 637 were identified as gang 
members or associates from approximately 168 different gangs. Of the 
637 gang members arrested, 479 were charged with criminal offenses, 158 
were charged with administrative violations, 210 had violent criminal 
histories, and 10 were wanted for murder. In addition, HSI special 
agents seized 52 firearms, over 75 grams of methamphetamine, nearly 
2,500 kilograms of marijuana, over 2,445 grams of cocaine, $201,437 in 
U.S. currency, and 14 vehicles.
                               conclusion
    Thank you again for the opportunity to appear before you here in 
Phoenix and for the subcommittee's continued support of ICE and its law 
enforcement mission. ICE is committed to enhancing public safety and 
combating narcotics trafficking and money laundering through efforts 
such as those I have discussed here today. We look forward to 
continuing our good work, refining our existing programs and 
partnerships, and collaborating with our Federal, State, local, and 
Tribal partners to ensure the safety and security of all Americans.
    I would be pleased to answer any questions.

    Mr. Quayle. Thank you, Mr. Allen.
    The Chairman now recognizes Mr. Coleman for his testimony.

STATEMENT OF DOUGLAS W. COLEMAN, SPECIAL AGENT IN CHARGE, DRUG 
ENFORCEMENT ADMINISTRATION--PHOENIX, U.S. DEPARTMENT OF JUSTICE

    Mr. Coleman. Distinguished Members of the committee, on 
behalf of Administrator Leonhart and the Drug Enforcement 
Administration, I appreciate your invitation to testify today 
regarding the growing threat of drug trafficking in the United 
States and DEA's efforts to share information with our Federal, 
State, and local partners.
    The mission of the Drug Enforcement Administration's 
Phoenix Field Division is to identify, target, and dismantle 
major drug trafficking organizations operating in or 
transshipping through the State of Arizona. The primary focus 
of this mission is an intelligence-driven targeting of the 
Sinaloa cartel-related command-and-control elements whose 
operations have the greatest impact on Arizona.
    By collectively focusing our State, National, and 
international resources on disrupting and dismantling these 
organizations through strategic high-level targeting, the DEA's 
Phoenix Field Division, with its State, local, and Federal 
partners, achieve a greater impact on the overall drug 
trafficking operations affecting our State and Nation.
    The Arizona-Mexico border provides a plethora of smuggling 
opportunities for the Sinaloa cartel and other Mexican-based 
DTOs. This corridor is a primary transshipment zone for 
methamphetamine, cocaine, heroin, and marijuana destined for 
U.S. markets. Arizona cities, including Phoenix and Tucson, are 
home to large-scale drug trafficking organizations responsible 
for sourcing wholesale quantities of many illicit drugs to 
distribution cells throughout the United States.
    In addition, because of Arizona's proximity to the Mexico 
border, drug proceeds in the form of bulk currency flow from 
the U.S. distribution cells back to Arizona based drug cells 
for return to Mexico-based command elements.
    Faced with this on-going threat, the achievements obtained 
by DEA Arizona are directly attributed to the strong 
partnerships developed with our State, local, Federal, Tribal, 
and military colleagues. With our deconfliction, intelligence, 
and resource sharing, drug law enforcement in Arizona has been 
its most effective.
    For example, the DEA's partnership with the Arizona HIDTA 
has expanded the resources in both entities and driven a mutual 
goal of achieving a greater impact on the DTOs operating 
throughout this State.
    Since August 2011 the DEA's intelligence manager has led 
the HIDTA Investigative Support Center, facilitating the 
intelligence sharing and investigative needs of other HIDTA 
participants as well as non-HIDTA agencies throughout Arizona. 
The combined intelligence efforts of State, local, and Federal 
partnerships in the ISC promote the successes of the 
investigations within the individual HIDTA initiatives, some of 
which are led by DEA agents personnel.
    DEA also participates in the Organized Crime Drug 
Enforcement Task Force, the OCDETF program, which is another 
major contributor to the success of DEA and drug law 
enforcement in Arizona. Through its expanded resources to 
support State and local investigations and the deputization 
authority provided by DEA on OCDETF-designated cases, the 
OCDETF program expands the potential for the continued and 
collaborative identification and targeting of high-level drug 
trafficking organizations by Arizona law enforcement. With more 
State and local agencies taking advantage of this resource and 
authority and partnership with DEA, an increase in 
investigative information sharing and deconfliction proves to 
be the certain gain.
    One of the most valuable resources dedicated to the DEA's 
enforcement intelligence operations has been provided by the 
Arizona National Guard. The counterdrug operations and 
intelligence support provided at the State, local, and Federal 
law enforcement by the Guard has proven critical to the on-
going success of drug trafficking investigations both 
tactically and strategically. Those intelligence analysts who 
have been assigned to DEA's Arizona intelligence programs 
assist with the overwhelming amount of information gleaned from 
on-going operations and high-level investigations conducted by 
DEA. The National Guard's commitment supplements the ever-
increasing need for intelligence support as DEA in Arizona 
continues its pursuit of the command-and-control elements of 
the Sinaloa drug cartel and its associated organizations.
    The partnerships, programs, and dedicated resources shared 
by and with the DEA have created multiple venues for 
information intelligence sharing for law enforcement within our 
State.
    Enhanced by DEA's National-level participation in the El 
Paso Intelligence Center, DEA's Special Operations Division, 
the OCDETF Fusion Center, and programs including DEA's Internet 
Connectivity Endeavor, National License Plate Reader 
Initiatives, and State and local and National deconfliction 
efforts, law enforcement opportunities to leverage the 
resources available in furtherance of drug trafficking 
investigations is at a unique and optimum level for all law 
enforcement in Arizona.
    Again, on behalf of DEA, I thank the committee for the 
opportunity to speak today. I am happy to answer any questions 
you have.
    [The statement of Mr. Coleman follows:]
                Prepared Statement of Douglas W. Coleman
                              May 21, 2012
    Distinguished Members of the Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, on behalf of 
Administrator Leonhart and the Drug Enforcement Administration (DEA), I 
appreciate your invitation to submit written testimony today regarding 
the growing threat of drug trafficking in the United States and DEA's 
efforts to share information with our Federal, State, local, and Tribal 
partners.
                              introduction
    The mission of the Drug Enforcement Administration is to enforce 
the controlled substances laws and regulations of the United States and 
bring to the criminal and civil justice system of the United States, or 
any other competent jurisdiction, those organizations and principal 
members of organizations, involved in the growing, manufacture, or 
distribution of controlled substances appearing in or destined for 
illicit traffic in the United States.
    DEA has the largest permanent U.S. investigative law enforcement 
presence overseas, and since its formation in 1973, has been assigned a 
global drug enforcement mission that extends far beyond our Nation's 
borders. Currently, DEA has 85 offices in 65 countries.
                      national information sharing
    DEA leads the El Paso Intelligence Center (EPIC), a multi-agency 
National tactical intelligence center that focuses its efforts on 
supporting law enforcement efforts in the Western Hemisphere, with a 
significant emphasis on the Southwest Border. Through its 24-hour Watch 
function, EPIC provides immediate access to participating agencies' 
databases to law enforcement agents, investigators, and analysts. This 
function is critical in the dissemination of relevant information in 
support of tactical and investigative activities, de-confliction, and 
officer safety.
    In support of National target deconfliction, DEA plays a primary 
role in both supporting and participating in the National Virtual 
Pointer System (NVPS). NVPS facilitates agents and officers 
coordinating investigations of common targets by connecting existing 
target deconfliction systems, such as those operated by the HIDTAs and 
RISS network, throughout the country. As agents and officers enter the 
subjects of current investigations, they are notified if another NVPS 
participant is also investigating that target. Point-of-contact 
information is exchanged and agents and officers contact one another to 
exchange detailed information.
    In December 2008, DEA launched a National License Plate Reader 
(LPR) Initiative in direct response to the smuggling of illicit drug 
monies out of the United States, primarily via the U.S.-Mexico border. 
The LPR program promotes information sharing and coordination through a 
deconfliction mechanism that notifies the appropriate parties when 
common links are identified among investigations. This program uses 
existing U.S. law enforcement database capabilities with LPR technology 
to monitor and target vehicles commonly used to transport bulk cash and 
other contraband. The program is available to all Federal, State, 
local, and Tribal law enforcement organizations through the El Paso 
Intelligence Center (EPIC) and through the DEA Internet Connectivity 
Endeavor (DICE).
    DICE enables any participating Federal, State, local, and Tribal 
law enforcement agency to de-conflict investigative information, such 
as phone numbers, email addresses, bank accounts, plane tail numbers, 
and license plates, to identify investigative overlaps. The system, 
accessible through the internet, allows users to be notified if an 
overlap occurs and provides points of contact information so users can 
discuss the investigative links.
    Another example of DEA's commitment to information sharing is the 
Special Operations Division (SOD): A DEA-led, multi-agency, operational 
coordination center whose mission is to establish seamless law 
enforcement strategies and operations aimed at dismantling National and 
international trafficking organizations by attacking their command-and-
control communications. SOD facilitates coordination, deconfliction, 
and communication among DEA divisions and over 20 participating 
agencies identifying overlapping investigations and helps to ensure 
intelligence is shared between DEA and SOD's participating agencies. 
SOD has coordinated several of law enforcement's largest strikes 
against the cartels in recent years, bringing together Federal law 
enforcement agencies, State and local law enforcement, and our foreign 
law enforcement counterparts to effect massive, coordinated enforcement 
action against the cartels to deliver maximum impact.
    Further, DEA participates in the OCDETF Fusion Center (OFC), an 
operational intelligence center that provides Federal law enforcement 
agencies with a complete intelligence picture of targeted drug 
trafficking organizations (DTO) and their financial infrastructure 
through enhanced technical capabilities and analysis in support of the 
OCDETF program.
                           threat in arizona
    Arizona encompasses 24 percent of the entire 1,969-mile shared 
border with Mexico and houses six Ports of Entry (POEs). The Arizona/
Mexico border provides many smuggling opportunities for the Sinaloa 
cartel as well as other Mexican-based DTOs. This corridor is a primary 
transshipment zone for methamphetamine, cocaine, heroin, and marijuana 
destined for United States markets. The cities of Phoenix and Tucson 
are home to large-scale organizations responsible for sourcing 
wholesale quantities of many illicit drugs to distribution cells 
throughout the United States. Because of Arizona's proximity to the 
Mexico border, drug proceeds in the form of bulk currency flow from 
U.S. distribution cells back to Arizona-based drug cells for movement 
to Mexican traffickers.
    DTOs operating in the Arizona corridor utilize independent 
organizations that specialize in smuggling drugs through the desert 
areas or POEs whereby drugs are concealed in compartments in vehicles 
or in cover loads on tractor trailers. Desolate areas between POEs act 
as primary smuggling routes for the large-scale marijuana 
transportation groups operating in this corridor. In addition, these 
transportation groups utilize the many National parks, monument areas, 
wildlife refuges, and Indian reservations along the Arizona/Mexico 
border. The Tohono O'Odham Indian reservation, which covers 
approximately 75 miles along the Arizona/Mexico border, is such a 
remote area that there is virtually no chance of detection by law 
enforcement. Additionally the Tribal members have traditionally 
traveled to ancestral and sacred lands that they consider part of the 
Tohono O'odham Nation but are located just south of the border with 
Mexico.
                        dea response in arizona
    The DEA Phoenix Field Division (PFD) Intelligence Program is 
focused on the development and dissemination of law enforcement 
intelligence that drives and supports enforcement operations towards 
the highest level domestic and international targets. Through robust 
intelligence collection efforts and a vigorous Title-III/wire intercept 
program, the DEA PFD coordinates and disseminates drug-related 
investigative leads and valuable intelligence to our Mexico offices, 
SOD, EPIC, and other DEA offices throughout the United States.
    Since August 2011, DEA PFD has been leading the Arizona High 
Intensity Drug Trafficking Area (HIDTA) Investigative Support Center 
(ISC). The Arizona ISC is a combined Federal, State, local, and Tribal 
initiative which serves as an information and law enforcement 
intelligence hub in support of Arizona's HIDTA initiatives as well as 
other non-HIDTA law enforcement entities within Arizona. ISC 
Intelligence Analysts represent multiple agencies, including DEA, 
Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), Arizona National Guard, Arizona's Department of 
Public Safety, and law enforcement entities in Tempe, Tucson, and 
Maricopa County. All are co-located in both Tucson and Phoenix 
operating as one Investigative Support Center. These partnerships 
promote a dynamic intelligence and information-sharing environment 
which is critical to the analytical focus of the ISC in its effort to 
support the various HIDTA initiatives in the detection, disruption, and 
dismantlement of drug trafficking and other associated criminal 
organizations. The collaborative focus of the ISC are as follows: To 
identify and de-conflict information to the fullest extent; to 
coordinate the dissemination of actionable intelligence; and to provide 
investigators potential targets and relevant information to expand 
investigations to the highest level in order to achieve the most 
significant impact on large-scale drug trafficking organizations. This 
streamlined analytical process facilitates the identification and 
reporting of drug trends and availability as well as emerging drug 
threats, officer safety issues, and an overall strategic picture for 
the Southwest Border area in Arizona.
    The DEA Phoenix Field Division includes 11 Task Force groups 
located throughout the division and its subordinate offices. These task 
forces include seven DEA Task Force groups as well as four HIDTA 
groups. The PFD's task force program includes 56 task force officers 
(TFO) representing 21 State and local law enforcement agencies from 
throughout the State of Arizona. The task force program supports State 
and local agencies throughout the State by providing training, funding, 
investigative and intelligence resources, and Federal deputation to 
State and local law enforcement agencies in Arizona. Task Force groups 
frequently work investigations with a local and/or regional focus that 
are brought to the respective groups by their State and local agency 
TFOs. Virtually every enforcement group in the PFD has State or local 
TFOs assigned to it. All DEA State and local TFOs are afforded access 
to all of the resources available to any DEA Special Agent.
    In closing, DEA will continue to work with its Federal, State, 
local, and Tribal counterparts to investigate, disrupt, and dismantle 
drug trafficking organizations operating globally, with a specific 
nexus to Arizona and its surrounding region. Furthermore, DEA will 
continue its priority of information sharing and coordination with all 
of our partners in the law enforcement community.

    Mr. Quayle. Thank you, Mr. Coleman.
    The Chairman now recognizes General Salinas for his 
testimony.

 STATEMENT OF BRIG. GEN. JOSE SALINAS, DIRECTOR, JOINT STAFF, 
  DEPT. OF EMERGENCY & MILITARY AFFAIRS ARIZONA NATIONAL GUARD

    General Salinas. Mr. Chairman, Members of the committee, it 
is a privilege to be here today providing you information 
regarding the Arizona National Guard's role in stopping illicit 
drugs from moving into and through our State.
    Authorized by the National Defense Authorization Act of 
1989, the National Guard counterdrug program authorizes up to 
4,000 National Guard members to perform counterdrug activities 
in all 54 States and territories. The Arizona National Guard's 
counterdrug program, which is referred to as the Joint Counter 
Narco/Terrorism Task Force, is currently the third largest 
behind California and Texas. For the past 22 years, the task 
force has provided unsurpassed support and has maintained 
positive relationships with over 70 Federal, State, and local 
law enforcement and community organizations, to include DEA, 
DHS and ICE, FBI, the Arizona HIDTA, Arizona DPS, and the 
Arizona Counter-Terrorism Information Center.
    The task force support missions to these organizations 
include criminal analyst support, communication support, ground 
reconnaissance, aerial reconnaissance, and civil operations, 
which were formerly known as drug demand reduction operations. 
In fiscal year 2011 task force missions directly contributed to 
operations resulting in drug-related seizures worth $176 
million. With an '11, with a fiscal year 2011 budget of $9 
million, this represents an 1,800 percent return on investment.
    The Arizona task force has been gradually reduced from 300 
personnel in the early 1990s to a program with approximately 
115 today. According to the President's fiscal year 2013 
proposed budget, the DOD counter narcotics budget will be 
reduced by $100 million. Seventy-five percent of that reduction 
will be borne by the National Guard's counterdrug program. As a 
result, the National Guard counterdrug program is projected to 
receive only 9 percent of the overall DOD counter narcotic 
budget, which is down from 24 percent in fiscal year 2012.
    The projected reduction in funding will result in over 
1,000 fewer National Guard members across all 54 States and 
territories. This reduction translates to approximately 4,000 
fewer missions in the agencies in this area and 4,000 fewer 
flying hours supporting counter narcotic operations against the 
sizable, highly adaptive, transnational criminal organizations 
that aim to exploit our borders and communities.
    The impact on the Arizona Joint Narco/Terrorism Task Force 
is devastating and will result in a 47 percent reduction from 
115, approximately 115 personnel in fiscal year 2012 to 60 
personnel in fiscal year 2013. This proposed $4 million 
reduction represents a potential loss of $62 million in 
seizures and support to all the agencies represented at this 
table.
    In addition to the task force, Arizona has supported two 
Presidentially-declared Southwest Border operations in support 
of DHS.
    The first, Operation Jump Start, from 2006 to 2008 cost 
$1.2 billion, involved 6,000 National Guard members and 
resulted in $900 million worth of seizures across the four 
Southwest Border States. Forty percent of Operation Jump Start 
resources were allocated to Arizona.
    Operation Phalanx, which has been on-going from 2010 to 
present, has an Arizona-specific cost to date of $50 million, 
has involved 560 Arizona National Guard members, and has 
resulted in $90 million in seizures within Arizona.
    Although these missions were effective, we believe you 
would be better served with consistent funding to inure to 
State, county drug programs with proven track records.
    I must impress upon you the significant experience and 
strategic capabilities that Arizona's Joint Counter Narco/
Terrorism Task Force can offer to our Federal, State, and local 
law enforcement agencies. The task force's abilities and the 
high quality of support they provide is the result of 
partnerships built over the last 22 years.
    In testimony to your committee in March 2011, the Arizona 
Adjunct General, Major General Hugo Salazar, stated that 
military support of law enforcement would be best served by 
increased funding to the task force drug program in lieu of 
temporary border security missions like Operations Jump Start 
and Phalanx; providing adequate funding to the task force is 
far more economical and presents a very limited military 
presence. He argued that increased support would allow law 
enforcement elements to more effectively integrate National 
Guard resources knowing they will have a sustained and 
predictable level of support for an extended period of time. 
Only through dedicated and consistent funding will our law 
enforcement partners continue to be able to trust and utilize a 
powerful resource such as the Arizona Joint Counter Narco/
Terrorism Task Force.
    Once again, I appreciate the opportunity to be here today. 
The Arizona National Guard is an organization committed to our 
Nation's security. More importantly, it is an organization 
whose citizens, soldiers, and airmen will continue to train, 
prepare, and stand ready to serve the President of the United 
States, the Governor of Arizona, and the citizens of this great 
Nation. I look forward to answer your questions.
    [The statement of General Salinas follows:]
                   Prepared Statement of Jose Salinas
                              21 May, 2012
                                overview
    Madame Chair, Members of the committee, thank you for inviting me 
here today. My name is Brigadier General Jose Salinas; I am the 
Director of the Joint Staff for the Arizona National Guard. It is a 
privilege to be here today providing you information regarding the 
Arizona National Guard's role in stopping illicit drugs from moving 
into and through our State.
    The National Guard has a long and honored history of service to the 
country. Although the present-day National Guard was established with 
the Militia Act of 1903, the National Guard's heritage can be traced 
back to December 13, 1636, when the Massachusetts legislature ordered 
the formation of the first State-run militia. Since that day, the 
National Guard has remained ready to answer the Nation's call during 
times of emergency and conflict. In honor of that great tradition, 
Soldiers and Airmen of the Arizona National Guard continue to stand 
ready to answer that call. Since September 11, 2001, over 9,000 of our 
Arizona Soldiers and Airmen have been mobilized, and served, or are 
currently serving in harm's way in the defense of our great Nation.
    The National Guard is unique in that it serves a dual mission and 
must be ready and capable of performing both its State and Federal 
mission. In addition to serving the Nation on a Federal deployment or 
mobilization, members of the National Guard also serve the State, ready 
to be called upon by the Governor to assist our civil authorities in 
response to natural disaster or emergency, and to protect the lives and 
property of the citizens of Arizona. Our National Guard Soldiers and 
Airmen reflect the highest levels of professionalism and dedication. 
They stand ready, be it at home or abroad, to answer the call to defend 
our great Nation.
    To understand the differences and distinctions of these dual 
missions, it is first important to understand the various authorities 
that Soldiers and Airmen can operate under, as these directly impact 
mission sets, command and control, and ultimately organizational 
readiness. There are three different statuses that a National Guard 
Service member can operate under while performing military duties: 
``State Active Duty,'' ``Title 32,'' or ``Title 10.''
    Under State Active Duty status, the National Guard is, at all 
times, a State government entity, operating under the command and 
control of the Governor of Arizona and The Adjutant General. National 
Guard forces under State Active Duty are paid with State funds and 
perform duties authorized by the Governor and in accordance with State 
law. While National Guard forces are in a State Active Duty status, the 
Posse Comitatus Act (18 U.S. Code,  1385), which restricts Federalized 
troops from performing law enforcement duties, does not apply because 
they are not under the command and control of the Federal Government. 
The Posse Comitatus Act, along with its supporting legislation and 
regulations, precludes Federal military forces from acting as a primary 
instrument of law enforcement. It has come to symbolize the separation 
of civilian affairs from military influence. Nonetheless, National 
Guard troops in a State Active Duty status may participate in law 
enforcement duties in accordance with the applicable provisions of 
State law and as directed by the Governor of Arizona.
    The U.S. Constitution also authorizes the National Guard to operate 
under State control, but in the service of the Federal Government--
``Title 32.'' Title 32 of the U.S. Code, authorizes the use of, and 
provides Federal funds to National Guard forces performing a Federal 
mission while under the command and control of their respective 
Governor. For example, National Guard forces were deployed by Governors 
using Federal funds and in compliance with prescribed Federal 
operational standards to our Nation's airports following the terrorist 
attacks of September 11, 2001. Although Federal appropriations were 
used to fund National Guard forces for a Federal mission, Posse 
Comitatus did not apply because National Guard forces were not under 
the command and control of the President, but rather with their 
respective Governors.
    In addition to State Active Duty and Title 32 Status, National 
Guard service members can also be in a ``Title 10'' status. National 
Guard service members under Title 10 U.S. Code are Federally-funded and 
are placed under Federal control for National defense purposes. The 
Federal Government has the authority to ``Federalize'' National Guard 
forces to mobilize and deploy for Federal missions. These service 
members are commonly known to be in ``Title 10 or active duty status,'' 
meaning the President and Federal Government solely command and control 
units under this title. This approach places the Federalized National 
Guard forces in Title 10 Status under the Command and Control of the 
President, the Secretary of Defense, and Combatant Commander. It severs 
the National Guard's relationship with its State Governor.
    The Arizona National Guard is tasked, under both State and Federal 
authority with five additional missions: Emergency Response, Counter-
Drug, Counter-Terrorism, International Programs, and Southwest Border 
security. Through the execution of these missions, the Arizona National 
Guard has developed key relationships with various Federal, State, and 
local agencies. Having our Soldiers and Airmen working with law 
enforcement provides a mutually beneficial relationship. Beyond the 
measureable results of this combined effort, both parties stand to 
profit from the sharing of information and training. In addition to the 
opportunity to use and hone their military skills, Soldiers and Airmen 
gain additional skills by working with Federal, State, and local law 
enforcement and other community organizations. This makes them better 
Soldiers and Airmen, and improves their units when they are mobilized 
for overseas deployments. Yet another quality of the National Guard is 
this ability to utilize their unique civilian expertise. For example, 
several of our Soldiers and Airmen work full-time for the very agencies 
we support. However, it is the Arizona National Guard's cooperative 
missions that provide the greatest opportunities for this mutually 
beneficial cross-training.
            arizona joint counter narco/terrorism task force
    Authorized by the National Defense Authorization Act in 1989 under 
Title 32, Section 112 of the U.S. Code, the National Guard Counterdrug 
Program authorizes up to 4,000 National Guard members to perform drug 
interdiction and counterdrug activities in all 54 States and 
territories. The Arizona National Guard's Counter Drug program, 
referred to as the Joint Counter Narco/Terrorism Task Force, began 
operations in 1989 and is currently the third largest behind California 
and Texas. The mission of the Joint Counter Narco/Terrorism Task Force 
is to provide military counterdrug and drug demand reduction support to 
local, State, and Federal law enforcement agencies and community-based 
organizations. For the past 22 years, the highly skilled Soldiers and 
Airmen of the Joint Counter Narco/Terrorism Task Force have provided 
unsurpassed operational counterdrug support, and continue to offer the 
continuity necessary to foster and maintain positive relationships with 
over 70 Federal, State, and local drug enforcement agencies and 
community organizations across the State of Arizona. These 
relationships have resulted in significant contributions to counter-
narcotic operations along the Southwest Border.
    The Joint Counter Narco/Terrorism Task Force is currently staffed 
with 76 Army National Guard Soldiers, and 38 Air National Guard Airmen, 
totaling 114 personnel serving in Full-Time National Guard Duty--
Counter Drug status in accordance with United States Code, Title 32, 
Section 112. As stated earlier, Soldiers and Airmen of the National 
Guard serving under State control are not subject to the provisions set 
forth by the Posse Comitatus Act. Joint Counter Narco/Terrorism Task 
Force members have been given authorization to perform ``Support Only'' 
Counter Drug duties. It is this support role that brings the greatest 
benefit to our partners. The Joint Counter Narco/Terrorism Task Force 
provides Department of Defense specific skill sets in support of 
civilian agencies, enhancing their capabilities, and at the same time 
allowing them to devote their skill sets to their primary mission.
    The Joint Counter Narco/Terrorism Task Force provides support to 
Federal agencies such as Customs and Border Protection, Homeland 
Security Investigations, Drug Enforcement Administration, Federal 
Bureau of Investigation, and the Arizona High Intensity Drug 
Trafficking Area Center. Along with these Federal agencies, the Joint 
Counter Narco/Terrorism Task Force provides counter drug support to 
State and local agencies such as Arizona Department of Public Safety, 
Arizona Counter-Terrorism Information Center, Metro Intelligence 
Support and Technical Investigation Center, and various county and city 
law enforcement agencies. Currently, approved Joint Counter Narco/
Terrorism Task Force support missions include the following categories:
    Investigative Case and Analyst Support.--Embedded analysts in law 
enforcement offices throughout the State of Arizona serve to improve 
information sharing between Federal, State, and local agencies. These 
trained personnel assist assigned law enforcement agencies in 
researching and analyzing case information and producing law 
enforcement intelligence products. This investigative case and analyst 
support allows for better utilization of law enforcement resources, and 
enables the supported agencies to make effective strategic decisions 
based on accurate and reliable intelligence. During fiscal year 2011, 
58 personnel provided investigative case and analytical support to our 
law enforcement partners, resulting in $121,986,032 in seized illicit 
drugs, currency, weapons, and other property.
    Communications Support.--Technical experts are assigned to law 
enforcement agencies such as Customs and Border Protection for use at 
their stations along the international border and to assist with 
command and control operations. This support requires the mastery of 
many complex monitoring devices, cameras, ground sensors, and voice 
communication equipment and directly enhances officer safety in the 
field. In fiscal year 2011, 13 personnel provided communications 
support that assisted our law enforcement partners in the seizure of 
10,521 pounds of marijuana valued at $5,524,043.
    Ground Reconnaissance.--The Joint Counter Narco/Terrorism Task 
Force's ground reconnaissance teams support local, State, and Federal 
law enforcement agencies with uniquely suited advanced optical 
technology. These teams operate covertly, and always in support of law 
enforcement in field conditions to provide military-specific skills to 
supported agencies' interdiction efforts against the flow of illegal 
drugs that enter the United States between Arizona's Ports of Entry. In 
fiscal year 2011, the 21 members of Arizona's Ground Reconnaissance 
teams were instrumental in the seizure of over 27,370 pounds of 
marijuana, 20 weapons, and assorted confiscated equipment and currency 
with a total value of $17,867,578.
    Aerial Reconnaissance.--The Joint Counter Narco/Terrorism Task 
Force employs both the OH-58 helicopter and RC-26 fixed-wing aircraft 
as aerial observation assets. Arizona Army National Guard OH-58 
helicopters are available to support law enforcement during both day 
and night operations using forward-looking infrared systems, thermal 
imaging reconnaissance, Aviator's Night Vision Imaging System, live 
video downlink, and illumination systems. The Arizona Air National 
Guard RC-26 aircraft is employed as a regional asset for high-value 
counterdrug and narco-terrorism cases. This fixed-wing platform 
provides superior standoff capability for covert operations. Both 
aerial assets provide enhanced officer safety, improved interdiction 
operations in remote drug corridors, and other forms of valuable aerial 
command-and-control capabilities. During fiscal year 2011, Aerial 
Reconnaissance support resulted in the seizure of illicit drugs, 
currency, weapons, and other property valued at $30,231,477.
    Civil Operations, formerly known as Drug Demand Reduction 
Support.--Civil Operations/Drug Demand Reduction teams work closely 
with community-based organizations and support the specific needs of 
local communities and school systems. All Civil Operations/Drug Demand 
Reduction support efforts are focused on identifying, supporting, 
educating, and mentoring/coaching Arizona youth in collaboration with 
local community organizations. Whereas other Joint Counter Narco/
Terrorism Task Force missions focus on combatting illicit drugs through 
drug trafficking interdiction, Civil Operations/Drug Demand Reduction 
focuses on reducing the demand for those drugs. Operating in line with 
the 2012 National Drug Control Strategy, the Joint Counter Narco/
Terrorism Task Force utilizes Civil Operations/Drug Demand Reduction 
support to assist those community organizations that have opened a 
second front against the drug traffickers moving through our State. 
Civil Operations/Drug Demand Reduction Support places some of our 
Nation's heroes in front of our children and young adults. Our soldiers 
and airmen come from a variety of backgrounds, and as National Guard 
members, live in the communities they support. This shared background 
allows our Civil Operations/Drug Demand Reduction soldiers and airmen 
to relate to the children they mentor. It allows them to not just see 
random children, but children who are from the same places they live 
and work in everyday. The soldiers and airmen of Civil Operations/Drug 
Demand Reduction are trained leaders and mentors.
    The nature of the Civil Operations/Drug Demand Reduction mission 
makes it difficult to measure success. There is no way to track the 
decisions that these children will make in the future. However, in 
fiscal year 2011, Civil Operations/Drug Demand Reduction, through their 
involvement in over 200 community events, was able to engage, educate, 
and mentor 52,200 of Arizona's children. Despite the vital role Drug 
Demand Reduction has played in the drug prevention education of our 
children, this mission is currently projected to be eliminated, given 
the resource constraints of the Department of Defense's proposed fiscal 
year 2013 budget.
    The combined capabilities of the Arizona Joint Counter Narco/
Terrorism Task Force have made significant contributions to the drug 
interdiction efforts of the Federal, State, and local law enforcement 
agencies working together to stop the flow of illicit drugs into 
Arizona. In fiscal year 2011, Joint Counter Narco/Terrorism Task Force 
missions directly contributed to law enforcement operations resulting 
in seizures of 145,759 pounds of marijuana ($93,394,817), 1,918 pounds 
of cocaine ($15,633,625), and 1,872 pounds of methamphetamine 
($27,152,337). A total value of all seized drugs (including those not 
listed) resulted in $140,887,700 in drug seizures. The addition of 
$35,607,723 in non-drug seizures (guns, vehicles, illicit cash) 
combined to equal a total of $176,495,423 that did not reach the hands 
of drug traffickers as a result of the combined effort of the Joint 
Counter Narco/Terrorism Task Force and their supported agencies. Given 
the Joint Counter Narco/Terrorism Task Force's fiscal year 2011 budget 
of $9,344,745.00, the amount in seizures represents a 1,889% return on 
investment.
    The Arizona Joint Counter Narco/Terrorism Task Force has shrunk 
over the years from a program consisting of well over 300 personnel in 
the early 1990s, to a program of approximately 115 today. Many of these 
reductions have been the result of reduced funding, and redefined 
mission sets; however the recent economic challenges facing the Nation 
have begun to have a major effect as well. According to the President's 
fiscal year 2013 budget request, the Department of Defense Counter 
Narcotics budget of $1.1 billion represents a loss of $100 million in 
OCONUS and CONUS drug interdiction activities. Seventy-five million 
dollars of the $100 million reduction is projected to come out of the 
National Guard Counterdrug State Plan's budget. This $75 million 
reduction represents a 42% loss of the National Guard's fiscal year 
2012 budget.
    The Department of Defense's counter narcotic support to the 
National Guard Counterdrug Program decreased gradually from 2003 to 
2012. These gradual reductions were small enough that the Joint Counter 
Narco/Terrorism Task Force leadership could realign resources to gain 
optimum strategic advantage. In fiscal year 2013, proposed budget 
support to the National Guard Counterdrug Program was reduced 
dramatically to a historic low of 9% of the Department of Defense's 
counter narcotic budget from 24% in fiscal year 2012. This reduction 
will significantly degrade the National Guard's ability to support its 
Congressionally-mandated mission in support of the National Drug 
Control Strategy. The projected reduction in funding will result in 
over 1,100 fewer National Guard members across all 54 States and 
territories. This reduction translates to approximately 4,100 fewer 
missions and 4,000 fewer flying hours supporting counter-narcotic 
operations against the sizable, highly adaptive, organized drug cartels 
and transnational criminal organizations, aiming to exploit America's 
borders and communities.
    The impact to the Arizona Joint Counter Narco/Terrorism Task Force 
is devastating and will result in a 47% reduction in force from 114 
personnel in fiscal year 2012, to 60 personnel in fiscal year 2013. 
This represents a 60% reduction from 2011 personnel levels. Potential 
loss of personnel in fiscal year 2013 by mission set:
  <bullet> Intelligence Analyst.--Loss of 14 personnel (30% reduction);
  <bullet> Communications Support.--Loss of 9 (100% reduction);
  <bullet> Ground Reconnaissance.--Loss of 9 (39% reduction);
  <bullet> Aerial Reconnaissance.--Loss of 3 (33% reduction);
  <bullet> Drug Demand Reduction.--Loss of 11 (92% reduction).
    A potential loss of $62,248,318 in seizures of drugs, weapons, 
vehicles, cash, and other property as a result of a $3,793,529 
reduction in funding from fiscal year 2012 to fiscal year 2013.
           arizona border operations--historical perspective
    Geographically speaking, Arizona has a total area of just over 
113,998 square miles and is the sixth-largest State in the union. 
Arizona has an estimated population of well over 6 million. Arizona 
shares 389 miles of international border with Mexico and has seven 
major ports of entry. Found between Arizona's ports of entry are a 
variety and combination of barriers that include pedestrian fencing, 
vehicle fencing, Normandy barriers, triple strand barbed wire fencing 
and cattle guard crossings located on the Tohono O'odham Indian 
Reservation only. The sovereign territory of the Tohono O'odham Nation 
consumes 75 miles (28%) of the Arizona/Mexico border. Nearly one-third 
of this reservation extends south directly into Mexico. The Tohono 
O'odham Nation does not acknowledge the international border between 
the United States and Mexico, and residents living on Tribal lands in 
Mexico can traverse freely at any time.
               operation jump start (june 2006-july 2008)
    Operation Jump Start was a Presidentially-declared, 2-year, $1.2 
billion program, spread across the four Southwest Border States. The 
mission required 6,000 National Guard members the first year, and 3,000 
the second year. The Department of Homeland Security and Customs and 
Border Protection were allocated forces based on their assessed needs 
that resulted in Arizona receiving 40% of the forces; the largest 
percentage of the four Southwest Border States. The goal of Operation 
Jump Start was to augment Customs and Border Protection with additional 
manpower for administrative and operational assistance missions, 
alleviating Border Protection agents of these responsibilities and 
allowing those agents to be sent back out to the field where they were 
needed most. Guard members from 51 of the 54 States and territories 
served in Arizona performing duties that included Entry Identification 
Teams, camera operators, logistical support, aviation support and 
engineering support. In total, 17,750 personnel participated on the 
mission. These personnel were comprised of individual volunteers, 
sourced unit rotations, and unit annual training rotations. During the 
first year of Operation Jump Start, an average of 2,400 National Guard 
personnel conducted operations in support of law enforcement efforts in 
Arizona. That number was reduced to 1,200 personnel during the second 
year.
    From data collected from all four Southwest Border States, 
Operation Jump Start resulted in the seizure of approximately 321,625 
pounds of marijuana and cocaine worth nearly $900,000,000. The mission 
was also responsible for 176,721 alien apprehensions, 1,116 vehicle 
seizures, and $80,688 in currency seizures. In Arizona, engineering 
support created 23.5 miles of permanent vehicle barriers, 43 miles of 
temporary barriers, 24.5 miles of primary fence, 9.1 miles of secondary 
fence, 5 miles of road construction, and 57 miles of road improvement. 
The mission ended in July, 2008.
         operation phalanx phase one (july 2010-february 2012)
    On May 25, 2010, the President directed the temporary use of up to 
1,200 National Guard personnel on the Southwest Border to support 
Department of Homeland Security requirements. Arizona was authorized 
560 of the 1,200 personnel for the mission which equates to 46% of 
total mission personnel. Like Operation Jump Start, National Guard 
personnel are funded under U.S. Code Title 32  502(f), in accordance 
with the published Department of Defense order. Operation Phalanx 
supports both Customs and Border Protection and Homeland Security 
Investigations by supporting three key mission sets; Entry 
Identification Teams, Video Surveillance System support, and 
Intelligence Analysis.
    Of the 560 personnel initially authorized for Operation Phalanx in 
Arizona, 504 personnel were tasked to support entry identification 
sites that operated on a 24-hour basis in close proximity to Arizona's 
Southern Border. Soldiers and Airmen staffed 25 overt Entry 
Identification Team sites across four stations in the Tucson sector. 
Due to increased threat and violence along the international border, 
Arizona National Guard personnel were armed and assumed a higher arming 
status than similar missions during Operations Jump Start. Rules for 
the use of force were clearly defined, published, and provided to each 
service member on the mission.
    Phase One of Operation Phalanx continued through 29 February 2012, 
with operations in Arizona costing $48.7 million. The mission resulted 
in 35,628 observations leading to 19,778 apprehension assists with 
87,035.49 pounds of marijuana being seized. The value of the marijuana 
seized exceeded the cost of Arizona's portion of the mission by $30 
million. As a result of the mission, Homeland Security Investigations 
saved an estimated 83,160 manpower hours, representing an estimated 
$3.2 million in savings to the agency.
            operation phalanx phase two (march 2012-present)
    In December 2011, the Department of Defense announced National 
Guard personnel supporting the Department of Homeland Security would be 
reduced from 1,200 to no more than 300 personnel, and included a change 
in mission. In addition to continuing the intelligence analyst mission, 
the National Guard transitioned from a ground observation role to an 
aerial reconnaissance mission. Given the new mission scope, there are 
currently 52 personnel conducting aerial surveillance operations in 
support of Customs and Border Protection. This aerial task force 
utilizes six OH-58 helicopters equipped with advanced aerial 
surveillance capabilities organic to the military. In addition to 
National Guard aviation assets, there are 15 personnel assigned as 
intelligence analyst providing support to Homeland Security 
Investigations at offices in Phoenix, Tucson, and Yuma. For the current 
portion of Operation Phalanx, Arizona has an authorized strength of 77 
personnel.
    The Soldiers and Airmen of Operation Phalanx continue to work 
closely with supported agencies to better integrate efforts and 
resources. Through interagency collaboration, greater information 
sharing is emerging, enabling the employment of assets in a more 
deliberate manner with higher levels of effectiveness. The development 
of techniques, tactics, and procedures is on-going and is producing 
favorable results.
    Since initiation of the second phase of Operation Phalanx, Aviation 
operations in Arizona have executed a total of 953 flight hours. 
Additionally, the task force has been credited by Customs and Border 
Protection in assisting with 2,457 observations, leading to 1,875 
apprehension assists resulting in the seizure of 22,720 pounds of 
marijuana.
                 usnorthcom and joint task force north
    USNORTHCOM was established on October 1, 2002 to provide command 
and control of Department of Defense homeland defense efforts, and to 
coordinate Defense Support of Civil Authorities. Operating under the 
control of USNORTHCOM is Joint Task Force North. Joint Task Force 
North's mission is to support our Nation's Federal law enforcement 
agencies in the identification and interdiction of suspected 
transnational threats within and along approaches to the continental 
United States. In the execution of this mission, Joint Task Force North 
has designated the Southwest Border as an area of high priority, and 
has designated Arizona's border area as a primary focus.
    Like the Joint Counter Narco/Terrorism Task Force and other 
National Guard Southwest Border initiatives, Joint Task Force North 
supports Federal law enforcement agencies by providing Department of 
Defense capabilities. However, Joint Task Force North forces are 
restricted by the Posse Comitatus Act to only operate in a civil 
support role. The performance of these support roles offer tremendous 
training opportunities for Federal active duty and reserve units, 
allowing them to hone military skills while providing valuable support 
to our Federal law enforcement agencies.
    Given the similarities in mission, the Arizona National Guard and 
Joint Task Force North continue to develop their partnership. Recent 
discussions with Joint Task Force North have brought to light several 
possible benefits of a closer working partnership. Such a partnership 
could serve to create valuable training opportunities for our soldiers 
and airmen, while providing much-needed support to our Federal, State, 
and local law enforcement agencies. This dialog serves to show that all 
military organizations will continue to pursue avenues that will ensure 
the highest level of service and support to the Nation.
    The National Guard in a Title 32 status is the only Department of 
Defense provider capable of fully supporting domestic law enforcement 
agencies in the fight against illicit drugs and transnational threats 
to the homeland due to its exemption from the Posse Comitatus Act. 
Congress has repeatedly demonstrated its recognition of both the 
capabilities and efficiencies that the National Guard brings to the 
counterdrug fight, while simultaneously providing training and 
operational experience for National Guard personnel. The National Guard 
has played a crucial role in securing our borders and stopping the flow 
of illegal drugs into Arizona and our Nation. Throughout Operation Jump 
Start and Operation Phalanx, our soldiers and airmen displayed 
dedication and professionalism in their support of Federal law 
enforcement. The Arizona National Guard is proud to have had the 
opportunities to serve our Nation and our State during these border 
security missions, and will always be ready to continue this service.
    Before closing, I must impress upon you again, the significant 
experience and strategic capabilities that Arizona's Joint Counter 
Narco/Terrorism Task Force can offer to our Federal, State, and local 
law enforcement agencies. The Joint Counter Narco/Terrorism Task 
Force's abilities and the high quality of support they provide is the 
result of a partnership built over 22 years. In a testimony to your 
committee on March 15, 2011, the Arizona Adjutant General, Major 
General Hugo Salazar stated that military support of law enforcement 
would be best served by increased funding to the Joint Counter Narco/
Terrorism Task Force in lieu of temporary border security missions like 
Operations Jump Start and Phalanx; providing adequate funding to the 
Joint Counter Narco/Terrorism Task Force is far more economical. 
General Salazar argued that increased support would allow law 
enforcement elements to more effectively synchronize, plan, and 
integrate National Guard resources and personnel, knowing they will 
have a sustained and predictable level of support for an extended 
period of time. The Arizona Joint Counter Narco/Terrorism Task Force 
offers proven effective and efficient support of our law enforcement 
agencies, and does so by presenting a very limited military presence. 
Only through continued and consistent funding will our law enforcement 
partners continue to be able to trust in and utilize a powerful 
resource such as the Joint Counter Narco/Terrorism Task Force. For our 
Federal, State, and local law enforcement agencies to continue to 
effectively combat the movement of illicit drugs into and through 
Arizona, they must do so with a united front and consistent resources.
    Once again, I appreciate the opportunity to be here today. The 
Arizona National Guard is an organization committed to our Nation's 
safety. More importantly, it is an organization whose citizen soldiers 
and airmen will continue to train, prepare, and stand ready to serve 
the President of the United States, the Governor of Arizona, and to 
bring continued pride to the people of this great Nation.

    Mr. Quayle. Thank you, General.
    The Chairman now recognizes Lieutenant Colonel Stanhope for 
his testimony.

STATEMENT OF LT. COL. JEFFERY A. STANHOPE, ASSISTANT DIRECTOR, 
  CRIMINAL INVESTIGATIONS, ARIZONA DEPARTMENT OF PUBLIC SAFETY

    Colonel Stanhope. Mr. Chairman, Members of the 
subcommittee, good morning. Thank you for the opportunity to 
appear before you today.
    Given our limited time today, I would like to highlight 
several key points related to my department's efforts to 
stopping the flow of narcotics through information sharing.
    My department is a State-level law enforcement agency which 
has primarily jurisdiction over highway safety, narcotics, 
organized crime enforcement, and intelligence. We also provide 
such services as scientific analysis, criminal justice 
information management, communications, and investigative 
assistance in support of Federal, State, Tribal, local law 
enforcement partners.
    As one of the four Southwest Border States, Arizona has 
been identified as a major transshipment point of narcotics 
coming from Mexico for distribution throughout North America. 
The Arizona border with Mexico is approximately 372 miles long, 
has a rugged terrain and is sparsely populated. The crime 
groups who prefer to operate under a veil of secrecy capitalize 
on these factors. We at DPS have identified drug cartels and 
organized crime as the single largest criminal threat to public 
safety in Arizona.
    In order to disrupt the flow of narcotics, DPS utilizes an 
intelligence-led policing model to focus our enforcement 
efforts to maximize impact we have on drug trafficking. DPS 
also seeks out partnership opportunities with our Federal, 
State, Tribal, local law enforcement partners in order to 
combat narcotics trafficking.
    Intelligence-led policing, which you have heard from my 
colleagues earlier, in partnering strategies yield two 
important critical results: The first, information sharing, and 
the second, program partnering such as task forces.
    At DPS we believe both information sharing and partnering 
maximizes our ability to impact public safety issues through 
forced multiplication and increased operational efficiencies. 
Some of the more prominent multiagency programs which combat 
narcotics trafficking that we are involved in are Arizona 
Counter-Terrorism Information Center; the HIDTA, Arizona HIDTA; 
Alliance to Combat Transnational Threats; the Rocky Mountain 
Information Network; Gang and Immigration Team Enforcement 
Mission; Arizona Auto Theft Authority; Vehicle Theft Task 
Force; highway interdiction and canine programs and Highway 
Patrol; and Commercial Vehicle Enforcement, also in Highway 
Patrol Division.
    Each of these information sharing enforcement programs, and 
partnerships therein, impact organized crime groups who traffic 
narcotics but also who traffic weapons, bulk cash, and human 
smuggling. An intended consequence of these partnering efforts 
is the networking information sharing that occurs between law 
enforcement agency officials and investigators. This 
information sharing further enhances Arizona law enforcement's 
ability to combat narcotics trafficking through refined 
targeting, case and operational deconfliction, and building 
trust and understanding between our law enforcement partners.
    One of the most significant challenges we face when it 
comes to stemming the flow of narcotics is the fiscal reality 
in which we operate. Drug cartels are not constrained by budget 
or manpower issues, political considerations, statutory 
prohibition, or geographic boundaries. In contrast, to combat 
the war on drugs, DPS has relied upon Federal and State grant 
programs to support our enforcement and partnership efforts.
    DPS receives Federal, State grant funding to support the 
following intelligence support enforcement programs: The ACTIC 
through Arizona DHS, Department of Homeland Security; HIDTA 
through funding from ONDCP. Commercial Vehicle Enforcement is 
heavily funded by the Motor Carrier Safety Alliance Program, 
which is a Federal initiative. Vehicle Theft Task Force is 
funded through the Arizona Auto Theft Authority. RMIN is a RISS 
project; Federal funding is received there. GIITEM is funded 
wholly by line item State funding.
    Without grant funding it is unlikely DPS would be able to 
sustain current enforcement programs targeting drug traffickers 
and organized crime along the border. We would, therefore, 
appreciate your continued support of these Federal and State 
grant programs.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer questions you and other Members have regarding DPS' 
efforts to share information in furtherance of stemming the 
flow of narcotics in Arizona and our Nation. Thank you.
    [The statement of Colonel Stanhope follows:]
               Prepared Statement of Jeffery A. Stanhope
                              May 21, 2012
    Chairman Miller, Vice Chairman Quayle, and Members of the 
Subcommittee on Border and Maritime Security, thank you for the 
opportunity to provide this written statement for the record of the 
Arizona Department of Public Safety's views regarding information 
sharing by Federal, State, and local law enforcement as a means to 
stopping the flow of illicit drugs into and through Arizona. The 
Arizona Department of Public Safety (DPS) is one of many committed law 
enforcement partners who work together in the fight to stop narcotics 
trafficking into and through Arizona.
    In this report, I will provide you with information on the DPS 
mission, organization, and partnerships. By creating clear agency 
strategies, building relationships with our law enforcement partners, 
and sharing of information we are better able to respond to the threats 
created by the transnational crime groups that operate along the 
Arizona-Sonora border area. I will attempt to demonstrate the level and 
depth of cooperation that DPS and Arizona law enforcement have achieved 
to combat drug trafficking.
                            agency overview
    The Arizona Department of Public Safety enforces State law with 
primary responsibility in the areas of traffic safety, criminal 
interdiction, narcotics enforcement, organized crime investigations, 
auto theft, and specific regulatory functions as prescribed in Arizona 
Revised Statute 41-1711 and 1712. DPS is comprised of the Director's 
Office and three divisions, Highway Patrol, Criminal Investigations, 
and Technical Services. Department services include: Criminal 
intelligence collection, analysis, and dissemination; scientific 
analysis and evidence preservation; criminal justice information 
management; State-wide communications; licensing of security guards and 
private investigators; Arizona's fusion center and aviation medical and 
rescue operations. DPS also provides support to other Federal, State, 
and local agencies in operational support, investigations, technical 
assistance, and training.
    Today, the department, with its State headquarters in Phoenix, 
maintains offices in more than 80 Arizona communities and cities within 
the State's 15 counties. Roughly, 1,700 full-time department employees, 
and more than 150 volunteers, help the agency fulfill its support and 
operational objectives in the critical areas of highway and public 
safety, criminal interdiction, scientific analysis, as well as 
technical and operational support of other criminal justice agencies.
    The Director's Office provides guidance and oversight to the agency 
and defines the mission of the agency. The Director is responsible to 
the Governor for the conduct and administration of the department.
    The Highway Patrol Division (HPD) at DPS is the largest and most 
recognized division within the agency. HPD is often referred to as the 
agency's flagship division and has a history dating back to 1931 when a 
State highway patrol function was first created in Arizona. The mission 
of HPD is to ensure the safe and expeditious use of the highway 
transportation system for the public and to provide assistance to local 
and county law enforcement agencies. DPS patrols approximately 5,798 
\1\ miles of interstate and State highways in Arizona. HPD also 
provides services and enforcement in commercial motor vehicle, tow 
truck, school bus enforcement and safety programs, as well as being 
responsible for the air rescue and aviation services for the Department 
and in support of other law enforcement agencies State-wide.
---------------------------------------------------------------------------
    \1\ Highway Patrol Division, Review of statistical data, Captain 
Jeff King, May 9, 2012.
---------------------------------------------------------------------------
    The division is comprised of four Patrol Bureaus, Commercial 
Vehicle Enforcement Bureau, Capitol Police Department, and Aviation 
Section. The Patrol Bureaus are aligned based on geographic regions--
North, South, Metro West, and Metro East. The Commercial Vehicle 
Enforcement Bureau and the Aviation Section are State-wide programs 
administered centrally with satellite offices strategically located 
throughout the State. In addition to its patrol function, the Metro 
East Bureau also administers many of the division's specialty units 
such as the Canine District, the Motor District, the DUI Enforcement 
Squad, Drug Interdiction, and the DUI Warrant Squad.
    The Criminal Investigations Division (CID) at DPS is committed to 
providing the highest-quality investigative and specialized response 
services to the public and the criminal justice community. The mission 
of the Criminal Investigations Division is to protect the public by 
deterring crime using innovative investigative and specialized 
enforcement strategies and resources.
    The Criminal Investigations Division conducts State-wide criminal 
investigations, specialized enforcement activities, and high-risk 
tactical response on behalf of or in support of other Federal, State, 
Tribal, and local criminal justice agencies. The Division's primary 
investigative responsibilities are narcotics trafficking, fugitive 
apprehension, organized crime, intelligence, vehicle theft, gangs, 
human smuggling, computer and financial crimes, as well as major 
criminal investigations and sensitive special investigations when 
requested by other criminal justice agencies. CID has three bureaus, 
Intelligence, Investigations, and Gang Enforcement. Within these 
bureaus specialized services such as Special Weapons and Tactics 
(SWAT), Explosives Ordinance Detail (EOD), Special Investigations Unit 
(SIU), State Gang Task Force (GIITEM) and Vehicle Theft Interdiction 
(VTI) are provided.
    The Technical Services Division (TSD) at DPS is responsible for 
developing and coordinating scientific, technical, regulatory, and 
support services essential for promoting public safety in Arizona. 
Special attention is given to providing scientific analysis and 
criminal justice support to Arizona's criminal justice agencies. TSD 
further develops, operates, and maintains the data processing and data/
voice communications systems that operate State-wide. TSD also 
maintains a Nationally-recognized crime lab program, fingerprint 
analysis unit, sex offender registration unit, and is responsible for 
the Arizona Criminal Justice Information System (ACJIS).
                               situation
    Arizona shares 372.5 \2\ miles of border with Mexico, primarily 
with the State of Sonora. The Federal Government has installed 
approximately 123 miles of pedestrian fencing and 183 \3\ miles of 
vehicle fencing along the Southwest Border. The topography in the 
Arizona-Sonora border area varies between mountainous and flat terrain. 
The border area also has a diversity of vegetation wherein some areas 
are heavily forested; other areas are covered with desert grasses and 
cacti. The major urban areas in Arizona are Phoenix and Tucson. 
Criminal organizations are known to use Interstates 8, 10, 17, 19, and 
40 as well as U.S. Highways 85 and 86 as primary routes for 
transporting contraband through Arizona and from Arizona to other 
regions of the country. We believe Phoenix is a major trans-shipment or 
staging area for narcotics prior to being transported to other areas in 
the country.
---------------------------------------------------------------------------
    \2\ The Arizona Republic, ``Nogales Gets a More Secure Border 
Fence,'' June 30, 2011.
    \3\ The Arizona Republic, ``Nogales Gets a More Secure Border 
Fence,'' June 30, 2011.
---------------------------------------------------------------------------
    Arizona has over 75 \4\ smaller public airports, 200 private 
airports, and approximately 600-abandoned airstrips. Historically drug 
traffickers often used these airports and airstrips to smuggle illicit 
drugs into the United States. There are six land ports of entry along 
the Arizona portion of the United States-Mexico border, including San 
Luis, Lukeville, Sasabe, Nogales, Naco, and Douglas. Nogales and 
Douglas operate 24 hours a day and are the busiest ports in the State. 
There are numerous unofficial entry points (gates or open areas) 
located in remote and sparsely-populated areas along the border between 
Arizona and Mexico, which are often used by traffickers.
---------------------------------------------------------------------------
    \4\ National Drug Intelligence Center, ``Arizona Drug Threat 
Assessment,'' December 2003.
---------------------------------------------------------------------------
    There are 171 \5\ State and local police agencies operating in 
Arizona with a combined sworn contingent of 14,775 personnel. In 
addition, our Federal law enforcement partners maintain a significant 
presence in Arizona. We also have 22 \6\ Tribal communities that are 
established as sovereign nations and who have their own system of 
governance. These communities maintain their own police forces and have 
responsibility to provide law enforcement services to their individual 
Tribal communities.
---------------------------------------------------------------------------
    \5\ Arizona Peace Officer Standards and Training, ``Current 
Statistical Review,'' Compliance Manager Bob Irish, May 9, 2012.
    \6\ The University of Arizona, Economic Development Research 
Program, ``Arizona's Native American Tribes,'' http://
edrp.arid.arizona.edu/tribes.html, May 2012.
---------------------------------------------------------------------------
                           threat assessment
    We believe there is no greater criminal threat to the citizens of 
Arizona and to this Nation than Mexico's drug trafficking 
organizations. These syndicates are believed to be largely responsible 
for all Government corruption in Mexico and they hinder Mexico's growth 
and prosperity as being a Nation with promise. President Calderon 
remarked in speeches in March and October 2009 that corruption was a 
serious problem in the police forces and a primary reason for the use 
of the military in the domestic counter-narcotics fight. President 
Calderon stated that the future of democracy in Mexico is at stake in 
the Government's fight against corruption and organized crime.\7\
---------------------------------------------------------------------------
    \7\ Global Security, ``Mexico-Corruption,'' http://
www.globalsecurity.org/military/world/mexico/corruption.htm, May 2012.
---------------------------------------------------------------------------
    In October 2008, the Executive Director of the United Nations 
Office on Drugs and Crime (UNODC) Antonio Maria Costav,\8\ during the 
first-ever gathering of the Ministers Responsible for Public Safety of 
the Americas in Mexico City he stated, ``As a hemisphere, the Americas 
face the world's biggest drug problem.'' Mr. Costa added that ``whether 
we measure it in hectares of cultivation, tons of production, its 
market value or even by the gruesome number of people killed in the 
dirty trade'' the drug crisis affecting the security of the ordinary 
people in the area is huge. ``Your citizens indeed say that what they 
fear the most is not terrorism, not climate change, not a financial 
crisis. It is public safety. And in the Americas, the biggest threat to 
public safety comes from drug trafficking and the violence perpetrated 
by organized crime,'' he stated.
---------------------------------------------------------------------------
    \8\ UN News Centre, ``Drug-Related Crime Biggest Threat To Public 
Safety In The Americas, Warns UN,'' October 9, 2008.
---------------------------------------------------------------------------
    The drug cartels fiercely defend their control over the Arizona-
Sonora border area in order to facilitate their criminal enterprises. 
There is no limit of items to be trafficked; people, illicit drugs, 
guns, stolen property, and pirated goods, as long as there is money to 
be made. These criminal organizations will stop at nothing--murder, 
assaults, thefts, acts of terrorism, bribery, etc., to accomplish their 
goals.
    According to a May 14, 2012, New York Times article,\9\ dated 
January 2012, the Mexican government reported that 47,515 people had 
been killed in drug-related violence since President Felipe Calderon 
began a military assault on criminal cartels soon after taking office 
in late 2006. The official tallies provided by the attorney general's 
office included data only through September 2011 and it showed that 
drug-related killings increased 11 percent, to 12,903, compared with 
the same 9-month period in 2010. Still, a government statement sought 
to find a silver lining, asserting that it was the first year since 
2006 ``that the homicide rate increase has been lower compared to the 
previous years.''
---------------------------------------------------------------------------
    \9\ New York Times, ``Mexico Updates Death Toll in Drug War to 
47,515, but Critics Dispute the Data,'' May 14, 2012.
---------------------------------------------------------------------------
                           strategic response
    DPS and its law enforcement partners understand what is at stake 
and that there is an on-going assault by organized crime groups on the 
safety and security of our citizens. We view our role in combating 
these organized crime groups as a No. 1 priority. We believe they are 
the root cause of many of the public safety issues that Arizona law 
enforcement faces. To accomplish our mission we utilize Intelligence 
Led Policing, which is, ``a strategic, future-oriented, and targeted 
approach to crime control, focusing upon the identification, analysis, 
and `management' of persisting and developing `problems' or `risks.' '' 
In simpler terms, ``it is a model of policing in which intelligence 
serves as a guide to operations, rather than the reverse.''\10\ This 
model promotes an efficient, effective, and targeted approach to 
combating identified threats. This approach also enhances our ability 
to identify new or emerging threats and allows us to focus our efforts 
in the most troublesome areas in order to maximize our impact in 
improving or maintaining public safety.
---------------------------------------------------------------------------
    \10\ Wikipedia, Definition of Intelligence-Led Policing, http://
en.wikipedia.org/wiki/Intelligence-led_policing, May 12, 2012.
---------------------------------------------------------------------------
    Creating and maintaining strong partnerships with all criminal 
justice organizations that operate in Arizona is also a component of 
our strategic response. When intelligence-led policing is combined with 
outstanding law enforcement cooperation we maximize our combined 
abilities to disrupt, degrade, or dismantle drug trafficking and 
criminal organizations. By combining Intelligence-Led Policing and law 
enforcement partnering, two very important opportunities are realized; 
the first, information sharing and the second, program partnering. Some 
of the more prominent multi-agency programs, which affect drug 
trafficking, that DPS is involved include:
Arizona Counter Terrorism Information Center (ACTIC)
    One of the most serious challenges affecting public safety is the 
timely exchange of intelligence and critical information between State, 
local, Tribal, and Federal agencies. Accurate and timely intelligence 
is the key to the most fundamental responsibility of Government, 
protecting its citizens and critical infrastructures.
    The Arizona Counter Terrorism Information Center is a prime example 
of our intelligence-based strategy and our efforts to share information 
with our partners. The Arizona Fusion Center developed as a joint 
effort between the Arizona Department of Public Safety, Arizona 
Department of Homeland Security, Federal Bureau of Investigation (FBI), 
private sector and participating Government agencies from around the 
State. Initially developed to support the Arizona homeland security 
effort, the ACTIC was established and became operational in October 
2004. The Center provides tactical and strategic intelligence 
collection, analysis, and dissemination, and is Arizona's central point 
of contact for criminal intelligence and counter terrorism issues. As 
the ACTIC program has matured its role has developed into an ``All 
Threats'' strategy.
    Today personnel from DPS, Phoenix Police Department, DHS, Arizona 
National Guard, Phoenix Fire Department, and other participating 
agencies staff the ACTIC. The Center operates on a 24/7 basis, 
providing intelligence; investigative and technical support to State, 
local, Tribal, and Federal law enforcement agencies as well as other 
agencies critical to Arizona and the country's homeland security 
efforts. The ACTIC also shares information with all other State fusion 
centers around the Nation thereby strengthening the security and safety 
of all our citizens. The FBI Joint Terrorism Task Force (JTTF) and the 
ACTIC, although no longer co-located, maintain a close working 
relationship and share information in furtherance of the ACTIC and JTTF 
missions.
    The ACTIC executive board provides leadership, oversight, and 
guidance to the operation of the fusion center. An added benefit of 
utilizing an executive board is the sharing of information and problem 
solving that occurs from relationships created amongst the board 
members who represent all levels of law enforcement and public safety 
agencies. Today the following agencies play a key role to the ACTIC and 
serve as members of the executive board:\11\
---------------------------------------------------------------------------
    \11\ ACTIC Executive Board, ``Current Roster'', DPS Nancy Buck, 
promulgated May 10, 2012.
---------------------------------------------------------------------------
  <bullet> Arizona Department of Transportation
  <bullet> Arizona Department of Homeland Security
  <bullet> Arizona Department of Public Safety
  <bullet> Arizona National Guard
  <bullet> Bureau of Alcohol, Tobacco, Firearms, and Explosives
  <bullet> Department of Homeland Security
  <bullet> Eloy Police Department
  <bullet> Federal Bureau of Investigation
  <bullet> Glendale Police Department
  <bullet> Immigration and Custom Enforcement
  <bullet> Maricopa County Department of Emergency Management
  <bullet> Maricopa County Department of Public Health
  <bullet> Maricopa County Sheriff's Office
  <bullet> Mesa Police Department
  <bullet> Navajo County Sheriff's Office
  <bullet> Phoenix Fire Department
  <bullet> Phoenix Police Department
  <bullet> Prescott Police Department
  <bullet> Rocky Mountain Information Network
  <bullet> Transportation Security Administration
  <bullet> Tohono O'odham Nation Police Department
  <bullet> Tucson Police Department
  <bullet> United States Attorney's Office
  <bullet> United States Marshals Service
    In addition to the executive board member representatives, there 
are over 700 Terrorism Liaison Officers (TLO's) from agencies located 
around the State. TLO's play a vital role in collecting and sharing 
information with the ACTIC which are then reviewed and evaluated by 
ACTIC personnel to determine possible threat and/or target 
identification. Once actionable intelligence is developed, information 
is forwarded to a law enforcement agency to continue the investigation.
    The ACTIC communicates and shares information through publishing 
intelligence bulletins and alerts disseminated to all our law 
enforcement partners via electronic media. The executive board receives 
security briefs dealing with new threats as needed.
    It is important to point out that the ACTIC receives significant 
Federal grant funds, managed by the Arizona Department of Homeland 
Security (AZ DHS) used to support the ACTIC and its mission. In the 
past 2 years, the AZ DHS budget has been reduced by approximately 50% 
and 37%\12\ respectively. If these budget cuts to AZ DHS continue and 
without other Federal grants available to support initiatives such as 
the ACTIC, it is unlikely that fusion centers such as the ACTIC will 
continue to exist in their present form due to fiscal challenges at the 
State and local level.
---------------------------------------------------------------------------
    \12\ Arizona Department of Homeland Security, Discussion with ADHS 
Director Gil Orrantia, April 2012.
---------------------------------------------------------------------------
High Intensity Drug Trafficking Area (HIDTA)
    The Office of National Drug Control Policy (ONDCP) manages all High 
Intensity Drug Trafficking Areas across the Nation. ONDCP, through the 
HIDTA's, provides Federal grant funds used to support Federal, State, 
Tribal, and local task forces and their efforts to combat the 
trafficking and transportation of illicit drugs.
    State-wide, DPS collaborates with many other agencies who 
participate in the HIDTA task forces. The HIDTA Grants Program 
financially supports these task forces. We believe there are many 
benefits derived from our HIDTA task force participation, including 
force multiplier of personnel, enhances inter-agency relationships, and 
improved information sharing.
    The HIDTA executive board provides leadership and management to the 
19 task forces within the Arizona Region. Relationships developed by 
board membership help to facilitate information sharing, inter-agency 
cooperation, and problem solving. Membership on the HIDTA executive 
board is represented by the following agencies:
  <bullet> Alcohol, Tobacco, Firearms, and Explosives
  <bullet> Arizona Attorney General's Office
  <bullet> Arizona Department of Public Safety
  <bullet> Arizona National Guard
  <bullet> Cochise County Sheriff's Office
  <bullet> Drug Enforcement Administration
  <bullet> Federal Bureau of Investigation
  <bullet> Immigration and Customs Enforcement
  <bullet> Department of the Interior--National Parks Service
  <bullet> Internal Revenue Service
  <bullet> Kingman Police Department
  <bullet> Maricopa County Sheriff's Office
  <bullet> Phoenix Police Department
  <bullet> Pima County Sheriff's Office
  <bullet> Tucson Police Department
  <bullet> United States Attorney's Office
  <bullet> United States Customs and Border Protection
  <bullet> United States Marshals Service
  <bullet> Yuma County Sheriff's Office
    A key component of the information-sharing strategy within the 
Arizona HIDTA is the Investigative Support Center (ISC), which provides 
intelligence and investigative support to all the HIDTA task forces. 
The ISC also shares information with the other investigative and 
intelligence groups, such as the ACTIC, in order to maximize law 
enforcements impact on the drug trafficking organizations that operate 
in Arizona. In addition, task force personnel share information with 
one another and are viewed as agency liaisons when it comes to case 
development or case de-confliction.
Alliance to Combat Transnational Threats (ACTT)
    DPS is a member of the Alliance to Combat Transnational 
Threats,\13\ which is a collaborative strategy that brings together 
Federal, State, Tribal, and local law enforcement entities under a 
unified command, wherein intelligence is shared and field operations 
are coordinated targeting the drug and human transportation routes 
established along the Arizona-Sonora border area. The following 
agencies are members of the ACTT:\14\
---------------------------------------------------------------------------
    \13\ Alliance to Combat Transnational Threats, ``Charter 
Document'', March 2010.
    \14\ Alliance to Combat Transnational Threats, ``Charter 
Document'', March 2010.
---------------------------------------------------------------------------
  <bullet> Customs and Border Protection, Border Patrol Tucson Sector
  <bullet> Customs and Border Protection, Border Patrol Yuma Sector
  <bullet> Immigration and Customs Enforcement, Homeland Security 
        Investigations
  <bullet> Drug Enforcement Administration
  <bullet> Department of the Interior, Bureau of Land Management
  <bullet> Immigration and Customs Enforcement, Enforcement and Removal 
        Operations
  <bullet> Bureau of Alcohol, Tobacco, Firearms, and Explosives
  <bullet> Arizona Department of Public Safety
  <bullet> United States Attorney's Office
  <bullet> Tohono O'odham Nation Police Department
  <bullet> Representative Border Sheriff--(Yuma County Sheriff's 
        Office)
  <bullet> Southwest Border HIDTA, Arizona Region
  <bullet> Customs and Border Protection, Office of Field Operations
    Information sharing is integral to the success of the ACTT 
operations. The HIDTA ISC, the ACTIC, and the Border Patrol Joint 
Intelligence and Operations Center (JIOC) provide the intelligence in 
support of field operations. DPS partners with ACTT member agencies to 
conduct unique and specialized joint enforcement details focused on the 
transportation routes in southern Arizona.
Rocky Mountain Information Network Inc. (RMIN)
    RMIN\15\ is a Federal-grant project administered by the Department 
of Justice's (DOJ) Bureau of Justice Assistance (BJA). The RMIN program 
is one of six Federally-funded regional projects comprising the 
Regional Information Sharing System (RISS). In 2011, RMIN transitioned 
from being a DPS sub-program and attained legal standing as a non-
profit 501(c)(3) organization. DPS continues to support RMIN through 
assignment of personnel, sharing of information, and providing 
leadership through membership on the RMIN executive board.
---------------------------------------------------------------------------
    \15\ Arizona Department of Public Safety, ``Agency Overview--
RMIN,'' http://www.azdps.gov.
---------------------------------------------------------------------------
    RMIN serves more than 15,000 law enforcement officers from more 
than 1,046 agencies in the Rocky Mountain region to include Arizona, 
Colorado, Idaho, Montana, Nevada, New Mexico, Utah, Wyoming, and the 
Canadian provinces of Alberta, British Columbia, and Saskatchewan. It 
provides vital support to law enforcement agencies in the detection, 
enforcement, and prosecution of multi-jurisdictional criminal 
activities that traverse local, State, and National boundaries within 
the RMIN region. It also provides members an on-line state-of-the-art 
network of criminal intelligence databases can be queried 24 hours a 
day using a secure link via the internet. Furthermore, RMIN assists 
officers with analytical resources for case preparation, charts for 
courtroom display, computer forensics, financial analysis, and other 
analytical products.
    RMIN also publishes a monthly law enforcement bulletin that 
provides pertinent, timely information to member agencies. RMIN assists 
member agencies by providing intelligence and investigative-related 
training as RMIN provides individual and co-sponsored training support 
for conferences and workshops. RMIN also provides assistance to member 
agencies by loaning technical surveillance, investigative and 
communications equipment to RMIN members.
    Exclusively Federal funding supports RMIN. The RISS program funding 
has been reduced in recent years, which has affected RMIN and its 
ability to provide law enforcement services. RMIN is integral to 
Arizona law enforcement as well as its regional customers. We would 
encourage policy makers to re-evaluate those cuts as they directly 
diminish the support law enforcement agencies need to combat drug 
trafficking along the border.
Gang and Immigration Intelligence Team Enforcement Mission (GIITEM)
    GIITEM is one of many specialized enforcement programs within DPS. 
The DPS CID Gang Enforcement Bureau is home to the Gang and Immigration 
Intelligence Team Enforcement Mission. GIITEM is a State-wide multi-
agency task force consisting of five districts that provide gang and 
illegal immigration enforcement and intelligence services. GIITEM 
strives to accomplish its mission through a task force concept 
involving personnel from Tribal, Federal, State, and local law 
enforcement agencies. GIITEM efforts are developed to fit the needs of 
individual communities for maximum efficiency and effectiveness. GIITEM 
trains criminal justice personnel regarding identification and 
interdiction of gangs but also collects and disseminates gang and human 
smuggling intelligence to other law enforcement agencies, through a 
web-based, state-of-the-art system.
    Within the GIITEM Bureau are the Illegal Immigration Prevention and 
Apprehension Co-op Teams (IIMPACT). The Arizona Corridor is one of the 
busiest and most violent smuggling corridors in the country. The 
criminal organizations involved in the smuggling of aliens will violate 
any law and have total disregard for human life. The violent, 
collateral crimes related to the smuggling infrastructure include 
murder, kidnapping, extortion, assault, sexual assault, home invasions, 
and vehicle collisions while attempting to evade the police. The 
mission of IIMPACT Arizona is to deter, disrupt, and dismantle violent 
criminal organizations profiting from illegal immigration. The project 
provides investigative resources and removal assistance to local 
jurisdictions plagued by illegal immigrant drop houses. The IIMPACT 
investigation squads are comprised of personnel from DPS and 
Immigration & Customs Enforcement (ICE). These multi-agency squads will 
assist with the investigation of property, financial, and violent 
crimes associated with illegal immigration and human smuggling in the 
greater Phoenix and Maricopa County areas.
Vehicle Theft Task Force (VTTF)
    DPS CID Investigations Bureau manages the Vehicle Theft Task Force, 
which targets individuals and organizations who commit auto theft. The 
VTTF participants include Federal, State, and local law enforcement 
agencies. Task Force personnel collaborate and share information with 
other agencies. Two task force squads are deployed in Phoenix and one 
squad in Tucson, where the majority of vehicle thefts occur. Task force 
staffing is comprised of DPS and local agencies from the Phoenix and 
Tucson areas. Border Patrol has dedicated two agents in the Sierra 
Vista area to facilitate auto theft investigations.
    Although auto theft is down Nation-wide, criminal organizations 
continue to have a need for vehicles used to transport contraband from 
Mexico into Arizona, and more specifically into Phoenix. According to 
the AATA,\16\ ``The Mexican drug cartels have active theft cells that 
operate in our State's metropolitan areas, acting as the transportation 
division of their syndicate.'' They state, ``These auto thieves, with 
their ties to the drug cartels, have become increasingly brazen and 
violent.''
---------------------------------------------------------------------------
    \16\ Arizona Automobile Theft Authority, ``Annual Report,'' page 6, 
CY 2010.
---------------------------------------------------------------------------
    The Arizona Auto Theft Authority (AATA) provides the financial 
support to operate the task force. The AATA executive board provides 
the leadership and guidance to the task force.
Highway Patrol Division (HPD) Enforcement Programs
    DPS Highway Patrol Division is responsible for patrolling the 
State's interstates and highways. HPD officers trained in the latest 
interdiction methods and presented with the most up-to-date 
intelligence regarding drug organizations methodologies and recent drug 
seizures. HPD interdiction efforts are supported by funding obtained 
through the HIDTA's Drug Highway Enforcement (DHE) Grant, Department of 
Homeland Security (DHS) Operation Stonegarden Grant or through State 
appropriations. HPD also maintains and deploys canines State-wide 
trained to locate narcotics secreted in vehicles. HPD officers 
routinely participate in multi-agency special operations involving 
Federal, State, and local agencies, which utilize intelligence and 
statistical data to target their enforcement efforts.
    The mission of the DPS Canine Unit is to disrupt criminal 
organizations of various types while protecting human life in Arizona 
by utilizing the unique and incredible capabilities of highly-skilled 
law enforcement canines. The unit, which is especially effective in 
narcotics detection along State highways, has more than 25 canines and 
sworn canine handlers strategically placed throughout the State, 
including five canines and handlers that focus exclusively on border 
crimes in the southern part of the State.
    Officers assigned to Highway Patrol and Canine District utilizes 
license plate reader (LPR) technology. The information gathered through 
the LPR program is accessible by other work groups and other agencies 
through the ISC program.
Border Enforcement Manager
    The DPS Border Enforcement Manager, a DPS command-level officer, is 
responsible for liaison with and coordination of special operations 
utilizing DPS enforcement groups and our Federal, State, Tribal, and 
local law enforcement partners, targeting the southern Arizona area of 
operation. The Border Enforcement Manager reviews all available 
intelligence (ACTIC, ISC, JIOC, etc.) and statistical data and shares 
this information with field command from DPS and our law enforcement 
partners in order to facilitate special enforcement efforts focused on 
drug traffickers.
Commercial Vehicle Enforcement (CVE)
    The mission of the DPS Commercial Vehicle Enforcement Bureau is to 
assure the safety of the motoring public by enforcing the Federal Motor 
Carrier Safety Regulations and through educational programs. Primary 
functions include inspections, weighing, and traffic enforcement. In a 
joint effort with the Federal Motor Carrier Safety Administration 
(FMCSA), Commercial Vehicle Enforcement officers enforce the Federal 
Motor Carrier Safety Regulations and the Federal Hazardous Materials 
Regulations. Commercial Vehicle Enforcement is also responsible for 
training local, county, and Tribal officers in conducting inspections, 
thereby assuring that regulations are enforced in a uniform manner.
    The biggest challenge to the Bureau is attempting to deal with the 
impact of the North American Free Trade Agreement (NAFTA) on commercial 
vehicle safety. Since little is known about the condition of Mexican 
vehicles, which cross the border into the State, officers in the Bureau 
have been conducting special enforcement details at the border and have 
informed Mexican carriers about the Federal Motor Carrier Safety 
Regulations. Officers are also training Mexican officers to conduct 
inspections in Mexico. This issue is at the forefront of the Bureau's 
activities now. Officers throughout the State conduct over 46,000 
inspections annually. Commercial vehicles are a known transportation 
mechanism for narcotics coming into the United States. CVE officers are 
trained to identify non-factory modifications and detect contraband 
secreted in commercial vehicles.
    CVE operations are dependent upon Federal grant funding received 
through the Motor Carrier Safety Alliance Program (MCSAP). Without such 
funding it is uncertain we would maintain operations at the current 
levels.
    Each of these programs has an information-sharing and collaborating 
component to them. DPS recognizes the importance of communication, 
cooperation, and collaboration with our law enforcement partners to 
accomplish our mission. Utilizing an ``Intelligence-Led Policing'' 
model is integral to our ability to target enforcement activities. 
Participating in the task force environment is a force multiplier of 
our personnel. Both these strategies also aid in developing 
relationships and fundamental understandings regarding the threats 
facing Arizona and the law enforcement community.
                              key outcomes
    Capturing and reviewing empirical data is one way to measure the 
success or failure of a strategy to impact the public safety issues 
facing the State. Another measure of success, less empirical, is 
determining if the strategy has improved the spirit and level of 
communication and cooperation between Federal, State, Tribal, and local 
law enforcement agencies. In Arizona, the level of cooperation has 
never been better. Clearly, we did not accomplish this without our 
partners' willingness to engage and dedication to duty. Included in 
this report is a statistical recap from DPS HPD and CID enforcement 
groups.
  <bullet> Attachment ``A'' provides you with the DPS success 
        statistics in drop houses and border interdiction details 
        conducted for calendar years 2009, 2010, 2011, and 2012 year to 
        date.
  <bullet> Attachment ``B'' provides you with the DPS success 
        statistics in drug and other seizures in calendar years 2010, 
        2011, and 2012 year to date.
                               conclusion
    In summary, this is an overview of the DPS organization, its 
responsibilities, and the strategic response to the largest threat to 
public safety--the drug cartels. It is through intelligence-led 
policing that we collect, analyze, and disseminate intelligence 
information to stakeholders. We seek out opportunities to share 
information and form partnerships in order to maximize our ability to 
affect all public safety issues confronting Arizona.
    Arizona will continue to serve as a destination and transshipment 
point for illicit drugs. Mexican DTO's will remain the greatest threat 
to the State in the near future. These organizations use Arizona to 
transport and distribute large amounts of methamphetamine, cocaine, 
heroin, and marijuana destined for markets in Arizona and other areas 
of the United States. Collateral crimes, such as homicide, assault, 
robbery, thefts, and fraud occur in the wake of drug trafficking and 
drug abuse.
    Budgets, staffing, infrastructure, new technologies, emerging 
threats, and new demand for services are all challenges we in law 
enforcement face now and into the future. With reductions in budgets 
seemingly endless and the ever-increasing costs to provide basic 
services, we are coming upon an inflection point at which policy and 
decision makers must make some very difficult financial decisions 
addressing law enforcement's ability to combat threats to the public's 
safety. The fact is providing for the safety and security of our 
citizens is an expensive endeavor of which there are limited resources. 
The second undeniable fact is that the drug trafficking organizations 
have virtually unlimited funding and staffing to conduct operations. 
Enforcement is just one approach to mitigate the drug transportation 
issue. We also must consider new strategies and opportunities for 
educating citizens regarding the hazards of drug usage and also look at 
possible engineering solutions to restrict the accessibility of the 
border by organized crime groups.
    Thank you.
                            Attachment ``A''

                        TABLE: PROGRAM STATS YEAR
------------------------------------------------------------------------
                                                           HPD and CID--
                                           IIMPACT--Drop      Border
                  Year                        Houses       Interdiction
                                           Investigated     Operations
------------------------------------------------------------------------
2009....................................             181              25
2010....................................             140              24
2011....................................              53              31
2012 ytd................................               5               8
------------------------------------------------------------------------

                                                          <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                          

    Mr. Quayle. Thank you, Colonel.
    The Chairman now recognizes Ms. Kempshall.

STATEMENT OF ELIZABETH KEMPSHALL, EXECUTIVE DIRECTOR, SOUTHWEST 
                  BORDER HIDTA ARIZONA REGION

    Ms. Kempshall. Good morning, Chairman Quayle, Congresswoman 
Jackson Lee, and Congressman Gosar.
    It is my privilege and pleasure to address you today on 
behalf of the Arizona High Intensity Drug Trafficking Area's 
executive board to demonstrate how intelligence is the 
cornerstone of the Arizona HIDTA program.
    The HIDTA program, a grant-funded initiative of the Office 
of National Drug Control Policy, provides assistance to 
Federal, State, local, and Tribal law enforcement agencies 
operating in areas determined to be critical drug trafficking 
regions of the United States. Every year HIDTAs identify the 
most current threat, develop a strategy to address the threat, 
and evaluate the results. This procedure allows HIDTAs the 
flexibility to adjust in a timely manner and redirect resources 
to have the greatest impact. The productivity and success of 
the program has been a model for efficient and effective 
government.
    The Arizona HIDTA was established in 1990 as a part of the 
Southwest Border HIDTA, which includes California, New Mexico, 
and Texas. The Arizona HIDTA, under the leadership of its 
executive board, coordinates and supports the efforts of more 
than 575 sworn law enforcement officials from 72 participating 
agencies throughout Arizona. The executive board is comprised 
of equal Federal and State and local law enforcement agency 
members. Participating Arizona HIDTA counties include Cochise, 
La Paz, Maricopa, Mohave, Navajo, Pima, Pinal, Santa Cruz, and 
Yuma. The Arizona region also encompasses the Phoenix and 
Tucson metropolitan areas, with a combined population of 
approximately 1.5 million residents. Of the 21 Native American 
reservations in Arizona, 17 fall within the Arizona HIDTA.
    The mission of the Arizona HIDTA is to facilitate 
cooperation among all law enforcement agencies through the 
sharing of information and to support coordinated law 
enforcement efforts to eliminate the drug-trafficking and 
money-laundering organizations operating in Arizona. By 
focusing on this mission, the Arizona HIDTA program has evolved 
into a reliable and accountable counterdrug grant program. 
Arizona law enforcement agencies have come to rely upon the 
Arizona HIDTA to assess regional drug threats, facilitate the 
creation of cooperative strategies, and provide resources to 
enhance their ability to implement those strategies.
    During the past year, the Arizona HIDTA executive board 
directed the successful restructuring and refocusing of the 
Arizona HIDTA Investigative Support Center. Through those 
efforts, intelligence has become an integral component of the 
infrastructure of the Arizona HIDTA program. The ISC is staffed 
by representatives of participating agencies who have direct 
on-site access to their agencies' information databases. The 
Arizona HIDTA ISC now enhances the sharing of intelligence 
among law enforcement agencies, the Arizona Counter-Terrorism 
Information Center, the Alliance to Combat Transnational 
Threats, and the El Paso Intelligence Center. Systematic 
collection, analysis, and dissemination of secure, accurate, 
and timely intelligence promotes interagency communication and 
coordination. Increased communications enhances officer safety 
through deconfliction and eliminates duplication of effort. 
Coordination through shared intelligence is critical to 
combating the increasing threat of narcotics traffickers and 
criminal organizations.
    Following the enhancements to its infrastructure, the 
members of the newly-formed ISC Threat Analysis and Production 
Unit conducted a comprehensive threat assessment to identify 
new and continuing trends in the Arizona region. The purpose of 
this yearly threat assessment is to provide strategic 
intelligence to Arizona HIDTA and its partners to assist in the 
development of drug enforcement strategies.
    The Phoenix and Tucson areas are being exploited by Mexican 
drug trafficking organizations as transportation and 
distribution hubs. The transportation of drugs through the 
Arizona corridor and to drug markets across the United States 
is accomplished in two ways: Drug loads are shipped to other 
locations in the United States by the same transportation group 
that smuggled the drug into Arizona, or the drug loads are 
taken to stash houses in the Phoenix and Tucson metropolitan 
areas where drug loads are repackaged and then shipped to the 
drug markets throughout the United States.
    The executive board uses the threat assessment as the 
foundation for developing the Arizona HIDTA strategic plan. The 
strategic plan is designed to enhance the impact the 19 Arizona 
HIDTA task forces are having on drug-trafficking and money-
laundering organizations, and thereby improving public safety 
in Arizona.
    The Arizona HIDTA task forces are organized into three 
primary initiatives: Enforcement, which includes interdiction, 
investigation, fugitive arrests and prosecution; intelligence, 
which includes coordination, deconfliction, investigative case 
support, threat analysis and intelligence gap identification; 
and support, which includes management and training. The 
initiatives consist of full-time Federal, State, and local law 
enforcement investigators, prosecutors and intelligence 
analysts. Through collocation and interagency cooperation and 
the consolidation of strategic and tactical intelligence at the 
ISC, the framework for the Arizona HIDTA provides for a 
coordinated and comprehensive response to drug-trafficking 
threats that are both regional and National in scope. From the 
policymakers on the executive board to the initiatives, there 
is a shared vision to attack the threats that pose--threats 
posed by the drug trafficking and drug abuse.
    The ISC, in concert with initiatives, monitors 
investigative needs and collection requirements and integrates 
them into the intelligence collection process to fully develop 
and expand the scope of the investigations. Intelligence 
garnered during these operations is provided to the ISC for 
analysis via an open-loop intelligence process from which time-
sensitive and actionable intelligence is disseminated to the 
initiatives and appropriate law enforcement entities.
    Fully understanding the drug threat in Arizona and using an 
intelligence-driven enforcement strategy, the Arizona HIDTA 
initiatives are having a more significant impact on drug-
trafficking organizations operating in Arizona and throughout 
the United States.
    In 2011, Arizona initiatives disrupted or dismantled 37 
drug-trafficking organizations or money-laundering 
organizations operating in Arizona, 57 percent of which were 
international or multi-State in scope. Arizona investigations 
focused on five Consolidated Priority Organization Targets and 
three Regional Priority Organization Targets. The Organized 
Crime Drug Enforcement Task Force-designated cases totaled six. 
The level of sophistication of those cases necessitated the use 
of 298 separate court-ordered pen registers and 123 Title III 
orders, 413 percent over 2012--or 2011. Local community impact 
investigations were extremely successful and accounted for 43 
percent of the drug trafficking and money-laundering 
organizations disrupted or dismantled.
    The Arizona HIDTA seized illicit drugs with an estimated 
wholesale value of $1.19 billion, a 106 percent increase over 
2010. Marijuana continued to lead as the most seized drug, with 
over 500,000 kilograms, an increase of 118 percent. Arizona 
initiatives experienced significant increase in both 
methamphetamine and heroin seized, with methamphetamine 
seizures over 700 kilograms, an increase of 88 percent, and 
heroin seizures of more than 200 kilograms, an increase of over 
1,000 percent. The return on investment for every $1 received 
by the Arizona HIDTA during 2011 was $112, a 100 percent 
increase over 2010.
    Drug-related corruption poses a significant detriment to 
law enforcement efforts to combat smuggling, drug 
transportation, and drug trafficking in Arizona. The Arizona 
HIDTA investigated seven corruption-related cases, which 
resulted in one court-ordered wiretap, the serving of 23 search 
warrants and 35 corruption-related indictments. Quantities of 
heroin and methamphetamine were also seized.
    Mr. Quayle. Ms. Kempshall, in the interest of time, if you 
could wrap up.
    Ms. Kempshall. Yes. I am just wrapping it up.
    Thank you for the opportunity to appear before you and for 
the subcommittee's continued support of the HIDTA program. 
Arizona HIDTA remains committed to facilitating cooperation 
among Federal, State, local, and Tribal law enforcement through 
the sharing of intelligence to support law enforcement.
    I will be glad to address any questions that you may have 
at this time.
    [The statement of Ms. Kempshall follows:]
               Prepared Statement of Elizabeth Kempshall
                              May 21, 2012
    Chairman Quayle, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: It is my privilege and pleasure to address you 
today on behalf of the Arizona High Intensity Drug Trafficking Area's 
(HIDTA) executive board and to demonstrate how intelligence is the 
cornerstone of the Arizona HIDTA Program.
    The HIDTA Program, a grant-funded initiative of the Office of 
National Drug Control Policy, provides assistance to Federal, State, 
local, and Tribal law enforcement agencies operating in areas 
determined to be critical drug-trafficking regions of the United 
States. Every year HIDTAs identify the most current threat, develop a 
strategy to address the threat, and evaluate the results. This 
procedure allows HIDTAs the flexibility to adjust in a timely manner 
and redirect resources to have the greatest impact. The productivity 
and success of the program has been a model for efficient and effective 
government.
    The Arizona HIDTA was established in 1990 as part of the Southwest 
Border HIDTA, which includes California, New Mexico, and Texas. The 
Arizona HIDTA, under the leadership of its executive board, coordinates 
and supports the efforts of more than 575 sworn law enforcement 
officials from 72 participating agencies throughout Arizona. The 
executive board is comprised of equal Federal and State/Local law 
enforcement agency members. Participating Arizona counties include 
Cochise, La Paz, Maricopa, Mohave, Navajo, Pima, Pinal, Santa Cruz, and 
Yuma. The Arizona region also encompasses the Phoenix and Tucson 
metropolitan areas, with a combined population of approximately 5.1 
million residents. Of the 21 Native American Reservations in Arizona, 
17 fall within the Arizona HIDTA region.
    The mission of the Arizona HIDTA is to facilitate cooperation among 
all enforcement agencies through the sharing of information and to 
support coordinated law enforcement efforts to eliminate the drug-
trafficking and money-laundering organizations operating in Arizona. By 
focusing on this mission, the Arizona HIDTA Program has evolved into a 
reliable and accountable counter-drug grant program. Arizona law 
enforcement agencies have come to rely upon the Arizona HIDTA to assess 
regional drug threats, facilitate the creation of cooperative 
strategies, and provide resources to enhance their ability to implement 
those strategies.
    During the past year, the Arizona HIDTA executive board directed 
the successful restructuring and refocusing of the Arizona HIDTA 
Investigative Support Center (ISC). Through those efforts, intelligence 
became an integral component of the infrastructure of the Arizona HIDTA 
Program. The ISC is staffed by representatives of participating 
agencies who have direct on-site access to their agencies' information 
databases. The Arizona HIDTA ISC now enhances the sharing of 
intelligence among law enforcement agencies, the Arizona Counter 
Terrorism Information Center (ACTIC), the Alliance to Combat 
Transnational Threats (ACTT), and the El Paso Intelligence Center 
(EPIC). Systematic collection, analysis, and dissemination of secure, 
accurate, and timely intelligence promote inter-agency communication 
and coordination. Increased communication enhances officer safety 
through deconfliction and eliminates duplication of effort. 
Coordination through shared intelligence is critical to combating the 
increasing threat of narcotics traffickers and criminal organizations.
    Following the enhancements to its infrastructure, the members of 
the newly-formed ISC Threat Analysis and Production Unit conducted a 
comprehensive Threat Assessment to identify new and continuing trends 
in the Arizona region. The purpose of the yearly Threat Assessment is 
to provide strategic intelligence to the Arizona HIDTA and its partners 
to assist in the development of drug enforcement strategies.
    The Threat Assessment found that the Sinaloa cartel presents the 
primary operational threat to Arizona, possessing vast resources to 
source, distribute, transport, and smuggle large amounts of cocaine, 
marijuana, heroin, and methamphetamine in and through Arizona. The 
Sinaloa cartel exploits well-established routes in Arizona and 
perfected smuggling methods to supply drug distribution networks 
located throughout the United States. The Mexican State of Sonora is 
home to key drug trafficking plazas controlled by the Sinaloa cartel. 
The plazas are used for off-loading, stashing, and staging of drugs, 
money, and weapons. Furthermore, the Sinaloa cartel's influence in 
Arizona is growing stronger as the cartel continues to gain control of 
additional drug trafficking corridors and routes in Sonora, Mexico, and 
neighboring Baja California, Mexico.
    The Phoenix and Tucson areas are exploited by Mexican drug 
trafficking organizations as transportation and distribution hubs. The 
transportation of drugs through the Arizona corridor to drug markets 
across the United States is accomplished in two ways: Drug loads are 
shipped to other locations in the United States by the same 
transportation group that smuggled the drugs into Arizona; or drug 
loads are taken to ``stash houses'' in the Phoenix and Tucson 
metropolitan areas, where the drug loads are re-packaged and then 
shipped to drug markets throughout the United States.
    The executive board uses the Threat Assessment as the foundation 
for developing the Arizona HIDTA Strategic Plan. The Strategic Plan is 
designed to enhance the impact the 19 Arizona HIDTA Task Forces are 
having on drug trafficking and money laundering organizations and 
thereby improve public safety in Arizona.
    The Arizona HIDTA Task Forces are organized into three primary 
Initiatives: Enforcement (interdiction, investigation, fugitive 
arrests, and prosecution); Intelligence (coordination, deconfliction, 
investigative case support, threat analysis, and intelligence gap 
identification); and Support (management and training). The Initiatives 
consist of full-time Federal, State, and local law enforcement 
investigators, prosecutors, and intelligence analysts. Through co-
location, inter-agency cooperation, and the consolidation of strategic 
and tactical intelligence at the ISC, the framework of the Arizona 
HIDTA provides for a coordinated and comprehensive response to drug 
trafficking threats that are both regional and National in scope. From 
the policymakers on the executive board to the Initiatives, there is a 
shared vision to attack the threats posed by drug trafficking and drug 
abuse.
    The ISC, in concert with the Initiatives, monitors investigative 
needs and collection requirements and integrates them into the 
intelligence collection process to fully develop and expand the scope 
of investigations. Intelligence garnered during these operations is 
provided to the ISC for analysis via an open loop intelligence process 
from which time-sensitive and actionable intelligence is disseminated 
to the Initiatives and appropriate law enforcement entities.
    Fully understanding the drug-related threat in Arizona and using an 
intelligence-driven enforcement strategy, the Arizona HIDTA Initiatives 
are having a more significant impact on the drug trafficking 
organizations operating in Arizona and throughout the United States.
    In 2011, Arizona Initiatives disrupted or dismantled 37 drug-
trafficking and money-laundering organizations operating within 
Arizona, 57 percent of which were international or multi-state in 
scope. Arizona investigations focused on five Consolidated Priority 
Organization Targets (CPOTs) and three Regional Priority Organization 
Targets (RPOTs). Organized Crime Drug Enforcement Task Force (OCDETF)-
designated cases totaled six. The level of sophistication of those 
cases necessitated the use of 298 separate court-ordered pen registers 
and 123 Title III orders, a 413 percent increase over 2010 Title III 
orders. Local community impact investigations were extremely successful 
and accounted for 43 percent of the drug-trafficking and money-
laundering organizations disrupted or dismantled.
    The Arizona HIDTA seized illicit drugs with an estimated wholesale 
value of $1.19 billion, a 106 percent increase over 2010. Marijuana 
continued to lead as the most seized drug, with 519,954 kilograms 
seized in 2011, an increase of 118 percent over the previous year. 
Arizona Initiatives experienced a significant increase in both 
methamphetamine and heroin seized, with methamphetamine seizures of 728 
kilograms, an increase of 88 percent, and heroin seizures of 257 
kilograms, an increase of 1,017 percent. The return on investment for 
every $1 received by the Arizona HIDTA during 2011 was $112.09, a 100 
percent increase over 2010.
    The Arizona HIDTA Domestic Highway Enforcement (DHE) program 
conducted 898 operations and assisted in the coordination of 2,650 
Stonegarden Project Operations. The intelligence and investigative 
leads developed from those operations were essential to the overall 
Arizona strategy. DHE operations seized illicit drugs with an estimated 
wholesale value of over $39 million and seized $7.2 million in cash and 
assets. Two international drug trafficking organizations were 
identified, with one disrupted and 782 individuals arrested.
    The Arizona HIDTA State-wide fugitive Task Force arrested 4,228 
subjects, an 18 percent increase over 2010. Drug-related arrests 
accounted for 32 percent of the overall arrests, with a higher 
percentage of those arrested wanted for crimes related to drug use or 
violent crimes associated with drug rip-offs and/or home invasions. 
Fugitive apprehensions resulted in seized drugs, currency, and assets 
valued at $2 million.
    Drug-related corruption poses a significant detriment to law 
enforcement efforts to combat smuggling, drug transportation, and drug 
trafficking in Arizona. The Arizona HIDTA investigated seven 
corruption-related cases, which resulted in one court-ordered Title III 
wiretap investigation, the serving of 23 search warrants, and 35 
corruption-related indictments. Quantities of heroin and 
methamphetamine were also seized, along with $197,000 in U.S. currency.
    Prosecutors dedicated to Arizona HIDTA Initiatives reviewed over 
375 search warrants, obtained 2,701 indictments, and convicted 2,467 
individuals.
    The ISC produced and disseminated over 147 intelligence-related 
documents, including officer safety, situational awareness, suspect 
aircraft, and DHE-related bulletins. The ISC presented numerous 
briefings for the Arizona HIDTA executive board, Initiative Commanders, 
and Congressional representatives.
    Arizona HIDTA is actively involved with outreach, training, and 
coordinating with Arizona Tribal communities. As an active participant 
with the Arizona Indian Country Intelligence Network, the Arizona HIDTA 
sponsored and participated in a 2-day Strategy Session with 
representatives from 11 Arizona Tribal communities to develop an 
intelligence and information-sharing framework within Arizona. In 
addition, eight tribes took advantage of HIDTA-sponsored training, 
which included a Prescription Drug Abuse Summit, Prescription Drug 
Abuse Epidemic workshop, narcotics investigative techniques, and 
Domestic Highway Enforcement training.
    The Arizona HIDTA philosophy of cooperation and coordination is 
based upon enhanced information and resource sharing through co-located 
and/or collaborative Task Force Initiatives strategically located 
throughout the region. Under the coordination umbrella of the Arizona 
HIDTA, the participating law enforcement agencies eliminate duplicative 
operational and investigative programs and facilitate tactical, 
operational, and strategic intelligence sharing. The extent of inter-
agency cooperation supported by the Arizona HIDTA illustrates that all 
Initiatives are working investigations in an efficient and effective 
manner. The Arizona HIDTA approach demonstrates that when traditional 
organizational barriers are overcome, Federal, State, and local law 
enforcement entities can better focus investigative and intelligence 
resources in dismantling and disrupting the most dangerous and prolific 
drug-trafficking and money-laundering organizations.
    Thank you for the opportunity to appear before you and for the 
subcommittee's continued support of the HIDTA Program. The Arizona 
HIDTA remains committed to facilitating cooperation among Federal, 
State, local, and Tribal law enforcement through the sharing of 
intelligence and to supporting coordinated law enforcement efforts.
    I will be glad to address any questions you may have at this time.

    Mr. Quayle. Thanks, Ms. Kempshall.
    Now we are going to recognize Dr. Nunamaker for his 
testimony.

    STATEMENT OF JAY F. NUNAMAKER, JR., DIRECTOR, BORDERS, 
                     UNIVERSITY OF ARIZONA

    Mr. Nunamaker. Mr. Quayle, Ms. Jackson Lee, and Mr. Gosar, 
it is an honor to appear before you today and to address the 
question of what are the issues and challenges involved with 
the goal of information----
    Ms. Jackson Lee. Excuse me. Can you push your microphone a 
little closer, please?
    Mr. Quayle. You need to speak up.
    Ms. Jackson Lee. Thank you very much. Raise your voice a 
little. Thank you.
    Mr. Nunamaker [continuing]. To address the flow of drugs 
and what training and systems would be necessary to make that 
happen. So I am 100 percent supportive of the goal of sharing 
information, but I just want to emphasize that it is actually a 
very difficult task and it will be extremely hard to do.
    I base this on 40 years of experience studying information 
sharing and developing collaboration technology. The systems we 
developed have been used by IBM, American Express, and many 
other Fortune 500 companies as well as throughout DOD, the 
White House, and foreign governments. We had a 10-year project 
with DARPA and the Navy to develop collaboration technology and 
information sharing for the command ship of the future, the USS 
Coronado. These technologies are still in operation today and 
throughout the carrier fleet.
    We have an extensive background with CBP. In 2008, we were 
awarded the Center of Excellence for Border Security and 
Immigration, a 6-year project with a 6-year extension. We also 
have a project on checkpoints, evaluating the effectiveness of 
checkpoints. We are currently conducting interviews of the 
illegals that have been apprehended and evaluating their 
propensity to cross the border many times.
    We have also, and which Mr. Quayle has visited our lab, a 
prototype of a system that is being tested now at the Nogales 
port of entry for the Trusted Travelers Program for vetting 
applicants for that program.
    In addition, we have been involved with Hsinchun Chen with 
the University of Arizona on the development of COPLINK, which 
is an information-sharing system for police departments. It is 
now in use by 5,000 police departments.
    So, based on 40 years of experience, the issues of trust, 
culture, and behavior are just as important as developing the 
technology. That's difficult for me to say, because I am a 
technologist. But the other issues of trust and culture really 
play an important part.
    So what is required is to build trust and social networks 
between all agencies, a facility, a system for sharing tacit 
and explicit knowledge in real time, to make things happen, and 
an integrated data structure and data infrastructure across all 
agencies and local and State governments. It can be done, but 
it will take a lot of work.
    So I had a proposed system for field agents for inputting 
information, and a lot of it is tacit information and it has to 
be in real time; also the ability to target social media, 
Facebook, Twitter, e-mail for drug leads; access to Federal 
databases across the agencies, State and local databases, and 
make sure they are interoperable; and then feed it all into 
something that would be a modification of the COPLINK system 
but for drug activities. So you are building a system that 
contains cues from many different places that can be put 
together and playing detective. It has proven in the State and 
local government, police departments, it has been quite 
effective and integrated into a collaborative system where you 
can share plans and activities.
    So it is not going to be easy to accomplish. It is 
difficult to share and collaborate in real time. No one does it 
well, we found. It has taken the Navy years and years, and they 
are still working on it. Nobody does it well except sports 
teams, and many of them don't do it well either.
    So thank you for the opportunity to discuss information 
sharing. I look forward to answering your questions.
    [The statement of Mr. Nunamaker follows:]
              Prepared Statement of Jay F. Nunamaker, Jr.
                              May 21, 2012
                                summary
    The purpose of this testimony is to propose a solution to 
facilitate information sharing and collaboration across Federal, State, 
and local agencies in order to reduce the illicit flow of drugs. Based 
on over 40 years of research in these areas, I discuss three key 
components to successful information sharing and collaboration:
  <bullet> Trusted social networks;
  <bullet> Shared tacit and explicit knowledge;
  <bullet> An integrated data infrastructure.
    Each of these components is carefully laid out in my testimony.
    Information sharing by State, local, and Federal agencies to stop 
the flow of illicit drugs is an important goal, but a difficult task to 
accomplish. In order to be effective, it requires cultural, behavioral, 
and technical infrastructure changes, as well as cooperation and the 
alignment of agency goals and objectives. This will not be easy to 
accomplish. It is difficult to share information and collaborate in 
real time, while simultaneously being effective and making a 
difference. No one does it well, except for sport teams, and not even 
all of them do it effectively. There are many reasons why information 
sharing is difficult, including lack of trust, power, and 
infrastructure. Even if all these reasons are resolved, the issue of 
change still remains. No one likes to change.
    I have spent over 40 years studying information sharing and 
developing collaboration technology. The systems we created are used by 
leading companies such as IBM, American Express, Proctor and Gamble; as 
well as by all branches of DOD, the White House, and many foreign 
governments. We had a long-term project with DARPA and the U.S. Navy to 
develop collaboration technology and information sharing for the 
``command ship of the future,'' the U.S.S. Coronado. These technologies 
are still in operation on the carrier fleet today.
    I hope that this testimony provides some insights into better ways 
to facilitate the collaboration and information sharing across agencies 
that will greatly inhibit the illicit flow of drugs into our country.
                                 ______
                                 
    Distinguished Members of the subcommittee, it is an honor to appear 
before you today to discuss ``Stopping the Flow of Illicit Drugs in 
Arizona by Leveraging State, Local, and Federal Information Sharing.''
    Information sharing by State, local, and Federal agencies to stop 
the flow of illicit drugs is an important goal, but a difficult task to 
accomplish. In order to be effective, it requires cultural, behavioral, 
and technical infrastructure changes, as well as cooperation and the 
alignment of agency goals and objectives. This will not be easy to 
accomplish. It is very hard to share information and collaborate in 
real time, while being effective and making a difference. No one does 
it well, except for sport teams, and not all of them do it well. There 
are many reasons why information sharing is difficult, including lack 
of trust, power, and infrastructure. Even if all these reasons are 
resolved, the issue of change still remains. No one likes to change.
    I have spent over 40 years studying information sharing and 
developing collaboration technology. The systems we created are used by 
leading companies such as IBM, American Express, Proctor and Gamble; as 
well as by all branches of DOD, the White House, and many foreign 
governments. We had a long-term project with DARPA and the U.S. Navy to 
develop collaboration technology and information sharing for the 
``command ship of the future,'' the U.S.S. Coronado. These technologies 
are still in operation on the carrier fleet today.
    We have a strong relationship with Customs and Border Protection 
(CBP) that started in 2005. As part of an Air Force project, we tested 
technology at the Nogales Port of Entry for effective secondary 
screening. In 2008, we were awarded a 6-year Department of Homeland 
Security (DHS) Center of Excellence for Border Security and Immigration 
(BORDERS), with CBP as one of our primary stakeholders. In 2010, The 
University of Arizona, along with the University of Texas at El Paso, 
was awarded a 2-year project to evaluate the effectiveness of border 
checkpoints. At the present time, we are conducting interviews of 
apprehended illegal border crossers in the Tucson Sector on behalf of 
the (DHS) Office of Immigration Statistics. In cooperation with the CBP 
Tucson Office of Field Operations (OFO), we have completed phase 1 of a 
pilot project for screening applicants for the SENTRI Trusted Travelers 
Program at the Nogales Enrollment Center. In addition, we have been 
involved with Dr. Hsinchun Chen on the development of COPLINK, an 
information-sharing system for local law enforcement agencies. This has 
provided us with extensive knowledge of Federal, State, and Federal 
[sic] law enforcement agencies regarding information sharing. The 
purpose of this testimony is to propose a solution to facilitate the 
collaboration and information sharing across agencies in order to 
reduce the illicit flow of drugs.
    There are three key components to successful information sharing 
and collaboration: Trusted social networks, shared tacit and explicit 
knowledge, and an integrated data infrastructure.
                        trusted social networks
    Although research on cross-organizational problem-solving and 
information sharing is scarce, there is evidence that it can be done. 
This generally takes place in social networks where individuals rely on 
each other to accomplish mutual goals. Trust plays an important role in 
these networks. Current research points out that trust comes from 
different sources and takes different forms during the relationship. 
Early on, trust is frequently built on a calculative basis as people 
consider the perceived risks and benefits associated with a particular 
interaction. As the relationship evolves, the calculative component is 
gradually replaced by a knowledge-based component, which involves 
positive and negative experiences in individual interactions. At any 
point, trust can be based on an institutional component through 
contracts, formal agreements, or legal frameworks. Many times, this 
institutional component plays an important role in the early stages of 
a relationship because it reduces the perception of risk or improves 
the legitimacy of the network. Another important component in 
successful networks is the design and adaptation of a governance 
structure that facilitates and manages interactions among network 
members.
                  shared tacit and explicit knowledge
    In order to be effective and innovative in finding solutions to 
problems, social networks need to share knowledge. While using subject 
matter experts to solve a problem may lead to more robust solutions, it 
is important to remember that expert knowledge is socially constructed 
in specific contexts and linked to local practices. Knowledge has two 
dimensions, an explicit dimension that is contained in documents, 
databases, and other objects created by experts; and a tacit dimension 
that is embedded in practice. This tacit dimension of knowledge is hard 
to share and it can be a barrier to developing better understanding of 
a particular problem. Moreover, research has also identified different 
levels of knowledge sharing, a syntactic level (concerned with common 
sets of symbols), a semantic level (related to shared meanings), and a 
pragmatic level (associated with practice).
                     integrated data infrastructure
    A final component to information sharing is an integrated data 
infrastructure, which is frequently associated with the concept of 
interoperability. Interoperability can be defined as ``the mix of 
policy, management, and technology capabilities (e.g., governance, 
decision making, resource management, standards setting, collaboration, 
and Information and Communication Technologies such as software, 
systems, and networks) needed in order for a network of organizations 
to operate effectively.'' Interoperability delivers value by creating 
new knowledge by integrating information from multiple sources across 
organizational boundaries. In order to build interoperable systems, 
many different ``agencies'' must be crossed. Creating cross-agency 
interoperability requires support from the highest levels of 
government, particularly when creating interoperable systems across 
government levels or National boundaries.
                          cross-agency issues
    The framework provided above provides a set of ideas to organize 
conversations related to information-sharing challenges to reducing 
illicit drug flow. As mentioned above, trust is a critical ingredient 
in any relationship. As different levels of law enforcement explore 
ways to cooperatively reduce the flow of illicit drugs, the issue of 
trust becomes paramount and can affect all levels of cooperation. For 
example, as agreements are reached, there must be a genuine faith that 
all agencies will live up to their obligations. Furthermore, on the 
front line, personnel from all agencies must feel comfortable that 
their counterparts will act in good faith. Issues such as corruption or 
commitment can seriously undermine security efforts and willingness to 
collaborate. New methods for inspiring trust must be established to 
ensure interagency cooperation to reduce illicit drug flow.
    Perhaps no other area of cooperation is as dependent on trust as 
information sharing. The primary question is: What information should 
be shared and how can its accuracy be verified? Information such as 
personal identification, criminal history, and sensor data could 
provide valuable insight and lead time for agency personnel. There is 
evidence to suggest that some agencies find it inconvenient or not in 
their best interest to share information with offices under the same 
umbrella, let alone those outside of their organization. Issues such as 
classification of data, concerns about collection methods, and who has 
the authority to release information must be addressed to allow 
meaningful information sharing.
    Beyond trust, there is a technological component to information 
sharing. Even if the decision is made to share information, a 
deficiency across agencies in infrastructure capabilities could hinder 
the ability to accomplish this goal. For example, transferring 
information from one database to another is not a simple procedure, 
especially when disparate technologies exist. Additionally, when 
considering real-time video and sensor data, the data files can become 
extremely large. Even voice communication through radios and cell 
phones can pose significant challenges, especially when security is an 
issue. Therefore, in order to maximize information sharing, it would be 
prudent to examine the IT architectures of all agencies and address any 
significant imbalances.
    Another important component to effective information sharing is 
related to the need of a governance structure to coordinate the efforts 
of the Federal, State, and local agencies involved. Although there may 
be strong incentives to resist cross-agency collaboration, interagency 
governance, and collaboration through networks appears to be effective 
in solving these problems.
    Assuming trust, information sharing, technological obstacles, and 
governance can be overcome, differences in institutional culture may 
still undermine these efforts. These may include agency attitudes 
toward technology, personal privacy, and what they perceive as legal 
obstacles to cooperation. These cultural differences need to be 
thoroughly understood and mitigated in order to effectively collaborate 
and share information.
                          specific challenges
    Based on the field studies conducted at The University of Arizona, 
we found that there are common areas of concern for Federal, State, and 
local law enforcement personnel. I will summarize the top four issues 
with the hope that it will spur discussion on how to resolve them from 
a multiagency perspective. First, all personnel called for better 
interagency coordination, especially in regard to information sharing. 
While roles and responsibilities in the field are fairly well-defined, 
agents believe that better coordination at the political and high-level 
leadership levels would improve both information sharing and resource 
allocation/sharing.
    The second issue involved managing disparate databases. Every 
organization develops and maintains its own set of databases for 
tracking information relevant to the agency, and may be protective of 
who can gain access. However, the information maintained in one 
database could be of use to another agency if shared. Furthermore, when 
one database is updated, related information in a related database may 
not be automatically updated. This creates a significant amount of 
extra work to determine which information is accurate. Also, when a 
database is shared but not integrated, agents often need to use 
multiple login/password combinations thus hindering efficient 
information sharing.
    The third concern is field communications. For example, when Border 
Patrol switched from analog radios to digital versions for improved 
secure communications an unforeseen byproduct was occasional 
communication outages. Another complication is that it is often 
difficult for Federal personnel to talk directly to local law 
enforcement. As a result, many agents carry field radios, cell phones, 
and BlackBerrys to enable mobile communication with other agencies. 
Universally, all agents interviewed requested a single, reliable voice 
and data communications system for use in the field. Many agents also 
expressed the need for improved data communication in the field, 
including the ability to transmit and store large amounts of video, 
sensor, and biographical data (fingerprints/photos) for future 
analysis. The current data communications architecture does not 
adequately support large data file transfer, especially between 
individual agents in mobile vehicles and station headquarters.
    The fourth issue is the need for improved Standard Operating 
Procedures across multiple agencies. This often is a highly political 
issue, especially when the coordination involves processing, detention, 
prosecution, and suspicion of transporting illicit drugs. Each agency 
follows the directives of its leadership, but the interpretation of 
what is acceptable in the field can vary between organizations. 
Stronger leadership and inter-agency cohesion is needed in this area.
                       overcoming the challenges
    The four challenges outlined in the previous section stress the 
importance of an integrative approach to the organizational and 
technological issues to reduce illicit drug flow. On the technical 
side, personnel call for better technology for field communications. On 
the organizational side, better coordination and information sharing is 
a key challenge, as well as designing standard processes across 
organizational boundaries.
                  a model for collaborative governance
    Figure 1 shows a model to guide the collaboration processes across 
agencies' boundaries. The model comprises five components: Starting 
conditions, institutional design, facilitative leadership, 
collaborative processes, and outcomes.
    The starting conditions refer to the main incentives and 
constraints on participating in a collaboration effort. As suggested by 
the model, these incentives are conditioned by a series of asymmetries 
in terms of power, resources, and knowledge as well as previous history 
of collaboration among partners. Understanding the differences will 
play an important role in the development of a technical infrastructure 
to support collaboration. As stated earlier, it is likely that the 
perception of the usefulness of technology will vary from one agency to 
the other. Moreover, the need to integrate disparate databases or 
standard processes will also increase.
    A second element is institutional design. This involves the main 
rules followed by the network to make decisions and design policies. It 
also involves the network structure, as well as assessment mechanisms. 
This element suggests that collaboration inside networks needs to be 
managed in a participatory and transparent way, including mechanisms to 
make decisions and solve conflicts.
    A third component of the model involves facilitative leadership. 
The role of the leader is important, particularly when problems need to 
be solved by networks of agencies where power is shared. The leader in 
this environment has new roles to play. First, the leader is a designer 
of vision, policies, and learning processes that enable knowledge 
utilization. The leader is also a teacher that helps people get more 
insight into the problem. Finally, the leader is a steward of peoples' 
needs while ensuring the success of the broader mission.
    The fourth component involves the collaboration process itself. The 
process is a virtuous cycle where collaboration brings trust and 
commitment among participants, as well as a shared understanding of the 
problem area. However, the main challenge is to find strategies to 
start the virtuous cycle. When there is no trust, people will not 
develop commitments or shared understanding, and are unlikely to 
achieve the desired outcome. In many cases, trust starts building when 
all participants understand the benefits of the collaboration by seeing 
early results. These ``small wins'' have proven effective in starting 
or accelerating the collaboration process.
    Finally, the model considers the outcomes of collaboration. In the 
particular case presented in previous sections, the main outcomes 
involve the reconciling the secure and expedient transit of legitimate 
goods and people, while identifying and interdicting contraband items, 
such as illicit drugs.
                            recommendations
    The following are my recommendations for what needs to be done to 
improve information sharing to stop the illicit flow of drugs. It is 
imperative to develop a multi-agency information sharing system that 
incorporates the following elements (Figure 2).
  <bullet> Training Program to Promote Trust.--Since trust is a key 
        component of information sharing, training will be required to 
        improve the level of trust. This training will draw upon the 
        latest research in this field and the best practices for 
        transmitting this knowledge to organizations.
  <bullet> Social Media Monitoring.--This system will target data 
        collection of all social media with relationship to drug 
        activities, by extracting and synthesizing relevant data. 
        Social networks, such as Facebook and Twitter, capture rapidly 
        emerging and changing information regarding illicit activities. 
        This high-value data will inform decision making based on 
        periodic data sources with highly dynamic social networking 
        data.
  <bullet> Databases.--Provide access to State, local, and Federal 
        databases related to drug trafficking to all agencies in the 
        network.
  <bullet> Drug-Link.--Develop a COPLINK-like system to display cues 
        for analysis for illicit drug flows. IBM i2 COPLINK organizes 
        vast quantities of seemingly unrelated data to provide 
        tactical, strategic, and command-level users with access to 
        shared data in a single, or multiple, consolidated 
        repositories. Its proven ability to quickly identify 
        investigative leads has helped law enforcement agencies to 
        solve crimes faster and ensure the safety of officers and 
        communities. IBM i2 COPLINK seamlessly scales from single-data 
        source deployments to regional information-sharing initiatives, 
        tying multiple agencies and data sources together. The product 
        is used in fusion centers, police, and sheriff departments 
        across the United States and currently supports one of the 
        largest information-sharing initiatives in the world.
  <bullet> Collaborative Systems.--The goal is to share insights and 
        integrative relevant actions and plans. This system will enable 
        the sharing of information by receiving input from all relevant 
        systems. It will facilitate idea generation and organization, 
        consensus building, and action planning.
    I hope that this testimony provides insight into better ways to 
facilitate collaboration and information sharing across agencies to 
stop the illicit flow of drugs into our country.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Quayle. Thank you, Dr. Nunamaker.
    I want to thank all the witnesses for their testimony. I 
will kick off the first line of questioning.
    My first question is for Mr. Coleman and Mr. Allen. As I 
mentioned in my opening statement, you know, the drug cartels 
are going to stop at nothing if they can make a buck. The 
amount of resources that they have pretty much dwarfs any 
single agency to combat them.
    So there are several different task forces out there trying 
to combat drug smuggling. The groups that we have mentioned, 
like BEST, HIDTA, Alliance to Combat Transnational Threats, 
Organized Crime and Drug Enforcement Task Force, they are all 
competing for limited funding. Some have overlapping goals.
    So I am going to start with you, Mr. Allen, and then Mr. 
Coleman. You know, one of the lessons that we learned from the 
9/11 Commission was that we need to move away from information 
satellites. But do you think we can streamline some of these 
task forces so that we can actually get more bang for the buck 
so that we are not having to overlap, we are not having as many 
competing task forces going for the same amount of funding to 
better utilize the limited resources that we have available?
    Mr. Allen.
    Mr. Allen. Well, I would say that I think we are going to 
go through a period in Government where we are all going to 
look for as much efficiency as we can. I think to the extent 
that we can gain efficiencies in any of those programs we 
should.
    I don't necessarily agree that BEST and OCDETF strike 
forces, for instance, overlap. I think they are very 
complementary. They look to a certain extent at different 
aspects of drug trafficking or drug smuggling.
    But I do agree on the front regarding stovepiping of 
information. I think that's where we have really made some of 
the greatest strides. You know, I think we have broken down a 
lot of walls in terms of information sharing between agencies 
at every level of government. We need to continue to work in 
that direction.
    You know, one of the things I would say, as somebody who 
has done this for a long time, is that some of that is a 
leadership question, is how do we develop our leaders. It is 
one of those things that starts right at the top. If the heads 
of organizations both in Washington and in the field strongly 
personally believe in information sharing, you will get that to 
happen.
    So I would say that one of the things we need to work on 
is, as you develop Federal leaders and Federal executives, very 
analogous to the military, we need to be encouraging and 
causing Federal leaders to work across agency lines.
    I will tell you one of the best experiences I have had in 
my career is actually working at DEA for 14 months on one of my 
headquarter stores. Imbedding with DEA and seeing the world 
through their eyes, learning about the organization has paid 
great dividends for me. It has made me much more knowledgeable 
about the organization and how we can work together. I think 
encouraging cross-pollination between the Federal agencies is 
how you continue to break down some of those barriers.
    Mr. Quayle. Mr. Coleman.
    Mr. Coleman. I agree with Matt. I think that there are a 
lot of we are all going to have to streamline. We all know 
that. We know what is coming down the pipe.
    But I also agree with Matt in the fact that multiple layers 
of task force, the different task forces that we have, they 
don't all do the same job. I think we commonly make a mistake 
in thinking that if something is a drug task force, well, then 
it is doing the same job as another drug task force. Not 
necessarily, drug trafficking, there are task forces operated 
at all different levels. So I don't think that it is 
necessarily duplication. Now, are there some duplicate efforts 
out there? Certainly. But I think all in all we can't lump all 
types of drug trafficking organizations and task forces into 
one.
    Mr. Allen. I will give you an example of that. In talking a 
little bit about the West Desert Task Force and the importance 
of HIDTA in that, I will give you an example of something that 
happened recently that exemplifies how we need to move 
information across agency lines.
    One of the participants in the West Desert Task Force is 
the Bureau of Land Management. Recently a Bureau of Land 
Management law enforcement officer found a scouting location in 
the west desert. They found a cell phone. That information was 
given to HSI. We turned it over to HIDTA. Within 24 hours, 
HIDTA was able to tie numbers from that cell phone to 
investigations that DEA had an interest in and that we had an 
interest in. We need to be focusing on that movement, that 
rapid movement of information every day across agency lines.
    Mr. Quayle. Okay. I am going to go back to you guys as 
well.
    In '85, in 1985, Enrique Camarena, who was an undercover 
DEA agent, was killed in Mexico. Following the U.S. Government 
response, it seemed that the cartels had an informal hands-off 
policy towards U.S. Government officials. Then, last year, ICE 
agent Jaime Zapata was killed and his partner, Victor Avila, 
was wounded in Mexico despite actually identifying themselves 
as U.S. Government officials.
    Now, my understanding is that the attack was not sanctioned 
by cartel leadership. But as cooperation with Mexico has 
increased and we have sent more agents and officers to work in 
Mexico over the last few years, what precautions are we putting 
in place to protect our men and women in the field when they go 
across the border?
    Mr. Allen. I would actually, I would probably prefer to 
take that question for the record only because I--you know, my 
leadership responsibilities are here in Arizona. I can't 
necessarily speak----
    Mr. Quayle. Okay.
    Mr. Allen [continuing]. About our foreign presence in 
Mexico; although, Mexico is where we have the largest number of 
HSI agents outside the United States. But I can't probably talk 
on behalf of the agency about how we are preparing our people 
to go overseas.
    Mr. Coleman. DEA has obviously a very large presence in 
Mexico. As Matt said, we have training courses and a variety of 
things like that we send our folks to before they go over 
there. Then there are several other things that we do to take 
care of them while they are there that I can't really speak 
about in a public forum. But there are certain things that we 
do all the time to ensure their safety as best as we possibly 
can. Obviously it is a dangerous environment at times for them 
and we do everything we can to try and protect them while they 
are there.
    Mr. Quayle. Thank you.
    I now recognize Ms. Jackson Lee for her questions.
    Ms. Jackson Lee. Thank you very much. To all the witnesses, 
thank you for very instructive testimony.
    Mr. Allen, let me start with you. I guess you are getting 
the hot seat. I will proceed over here.
    It is my understanding that drug loads interdicted by 
Border Patrol between the ports of entry are turned over to DEA 
while drug loads interdicted by CBP's Office of Field 
Operations at the ports of entry are turned over to ICE for 
investigation.
    This bifurcation seems to be relic of the days before the 
creation of DHS when Border Patrol, like DEA, were part of DOJ. 
Is that still the case? What challenges, if any, does this 
situation pose for ICE as you attempt to investigate drug-
trafficking organizations that may be sending drug loads 
between and through the ports of entry?
    Mr. Allen. It certainly is a construct that predates the 
creation of DHS. You know, I think there are several different 
factors that argue both for and against kind of maintaining the 
status quo.
    You know, the reality of the situation is, going into the 
budget that we are now, HSI and ICE are certainly not resourced 
to take on the level of work that DEA takes on every day in 
servicing the Border Patrol and their drug activity. So I am 
not sure we have the resources to take on what DEA takes on 
today.
    But if we go back to the previous question, I think the key 
factor there is information. When either the Office of Field 
Operations or the Office of Border Patrol at CBP makes an 
interdiction, I think, you know, what generally HSI and DEA are 
looking for out of that is information and leads. As long as we 
can focus on the flow of information from those seizure 
incidents, I am not sure in the end whether it matters whether 
prosecution is taken by DEA for presentation to the U.S. 
Attorney's Office or HSI. As long as there is a healthy flow of 
information that emanates from those seizure incidents, I think 
we maintain the status quo, unless somebody is going to look at 
resources.
    Ms. Jackson Lee. You are comfortable with the Homeland 
Security Investigations structure.
    Mr. Allen. Yes.
    Ms. Jackson Lee. Are you comfortable with, in answer to 
your own comment, that you are giving another information so 
that information is exchanging even though the interdiction is 
by a different organization?
    Mr. Allen. Yeah. I think, you know, the way our case 
management system is set up, which right now is shared jointly 
with Customs and Border Protection, for any individual name, 
company name, license plate number that we put into our case 
management system, CBPCs, it is transparent to them. Similarly, 
it goes across the DEA at the same time. So increasingly our 
ability to share information, even transparently, is enhanced.
    Ms. Jackson Lee. Let me ask you if you could give us a 
quick response to the seriousness of the question of potential 
money laundering into U.S. banks, which is part of your 
testimony.
    Mr. Allen. You know, I think one of the really good things 
you can say about U.S. anti-money laundering laws that go back 
35 or 40 years is that for a very long time we have been 
successful at kind of pushing illicit funds out of U.S. 
financial institutions. That is because the banking industry 
has been very good at developing good anti-money-laundering 
screening tools.
    Ms. Jackson Lee. So what are you seeing now, that you are 
saying----
    Mr. Allen. What I see is Mexican TCOs trying to get back 
into U.S. banks. I think we need to focus on making sure that 
we can keep illicit money out of the U.S. financial system. 
That's going to take us sharing information with U.S. banks, 
which we are now, so that they can detect that kind of illicit 
activity and keep it out of the banks.
    Ms. Jackson Lee. So this is a red flag for this hearing, to 
be attentive to the fact that this may be a next move----
    Mr. Allen. Yes.
    Ms. Jackson Lee [continuing]. For Mexican cartels. I think 
that's a very important point that we should flag.
    Let me move to Mr. Coleman. I think in your testimony you 
emphasized something that is extremely important to me, 
intelligence. I think that we have managed to be secure for now 
10, going on 11, years since 9/11 because we understood the 
importance of intelligence sharing. In this instance, with drug 
interdiction and drug trafficking, how important for DEA is the 
intelligence gathering and sharing?
    Mr. Coleman. It is critical to what we try to do every day. 
There is nothing that we as DEA, which is the Federal 
Government's sole and primary drug law enforcement agency, we 
have to--we need all this information that we get from all 
these various sources to make our cases. We are a small agency, 
but we are a single-mission agency. We do one thing and we do 
it very well. But we need all the information from the other 
sources, State and local, Tribal, whatever it may be, to try to 
build these cases.
    One piece of information that a State and local agency may 
have may be the key to my agents being able to indict a 
significant Sinaloa cartel lieutenant or something like that. 
If we don't share that, I may never know about that piece of 
information. So systems like the HIDTA, things like that, where 
everybody comes together and then everything is pushed out to 
everybody that is involved, are critical to what we are trying 
to do.
    Ms. Jackson Lee. Let me, in answer to Professor Nunamaker, 
do you think we are moving toward a trusted collaboration, 
breaking those distinctive lines that we have? Have you seen 
collaboration? Do you think you can overcome some of these 
challenges that he offered in terms of sharing information? Are 
you doing that now?
    Mr. Coleman. I can speak for DEA in that there is virtually 
no piece besides classified information of DEA information that 
State, local, or Tribal law enforcement cannot access. Now, 
they have, they may have to talk to the investigator that has 
the case, but we have systems in place that match up and notify 
the State cop that's on the street, they will notify him what 
DEA agent he needs to talk to to get information about that. We 
have multiple systems on that.
    Ms. Jackson Lee. Let me quickly ask you about the 
challenges of desolate areas for DEA.
    Mr. Coleman. Extreme challenges. We have poor 
communications out there. Our, the infrastructure is tough for 
our agents that are out there. DEA by and of itself is not an 
interdiction agency. We are an investigative agency. So we 
don't do a lot of interdiction but we certainly have operations 
that are in those areas. It is tough to manage our resources 
out there. It is a safety issue for our agents as it is for the 
BP and the ICE agents that are out there all the time.
    Ms. Jackson Lee. Anything that you need in particular, that 
relates to that issue of desolate areas?
    Mr. Coleman. I think that the biggest need, the thing that 
we need is infrastructure built up so that we can access 
communications in some of those areas. There are desolate areas 
we can't even communicate with each other. That's obviously a 
safety issue.
    Ms. Jackson Lee. Let me ask a last quick question to 
Lieutenant Stanhope. I was eager to hear the importance from 
local and State government's perspective of the partnership 
with the Federal Government, particularly in grants. Can you 
emphasize again how important those grants are for you to be 
able to do your work?
    Colonel Stanhope. Mr. Chairman, Ms. Jackson Lee, I will 
tell you that, you know, all the Federal grants, particularly 
that we currently are engaged in, are absolutely essential for 
us to impact this problem in the fashion that we are. The 
reality is I do not have the appropriate budget to backfill if 
those grants go away. As Mr. Coleman indicated or mentioned 
about mission, well, DPS has multiple missions that we try and 
accomplish. Narcotics enforcement is one of many missions.
    But those grants are integral to us being able to partner 
with all the folks here at this table and agencies around the 
State, absolutely essential.
    Ms. Jackson Lee. I yield back for a moment. Thank you very 
much.
    Mr. Quayle. I recognize Mr. Gosar.
    Mr. Gosar. Mr. Chairman and Subcommittee Ranking Member, 
thank you very much for including me.
    Let me go back to Mr. Allen, Mr. Coleman, and Ms. Kempshall 
at this point in time. I believe that we can accomplish 
anything if we put our minds to it and not eliminate certain 
jurisdictions. I am going to focus on the border and the 
environmental aspects that you are inhibited with.
    The Border Patrol, or the border is a place where the 
environmental security or environmental patrol and security 
come into a nexus. Stretches of land along our border are 
closed off to the Border Patrol so they are unable to perform 
basic security activities like motorized patrolling, road 
construction, and even electronic surveillance. Why? That's 
because of environmental regulations.
    We all agree on the importance of protecting the 
environment. But I believe that current policies are extremely 
dangerous and ties the Federal law enforcement's hands when it 
comes to protecting our Southwest Border. Even worse, the areas 
in question are often trashed and ruined by drug smugglers and 
illegal crossers. In fact, the Arizona Department of 
Environmental Quality reported picking up over 5,000 pounds of 
trash in the Nogales area just in January alone.
    I believe this policy is broken and is not serving the 
environment or protecting our citizens. My colleagues and I on 
the Natural Resources Committee support Congressman Rob 
Bishop's legislation 1505, the National Security and Federal 
Lands Protection Act. It would stop the Secretary of the 
Interior or the head of the Forest Service from taking action 
to disrupt the activities of the Border Patrol and grant the 
Border Patrol immediate access to public land in order to 
conduct common-sense measures to secure the border, patrolling, 
surveillance, and the like.
    My question is: How would a law like this assist in your 
mission? What obstacles have you encountered in your time on 
the board or managing environmental regulations? What increased 
security efforts could you do if 1505 were put in place?
    Mr. Allen first.
    Mr. Allen. You know, as the leader of a investigative 
component of DHS, I cannot tell you that environmental 
regulations have ever impeded my mission or my agents' missions 
out there.
    Mr. Coleman. I am the same on both, sir. We are primarily 
an investigative agency; we don't do a lot of that type stuff.
    Mr. Gosar. Ms. Kempshall.
    Ms. Kempshall. The agencies that are participating in the 
Arizona HIDTA include Bureau of Land Management. They are very 
active then in participating and sharing their intelligence 
with us. I don't have any ability to comment on the 
environmental impact.
    Mr. Gosar. How about you, Lieutenant Colonel?
    Colonel Stanhope. Mr. Chairman, Mr. Gosar, no, I don't have 
any information on that.
    Mr. Gosar. Mr. Nunamaker, do you see a problem with that?
    Mr. Nunamaker. No.
    Mr. Gosar. Okay. One of the things that you talked about 
was the key in regards to having a policy from up above and 
having a uniform policy. It is a war, and our border is not 
secure, unlike what has been said. Drug and human smuggling is 
a form of organized crime, the kind of crime that requires 
political protection from those in power in order to thrive in 
the way the cartels have.
    My question for Mr. Allen and Mr. Coleman and Ms. 
Kempshall: As you know, the Department of Justice sued the 
State of Arizona over SB 1070. The law empowers local 
enforcement to identify and detain illegal immigrants. Sadly it 
is not a cooperative working relationship from the top down. In 
fact, truth is, looks like it is lacking. However, across the 
country, we, and through the Southwest, we have sanctuary 
cities, policies in which one way or another purposefully 
ignore the presence of illegal immigration within the city. 
What kind of message does this actually send when the Federal 
Government sues the State trying to assist them in enforcing 
the law and does nothing to cities and States who actually 
flaunt and ignore the law with sanctuary cities?
    Mr. Allen.
    Mr. Allen. That's a little beyond the scope of my 
attendance here today. I am certainly not in a position to 
comment on the administration's position or decision to sue on 
1070.
    What I can say with respect to our cooperation with other 
agencies on the immigration side of our mission is that we have 
a great working relationship with law enforcement agencies 
around the State. We do a lot of joint work with other agencies 
on immigration enforcement. On a daily basis, law enforcement 
agencies are turning over illegal aliens that have been 
identified to ICE primarily, our enforcement and removal 
operations component throughout Arizona. So we have a very good 
working relationship with our counterparts in that area.
    Mr. Coleman. Nothing to answer. I don't have anything.
    Mr. Gosar. Ms. Kempshall.
    Ms. Kempshall. The primary mission of HIDTA is involved 
with the drug-trafficking organizations. So I have no comment 
on the immigration situation.
    Mr. Gosar. Okay. Quick question for you, Ms. Kempshall. I 
know you have a number of HIDTA but it doesn't include all of 
Arizona. What kind of benefit would it be to have 100 percent 
of Arizona under HIDTA?
    Ms. Kempshall. The current process to become a HIDTA county 
is very extensive and very involved and goes through rigorous 
reviews on multiple levels.
    The interaction with HIDTA participants and non-
participating agencies or counties is very robust. The 
intelligence that we develop, or the support that we develop or 
have is not limited solely to participating agencies or 
participating counties. Arizona, it has, one of the largest 
areas of its State has been designated as HIDTA county. That 
has been very helpful to the development and sharing of 
intelligence in our enforcement efforts.
    Mr. Gosar. Just one real quick thing. So there has been no 
point in which an environmental access has impeded law 
enforcement on the board. I find that hard to believe.
    Mr. Allen. Again, I am talking from the investigative point 
of view where our investigators go out there every day. It 
hasn't stopped us.
    Mr. Gosar. Brigadier General.
    General Salinas. We, we are a support agency, Congressman, 
so we really don't take the lead on any of that. For instance, 
when we were on the border with entry identification teams, CBP 
was the agency that coordinated with the other Federal agencies 
and the local law owners for us to be positioned. So we are a 
background support organization. We don't make any of those 
negotiations unfortunately.
    Mr. Gosar. It seems like we are missing the right people to 
answer the question.
    General Salinas. I believe CBP would be the best 
organization to answer that question.
    Mr. Gosar. Well, thank you. I yield back.
    Mr. Quayle. Mr. Gosar.
    I will kick off the second and final round of questions.
    Colonel Stanhope, awhile back there was talk about putting 
up quick response teams, CBP and ICE, to help DPS as you guys 
continue to monitor the interstates with 40, 8, 10, 17. Has 
that come into effect? Do you think that a quick response team 
in various areas of small groups of CBP or ICE agents in 
various areas along the corridors would help with you 
interdicting either drug smugglers or human smugglers on the 
interstate DPS patrols?
    Colonel Stanhope. Mr. Chairman, my short answer is yes. Let 
me explain.
    Obviously we have highway patrolmen out there every day 
running up and down the freeways making traffic stops. 
Oftentimes they will come across, they will interdict loads of 
narcotics, cash, et cetera. Oftentimes my division, Criminal 
Investigations Division, provides direct support to the men and 
women of the Highway Patrol, provide them investigative 
services and support.
    Obviously, in these times, my agency, as many agencies, are 
challenged in staffing. We do participate in a lot of task 
forces which have, which have their own mission parameters.
    So my answer is yes, it would, because those folks would be 
able to, to go out and respond to some of the calls for service 
for highway patrolmen that my own agency cannot support right 
now. Oftentimes what will happen is they will, let's say, seize 
a load, 300 pounds of marijuana. If there is no one from my 
agency that can immediately respond, the subject is booked, 
marijuana is seized. The timeliness of the investigative 
effort, in other words furthering that investigation, time is 
critical. If we don't have an investigator go out and take that 
investigative role, controlled deliveries basically are 
worthless if you don't get on them right away, if you don't 
perform them right away. The value of the information may be 
lost from the subject after being booked and/or deported, 
things of that nature.
    So there is an immediacy that I think would benefit law 
enforcement, and my agency in particularly, in particular. But, 
so yes, I would absolutely support that concept, sir.
    Mr. Quayle. Mr. Coleman, I was talking about the Mexican 
elections coming up. You know, there has been very good 
cooperation between the Mexican and the U.S. authorities. How 
damaging would it be if the next president of Mexico does not 
continue Calderon's call to try to stop the drug cartels and 
the drug trafficking and does not provide the cooperation with 
U.S. authorities for our guys who are south of the border?
    Mr. Coleman. I think it would be very damaging to the 
efforts that we have had for the last 6 years. Under President 
Calderon's administration, the cooperation and the high-level 
crossover of information sharing with the Mexican government 
has been unprecedented. We have indicted and extradited 
probably hundreds of high-level narcotics traffickers from 
Mexico, something that was unprecedented prior to his 
administration.
    So I think if the--not getting too political, anything that 
would change that level of cooperation is going to be damaging 
to DEA's efforts to indict the biggest and the baddest of the 
drug traffickers in the world.
    Mr. Quayle. Kind of going along that thread, there were 
some news articles I have read recently where it indicated that 
the head of the Sinaloa cartel, Chapo Guzman, was actually 
providing quality information to Customs Enforcement and to the 
DEA to actually make good arrests and seizures at the expense 
of his rivals, which was the Tijuana cartel, I believe.
    How do these respective agencies kind of guard against 
somebody like Chapo giving you information just for the benefit 
of Sinaloa cartels at the expense of one of his competitors, or 
do you just see it as: ``Hey, we got one of the competitors and 
got one of the cartels and made some interesting seizures''?
    Mr. Allen. Well, there is--I mean that's one angled look at 
it, though, but I am not sure that is the only angle you should 
look at.
    You know, one of the things we try and teach our agents and 
instill in them is that, you know, first of all, human sources 
are a key ingredient to what we do every day. A lot of what we 
do couldn't be done without human information. But one of the 
key things that agents have to learn early in their career 
hopefully when they are dealing with human sources is that the 
most important thing you learn from them isn't necessarily the 
information that they provide you about the criminal activity; 
it is why they are coming forward in the first place.
    Mr. Quayle. Right.
    Mr. Allen. You know, you have to understand what their 
motivation is for providing information. There is a wide range 
of those. You know, some of it is revenge. Some of it is they 
have had a change of heart and want to provide, you know, 
information to U.S. law enforcement. Some of it is, you know, 
more Machiavellian and involves, you know, organizational 
politics in Mexico. We have to, we have to be asking the kinds 
of questions that elicit that background information about why 
a person is comfortable to talk to law enforcement.
    Mr. Quayle. Okay. Thank you very much.
    I now recognize Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
first of all say this has been very instructive and I 
appreciate the witnesses very much for what they have provided.
    Let me just glean from comments that have been made, and I 
think it is important for the record, and that is the focus of 
this hearing, dealing with the illicit flow of drugs in 
Arizona, and to indicate the various success stories that have 
been told here, along with the challenges. I think that's very 
important. We should acknowledge all of you for the success 
that we have achieved. Yet we want to do more. I think--I see 
some nodding heads--that's where we are. But we really 
shouldn't leave this hearing without acknowledging the work 
that has been done and that we need to continue to work. That's 
extremely important.
    I think it is important to note as well that we reinforce 
the fact that many are Federal agencies here. Some under 
General Salinas, by statute, can be Federalized but work under 
the Governor until that point. We thank you as well for your 
service.
    Then I think it is important to emphasize that, though we 
don't have the principals here that deal with this issue, that 
immigration is truly a border security and Federal issue and we 
should ensure that we have all the resources necessary to work 
on those issues.
    Let me, Lieutenant Colonel Stanhope, can you just give me 
one of the grants that is so very important to you so that we 
can be guided by that as we go back to Washington?
    Colonel Stanhope. Mr. Chairman, Ms. Jackson Lee, certainly. 
The Operation Stonegarden, for example, is a grant program 
which I believe is through DHS, through Border Patrol, funneled 
through the counties and we get a portion of that at DPS. Those 
funds are used to support interdiction details along the 
highway with many of our partners. But it is also used to 
conduct desert operations in furtherance of some of those 
remote corridors that we try to interdict drug loads on. That's 
one example.
    Another example, frankly, is funding we get for our Arizona 
Fusion Center through DHS. That funding provides us that 
infrastructure in order to operate that facility. It does not 
pay for personnel but it does pay for the infrastructure.
    Again, as I mentioned before, it is about a million dollars 
that we receive from Arizona DHS, or $980,000, for that. I 
don't have that money in my budget or my department's budget in 
order to facilitate that. So if that money went away, I am not 
sure how we would have to handle that at a State level. 
Stonegarden money, again, I think we totally get about $800,000 
from all the counties involved with that, and, again I don't 
have the resources in order to provide that service or to 
support that, those efforts without our Federal partnership.
    Ms. Jackson Lee. Well, that's very important. I want you to 
know that we are listening.
    Let me emphasize another statement for the record is that, 
at least by those witnesses who are here, is that presently 
environmental laws or regulation are not impacting your work. I 
think it has to do with our Federal lands. Many of us want to 
make sure that our Federal lands continue to be protected 
without relieving environmental structures. So we appreciate 
that information.
    To General Salinas, I want you to know that we are not 
finished with our work in the budgeting and appropriations 
process. I am delighted that you have taken to note about the 
$4 million. I think all of us will look forward to working on 
that issue and bringing to the attention of our appropriations 
process the vital aspect of this $4 million, across the Nation 
I think it is, and you dropping down from 24 to 9 percent.
    So what you are suggesting is that just that amount and the 
amount of numbers of personnel that you lose will have an 
impact and we should look closely and squarely at that issue? 
Is that what you are saying?
    General Salinas. Yes, ma'am. It is going to have a huge 
impact on many of the organizations that you see here. 
Currently I provide 15 to ICE, a large number to DEA, DPS, and 
HIDTA. This budget is essentially going to cut us in half.
    You know, when you look back to previous years when we were 
in the 300 range, we are now going to be down to 60. So it is 
an 80 percent cut over time.
    Ms. Jackson Lee. I can assure you that this is ringing a 
bell with bipartisanship, and it is an issue that we will take 
back to Washington, I will take back to Washington. I just want 
to thank you for the 9,000 men and women who have been deployed 
out of the Arizona National Guard, as I understand since, 9/
11----
    General Salinas. Yes, ma'am.
    Ms. Jackson Lee [continuing]. And to be deployed.
    Let me go to Professor Nunamaker. Thank you for the very 
detailed approach that we may take back to Washington. But let 
me get you to see a glimmer of optimism.
    If we look at some of the principles that you have 
annunciated, can you see--I see a sense of trust here--can you 
see that trust building and then that collaboration enhancing 
through technology? How would you instruct us? I see the trust. 
Where are you thinking that we can do better?
    Mr. Nunamaker. I think it will be involving education and 
making people aware of the implications of trust and so there 
is self interest in putting in information hopefully for the 
greater good.
    Ms. Jackson Lee. That would be for the laymen or for these 
groups here? We are talking about law enforcement groups 
collaborating with each other.
    Mr. Nunamaker. I think it is all the way up the chain from 
the boots on the ground to the top leadership.
    Ms. Jackson Lee. Do you see improved communications and 
trust amongst these individual component law enforcement in 
your research, from HIDTA to ICE, DEA? I mean, as they gave 
their testimony, the State, they all seem like they are working 
together.
    Mr. Nunamaker. I think that's right. We have dealt with 
Matt Allen in the past. It is just that it has to work up from 
the ground.
    Ms. Jackson Lee. Ground up. We will take that note back.
    Let me--I just, Mr. Chairman, have a few more questions 
here, I think, hopefully, or two more questions for Ms. 
Kempshall.
    I am fascinated, of course, with the work that HIDTA is 
doing. I think it is an important component that it was 
established, at least the Arizona one, way before, I think I 
was on judiciary, and we were dealing mostly with those issues 
before we even had a Homeland Security department. I started 
talking historically.
    But what have you seen in the growth of this system and its 
improvements--1990 here in Arizona, we are now 2012--the growth 
and improvement of your work, what have you seen? What kind of 
progress are you seeing? What do you see going forward?
    Ms. Kempshall. Well, I appreciate the opportunity to answer 
that question because I have been in drug law enforcement for 
about 28 years and I have seen a lot of growth. I would like to 
focus right here in Arizona as what I have been seeing over the 
last 5 or 6 years that I have been in Arizona.
    The law enforcement community, specifically the drug law 
enforcement community, is facing challenges in this State like 
I have never seen throughout my career. The cooperation and the 
dedication of the law enforcement agency leaders and the men 
and women on the street is just incredible.
    I have seen it since I have been with the Arizona HIDTA 
over the last year and a half, how, when law enforcement 
agencies come together with a common strategy, knowing who our 
enemy is and leveraging all the resources that our Federal, 
State and local, and Tribal law enforcement can bring against 
that enemy, man, it is exciting to see the progress that we are 
making. The strides that we are making to go after the most 
significant targets through using intelligence to drive that 
strategy is just--you should see the look on these men and 
women, the agents on the street, when they get a piece of 
intelligence from the ISC that ties their seizure into a major 
investigation being done by a Federal agency. It is just 
incredible when you see them coming together.
    You asked about, you know, the duplication of task force 
efforts. I don't see it that way because I have been involved 
in all of them over my career. I see us as layering our 
approach to take out the infrastructure of these drug 
trafficking organizations. Combining the resources that we all 
bring to the table, we are going to be successful here.
    Ms. Jackson Lee. That is a powerful message. Mr. Coleman--
very powerful. It is very important for us to know in my 
sitting on both committees, the Judiciary and Homeland 
Security.
    But you, Mr. Coleman, in particular, if you could, clarify 
the question of whether you do or do not share classified 
information with other agencies, and, if not, why or how can 
they access it in an appropriate classified manner. When I say 
that, obviously State agencies and other agencies.
    Mr. Coleman. We do share classified information, but 
through appropriate mechanisms that we have built in place 
within the agency and within the Federal Government. Our 
standard nonclassified investigative information is pretty much 
accessible to any law enforcement agency through a variety of 
mechanisms that we do.
    But, again, my statement was that our classified 
information goes through the, the sharing of that, goes through 
the regular Government systems that are set up to apply that 
kind of sharing.
    Ms. Jackson Lee. So can I take from this that no local, 
State, or coordinating agency is barred from any access to your 
great arm of what you do, which is the gathering of 
intelligence? No one is barred as long as they are classified 
going through the appropriate procedures which then allows that 
agency to be collaborative and to build on what they may have.
    Mr. Coleman. The sharing of the classified information 
would be if they were authorized to see it, of course, within 
the Government regulations. But the actual investigative 
standard information that we have, yes, they can access that 
through any system.
    Ms. Jackson Lee. Thank you.
    All of you view the Fusion Centers as a positive element? 
That's everyone by that?
    They are all nodding.
    So those who are working in Government are saying yes. 
Thank you, Mr. Chairman.
    Mr. Quayle. Thank you, Ms. Jackson Lee.
    I now recognize Mr. Gosar.
    Mr. Gosar. This is for all the witnesses.
    Recent reports have highlighted the increase of crystal 
meth seizures both in Mexico and here in Arizona. Crystal meth 
is a drug, as you know, that absolutely destroys the users and 
the addicts. We made progress in restricting the availability 
of the precursor chemicals in the United States. But the 
unintended consequences are the development of super labs in 
Mexico that just produce immense quantities of this drug.
    In your view, how can we stop the rising threat of meth 
from making its way onto the streets of Arizona and making this 
problem larger?
    Mr. Allen.
    Mr. Allen. Well, you might find this surprising from 
somebody in law enforcement, but demand reduction is one of the 
key things that we actually haven't talked about today. It 
wouldn't get produced and it wouldn't come here if we didn't 
use it.
    Mr. Gosar. Mr. Coleman.
    Mr. Coleman. I think that the chemical regulations that 
were put in place in the United States restricting pseudo and 
things like that have certainly pushed that down. There are 
some limited chemical regulations in place in Mexico but not to 
the extent of what we have done in the United States. If we do 
something like that, maybe Mexico will have the same type of 
results that we had here in the United States as far as 
shrinking that production.
    Mr. Gosar. Brigadier General.
    General Salinas. Congressman, I would like to piggyback on 
the drug demand reduction. That was, that is part of our 
program this year, but because of budget cuts and the way the 
Department of Defense is looking at that particular program, I 
am going to have to cut that.
    It is one of the most difficult programs to quantify. You 
know, you can't put drug seizure numbers against it. But when 
you sit down and you talk to the coalition leaders and the 
communities where my soldiers and airmen teach primarily sixth, 
seventh, and eighth graders, and you talk to the principals of 
those schools, we are making an impact. It is just very hard to 
quantify. Unfortunately, in this next year's budget I am going 
to have to cut that entire program.
    Mr. Gosar. Lieutenant Colonel.
    Colonel Stanhope. Sir, I would say I would agree with my 
colleagues that education is obviously a big component of it. 
As you have heard today, enforcement is also a big component. I 
think there is an opportunity for some engineering to occur 
along the border to help make it more secure or restrict some 
movement along the border as far as methamphetamine and the 
hard drugs.
    I would also, I would also echo the working with the 
government of Mexico as far as trying to stem the flow of the 
chemicals from China and from, I believe, India into Mexico 
that help fuel those super labs, so work with our, work with 
our friends in Mexico to come up with some type of Mexican law 
to prevent that or slow that down.
    Mr. Gosar. Ms. Kempshall.
    Ms. Kempshall. Yes, sir. You know, the challenges that our 
country faced from methamphetamine production and abuse in our 
country in the early 2000s, you know, it was, it was a horrific 
situation. You saw Federal, State, local, and demand reduction 
efforts come together. We changed what was happening, the 
threat that we were facing. Currently in our State, we are 
seeing a decrease in some of the methamphetamine abuse by our 
children as recently reported.
    You know, when I first started in law enforcement I thought 
I was going to arrest my way out of the problem, that I was 
going to arrest every bad guy and we were going to eliminate 
the drug abuse problem. Well, I have learned through experience 
and hard knocks that it has to be a coordinated approach 
between law enforcement, demand reduction, and treatment. When 
we work together in collaborative efforts, we do make a 
difference, as seen in the early 2000s with the threat of 
methamphetamine.
    We need to continue those efforts. We need to continue to 
partner with folks like the National Guard that has an already 
established program that is well respected in our communities. 
We need to keep teaching our children about the dangers of drug 
abuse.
    Mr. Gosar. Mr. Nunamaker.
    Mr. Nunamaker. I have nothing more to add.
    Mr. Gosar. Okay. A quick question, I am running short of 
time. Give me a grade of the relationship that you see between 
the United States and Mexico, quick grade, A to F.
    Mr. Allen. B+.
    Mr. Coleman. B+.
    General Salinas. I would have to rate mine on a military 
scale. I would say that we are gradually improving that 
relation through the work of U.S. Northern Command. But I 
really don't have anything to offer in terms of the drug nexus.
    Colonel Stanhope. I have nothing, sir.
    Ms. Kempshall. Significant improvement over the years and 
continued need to improve.
    Mr. Gosar. B? C? D.
    Ms. Kempshall. Let's go with B.
    Mr. Nunamaker. B.
    Mr. Gosar. One thing that you could ask that we should 
demand of Mexico in the more securing of our border, what one 
thing would you demand?
    Mr. Allen. I would say continued development and 
professionalization of their Federal law enforcement 
organizations.
    Mr. Coleman. Continued development of the cooperation with 
the United States.
    General Salinas. Again, for me, sir, it would be more of a 
military focus. I would say that we need to continue the on-
going military-to-military engagements that we have going on at 
this very moment.
    Colonel Stanhope. I would say ditto, and both sides work 
together to secure the border.
    Ms. Kempshall. Continuing to share intelligence.
    Mr. Nunamaker. Technology and information sharing.
    Mr. Gosar. I am going to leave with one quick comment. I 
hope that just, when we are looking at securing the border, we 
look outside the realm of just law enforcement. For example, 
the Santa Cruz Wash is one of the things we try to highlight. 
You know, when you are bringing significant infrastructure 
improvements, we ought to be talking to you folks in regards to 
how we can utilize those infrastructure projects to make a 
better deterrent along those ways and look outside the box 
there.
    But I would also say, you know, from natural resources, to 
the gentle lady from Texas, we are very aware of impedance 
along the border in interdiction with environmental laws. I 
think we need to streamline that process accordingly.
    So with that being said, I thank the Chairman for including 
me in today's hearing.
    Mr. Quayle. Thank you, Mr. Gosar.
    I want to thank the witnesses for their valuable testimony 
and Ms. Jackson Lee, Mr. Gosar for their questions. Just a 
second.
    Ms. Jackson Lee. Let me say a couple concluding remarks 
before you conclude since you are the final speaker.
    Mr. Quayle. Real quick. We have got to go.
    Ms. Jackson Lee. Let me just say that I think one of the 
most telling statements that you made today was the issue of 
reducing demand. I am very proud of all of you for being 
willing to acknowledge that. I do think that will be, among 
other messages, the strongest message I take back to the 
Department of Homeland Security and the Border Security 
Committee, that we can look at this issue because our boots on 
the ground have acknowledged it as a component to your work. I 
join in that and conclude with my good friend from Arizona that 
is two gentlemen down that we will continue to have 
disagreement on the protection of Federal lands and 
environmental regulation.
    So I thank you each very much. I yield back.
    Mr. Quayle. Thank you, Ms. Jackson Lee.
    We agree to disagree on things. It is not a shock in 
Congress.
    But I want to again thank the witnesses for their 
testimonies. Members of the committee may have some additional 
questions for the witnesses. We will ask you to respond to 
these in writing. The hearing record will be open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
